                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                THE INSPECTOR GENERAL




                                             June 24, 2002

The Honorable John D. Dingell
Ranking Member
Committee on Energy and Commerce
U.S. House of Representatives
Washington, D.C. 20515

Dear Congressman Dingell:

         This letter responds to your request of April 17, 2002, that we identify and summarize the
funding needs of each non-federal Superfund National Priority List (NPL) site so cleanup
activities can be initiated, continued, or expedited. You also requested that we provide the
remedial action prioritization list for each region and any similar nationwide document. We are
sending an identical letter to Congressman Pallone.

        We are providing a series of enclosures that show the current Superfund remedial action
funding process and the need for additional funding to complete remedial actions. Enclosure 1
contains a list of all non-federal Superfund NPL sites where construction is not complete and
additional funding is needed. Funds distributed for some regions include only first and second
quarters distributions -- the rest are for the entire year. Costs associated with remedial
investigation/feasibility study (RI/FS), remedy selection, remedial design, and other
study/investigation activities (collectively called Pipeline Operations) are not included because
they are not budgeted, requested, and distributed by site. The last two columns, “Estimated Total
Cost” and “Obligated to Date,” provide a perspective on a site’s current clean-up status.
Generally, fund led sites with an obligated amount approaching the estimated amount are close to
being construction complete. This relationship is less certain with Potentially Responsible Party
(PRP) and Mixed lead sites because total estimated costs may include non-federal costs.
Enclosure 2 contains a description of EPA’s site cleanup funding process.

        Enclosure 3 contains a summary list of non-federal Superfund NPL sites where
construction is not complete and funding was not provided at requested levels. For FY 2002,
EPA Regions requested approximately $450 million for remedial actions, and EPA Headquarters
allocated approximately $224 million. This figure does not include the $100 million
congressional hold back, which is generally released in early September. Enclosure 4 describes
EPA’s procedures for distributing resources for remedial actions.
                                                2

        Enclosure 5 contains a list of sites undergoing long term response actions. These sites are
generally sites where construction is complete and long term response action involves continuing
treatment activities. Regions requested $46.7 million for long term response actions, and $33.2
million was distributed. We included this information to provide some perspective on funding
used to operate and maintain treatment activities.

National Risk-Based Priority Panel Process for New Start Projects

         EPA’s Office of Enforcement and Compliance Assurance and the Office of Solid Waste
and Emergency Response consider the Prioritized List of Remedial Action Starts that you
requested to be “Enforcement Confidential” information. EPA officials maintain that release of
this list could jeopardize ongoing and future enforcement negotiations and can be withheld under
the Freedom of Information Act (FOIA). 5 U.S.C. Section 552(d) provides in part “This section
is not authority to withhold information from Congress.”

The Department of Justice (DOJ) interpreted 5 U.S.C. Section 552(d) in its Freedom of
Information Guide and Privacy Act Overview, May 2000, edition:

       Subsection (d) of the FOIA makes clear that the Act was not intended to authorize any
       new withholding of information, including from Congress. While individual Members of
       Congress possess merely the same rights of access as those guaranteed to “any person”
       under subsection (a)(3), Congress as a body (or through its committees and
       subcommittees) cannot be denied access to information on the grounds of FOIA
       exemptions.

      Further, the Freedom of Information Guide and Privacy Act Overview, refers to FOIA
Update Volume V., No. 1, pp.3-4, which states:

       In sum, when an agency receives a FOIA request from a Member of Congress, it should
       first determine whether it is a duly authorized request on behalf of Congress through
       legislative committee or subcommittee. Any FOIA request submitted by the chairman of
       a committee or subcommittee on a subject within its jurisdiction should routinely fall into
       this category. On the other hand, if the request is not an official committee or
       subcommittee request, then the agency should process it as a request from “any person”
       under the FOIA, but with particular regard for the considerations of congressional
       relations, discretionary disclosure and waiver referred to above.

        The National Risk-Based Priority list is an Agency document, not the result of any OIG
work, and the Agency has informed us that it is extremely sensitive. Therefore, based on DOJ
guidance, we will not be able to release the information without a request by the Chairman of a
Committee or Subcommittee with jurisdiction. Enclosure 6 describes the National Risk Based
Priority Panel Process for New Start Projects.
                                                3
Examples of Funding Limitations

         We asked Regional officials to identify situations where cleanup could have been
initiated, continued, or expedited with additional funding. Also, we asked the Regions to specify
activities affected and associated funding needs. Here are some examples:

       •   Region 4 expressed concerns about two FY 2002 partially funded sites that will
           require $6 million in additional funds in FY 2002 to maintain clean-up progress.
           Region 4 also said that new starts are now a bottleneck in the Superfund pipeline;
           several new starts for 2001 were listed again in 2002.

       •   Region 6 did not receive approximately $56 million requested for three remedial
           action new starts and three non-time critical removal actions.

       •   Region 7 has several mega-sites where the remediation phase may be lengthened due
           to lack of funding. For example, the Region may stretch a 5-year, $100 million,
           clean-up over 10 years under current funding levels.

       •   Region 8 could have started work at two sites if it had received an additional
           $10 million it requested.

Methodology

        To respond to your request, we obtained information from Superfund officials in each of
EPA’s Regional offices to assemble a listing of the status of funding at each non-federal
Superfund NPL site. Regional officials provided information about site clean-up funding, the
process for obtaining funding, and the significance of funding reductions in recent years. We
relied on the data provided by Superfund officials, including data from the Superfund
information system (CERCLIS). We verified the data used with Superfund officials, but did not
independently determine its accuracy. Currently, we are reviewing the quality of CERCLIS data
and have identified potential issues. When completed, we will provide you with our report.

      If you or your staff have any questions, feel free to call me or Eileen McMahon,
Congressional Liaison, at (202) 260-0401.

                                             Sincerely,
                                               /s/


                                             Nikki L. Tinsley

Enclosures (6)
                                                                                                                           Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                            Region's
                                                                               FY02           FY02         Estimated        Obligated
RG   ST      EPA ID      Site Name                                Lead (1)   Requested     Distributed    Total Cost (2)     To Date      Notes

1    CT   CTD001452093   Durham Meadows                             TBD
1    CT   CTD001153923   Linemaster Switch Corp.                    PRP
1    CT   CTD980669261   Nutmeg Valley Road                        FUND                                         500,000         516,478
1    CT   CTD980670806   Old Southington Landfill                  MIXED
1    CT   CTD051316313   Precision Plating Corp.                    TBD
1    CT   CTD001186618   Raymark Industries, Inc.                   TBD                                      87,000,000      87,120,952
1    CT   CT0002265551   Scovill Industrial Landfill
1    CT   CTD009717604   Solvents Recovery Service New England      TBD                                         350,000         352,688
1    MA   MAD001026319   Atlas Tack Corp.                          FUND       13,100,000                     18,200,000         222,600
1    MA   MAD001041987   Baird & McGuire                           FUND                                     141,400,000     140,917,789
1    MA   MAD982191363   Blackburn & Union Privileges               TBD                                                               0
1    MA   MAD980523336   Haverhill Municipal Landfill               TBD
1    MA   MAD076580950   Industri-Plex                             MIXED                                         70,000          71,323
1    MA   MAD051787323   Iron Horse Park                           MIXED                                      1,100,000       1,068,042
1    MA   MAD980731335   New Bedford Site                          FUND       10,000,000     6,500,000      302,000,000      73,869,436
1    MA   MAD062166335   Nuclear Metals, Inc.
1    MA   MAD990685422   Nyanza Chemical Waste Dump                FUND                                      49,600,000      34,689,428
1    MA   MAD980503973   Shpack Landfill                            TBD
1    MA   MAD000192393   Silresim Chemical Corp.                   FUND                                      51,900,000      23,904,840
1    MA   MAD980520696   Sutton Brook Disposal Area                                                           2,200,000       2,175,313
1    MA   MAD980732168   Wells G&H                                 MIXED                                         13,000          12,691
1    MA   MAD001002252   W.R. Grace & Co Inc (Acton Plant)          PRP                                          50,000          51,852
1    ME   MED980915474   Eastland Woolen Mill                                 12,000,000     5,000,000       43,000,000      36,023,534
1    ME   MED980731475   O'Connor Co.                               PRP                                          20,000          19,013
1    ME   MED985466168   West Site/Hows Corners                     TBD                                       3,200,000       3,211,384
1    NH   NHD018958140   Beede Waste Oil                            TBD                                       6,200,000       5,679,112
1    NH   NHD980520191   Dover Municipal Landfill                  MIXED
1    NH   NHD001079649   Fletcher's Paint Works & Storage          MIXED                                      2,700,000       2,676,878
1    NH   NHD001091453   New Hampshire Plating Co.                 FUND        8,600,000                     14,800,000       5,821,476
1    NH   NHD990717647   Ottati & Goss/Kingston Steel Drum         MIXED       8,450,000     8,450,000       25,500,000      19,486,541
1    NH   NHD980671002   Savage Municipal Water Supply             MIXED                                      9,400,000       9,376,193
1    NH   NHD980520225   Somersworth Sanitary Landfill             MIXED                                          1,000             759
1    RI   RID980520183   Central Landfill                           TBD
1    RI   RID981203755   Centredale Manor Restoration Project                                                 1,600,000       1,636,744



                                                                                                                       R1 final NPL not CC TS5.123
                                                                                                                                 Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                                  Region's
                                                                                     FY02            FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                     Lead (1)    Requested      Distributed   Total Cost (2)     To Date       Notes
1    RI   RID980523070   Davis Liquid Waste                             MIXED                                       8,100,000       8,132,707
1    RI   RID055176283   Peterson/Puritan, Inc.                          TBD                                           70,000          70,544
1    RI   RID980579056   Picillo Farm                                   MIXED                                       3,500,000       3,523,387
1    RI   RID980521025   Rose Hill Regional Landfill                    FUND                                           70,000          70,166
1    RI   RID981063993   West Kingston Town Dump/URI Disposal            TBD
1    VT   VTD988366621   Elizabeth Mine                                             15,000,000
1    VT   VTD988366571   Ely Copper Mine
1    VT   VTD981062441   Parker Sanitary Landfill                        PRP
1    VT   VTD980523062   Pine Street Canal                               PRP                                           600,000        612,507
1    VT   VTD069910354   Pownal Tannery                                                                              8,100,000      8,122,115


                                                           TOTALS                   67,150,000     19,950,000




                 Notes (1) FUND = EPA Lead
                           PRP = Potentially Responsible Party Lead
                           MIXED = Shared Lead Responsibility
                           TBD = To Be Determined

                         (2) Estimated total costs include removal and remedial action costs incurred and expected removal or remedial action costs
                         where a Record of Decision or Action Memorandum has been signed. These projections do not include the cost of work
                         conducted (or to be conducted) by PRPs. Cleanup costs do not include costs associated with investigations, design, oversight,
                         enforcement, administration and payroll, or post-construction.




                                                                                                                              R1 final NPL not CC TS5.123
                                                                                                                         Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                          Region's
                                                                               FY02          FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                Lead (1)   Requested    Distributed   Total Cost (2)     To Date      Notes

2    NJ   NJD002173276   American Cyanamid Co.                     TBD
2    NJ   NJD980505176   Brick Township Landfill                   PRP
2    NJ   NJD053292652   Bridgeport Rental & Oil Services         MIXED                                                   198,000,000
2    NJ   NJD078251675   Brook Industrial Park                    MIXED                                    10,000,000       3,000,000
2    NJ   NJD980504997   Burnt Fly Bog                            FUND       22,000,000                    59,000,000      31,000,000
2    NJ   NJD048798953   Caldwell Trucking Co.                     PRP                                     15,000,000
2    NJ   NJD980484653   Chemical Insecticide Corp.               FUND       28,500,000                                     8,000,000
2    NJ   NJD047321443   Chemical Leaman Tank Lines, Inc.          PRP
2    NJ   NJD980528889   Chemsol, Inc.                             TBD
2    NJ   NJD001502517   Ciba-Geigy Corp.                          PRP                                    238,000,000
2    NJ   NJD980785638   Cinnaminson Ground Water Contamination    PRP
2    NJ   NJD094966611   Combe Fill South Landfill                FUND        1,400,000                                    47,000,000
2    NJ   NJD981557879   Cornell Dubilier Electronics Inc          TBD
2    NJ   NJD000565531   Cosden Chemical Coatings Corp.           FUND                                     14,000,000       4,000,000
2    NJ   NJD002141190   CPS/Madison Industries                    TBD
2    NJ   NJD980529416   D'Imperio Property                        PRP
2    NJ   NJD002168748   Dayco Corp./L.E Carpenter Co.             PRP                                     11,000,000
2    NJ   NJD980761373   De Rewal Chemical Co.                    FUND                                     22,000,000      14,000,000
2    NJ   NJD980529002   Delilah Road                              PRP                                      2,000,000
2    NJ   NJD980528996   Diamond Alkali Co.                        TBD
2    NJ   NJD980654131   Dover Municipal Well 4                    TBD
2    NJ   NJD980772727   Emmell's Septic Landfill                 FUND
2    NJ   NJD980654222   Evor Phillips Leasing                     TBD
2    NJ   NJD980654107   Fair Lawn Well Field                      TBD
2    NJ   NJ0001900281   Federal Creosote                         FUND       33,500,000    31,000,000                      55,000,000
2    NJ   NJD986570992   Franklin Burn                            FUND                                                      1,000,000
2    NJ   NJD041828906   Fried Industries                         FUND                                         11,000       5,000,000
2    NJ   NJD980785646   Glen Ridge Radium Site                   FUND       15,000,000    15,000,000                     110,000,000
2    NJ   NJD063160667   Global Sanitary Landfill                  PRP                                     25,000,000
2    NJ   NJ0001327733   Grand Street Mercury                     MIXED                                    18,000,000      13,000,000
2    NJ   NJD002349058   Hercules, Inc. (Gibbstown Plant)          PRP
2    NJ   NJD053102232   Higgins Disposal                          TBD                                      3,000,000
2    NJ   NJD980663678   Horseshoe Road                            TBD
2    NJ   NJ0001360882   Iceland Coin Laundry Area GW Plume        TBD



                                                                                                                 R2 FINAL NPL NOT CC TS5.123
                                                                                                                           Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                            Region's
                                                                                 FY02          FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                  Lead (1)   Requested    Distributed   Total Cost (2)     To Date         Notes
2    NJ   NJD980654099   Imperial Oil/ChampChem                      FUND                                    36,000,000     14,000,000
2    NJ   NJD097400998   JIS Landfill                                 PRP                                    10,000,000
2    NJ   NJD002493054   Kauffman & Minteer, Inc.                     TBD                                    15,000,000                  0
2    NJ   NJD048044325   Landfill & Development Co.                   TBD
2    NJ   NJD079303020   LCP Chemicals Inc                            TBD
2    NJ   NJD014743678   Lightman Drum Company                        TBD
2    NJ   NJD980505416   Lipari Landfill                             MIXED                                 113,000,000       69,000,000
2    NJ   NJD014623854   Martin Aaron, Inc.                           TBD
2    NJ   NJD980529762   Maywood Chemical Co.                         TBD
2    NJ   NJD002517472   Metaltec/Aerosystems                        FUND                                    21,000,000      10,000,000
2    NJ   NJD980529408   Monitor Devices/Intercircuits Inc            TBD
2    NJ   NJD980785653   Montclair/West Orange Radium Site           FUND                                                    95,000,000
2    NJ   NJD980654164   Montgomery Twnshp Housing Development       FUND       2,000,000                     2,000,000               0
2    NJ   NJD980654198   Myers Property                               PRP                                    46,000,000
2    NJ   NJD002362705   Nascolite Corp.                             MIXED                                   24,000,000       8,000,000
2    NJ   NJD061843249   NL Industries                                PRP                                    17,000,000
2    NJ   NJD980505648   PJP Landfill                                 PRP                                    23,000,000
2    NJ   NJD981179047   Pohatcong Valley Ground Water Contaminat     TBD
2    NJ   NJD070281175   Price Landfill                              MIXED                                   21,000,000       4,000,000
2    NJ   NJD981084767   Puchack Well Field                           TBD
2    NJ   NJD047684451   Radiation Technology, Inc.                   TBD
2    NJ   NJD980654115   Rockaway Borough Well Field                 MIXED
2    NJ   NJD980654214   Rockaway Township Wells                      PRP
2    NJ   NJD980654156   Rocky Hill Municipal Well                   FUND       2,000,000                     2,000,000               0
2    NJ   NJD073732257   Roebling Steel Co.                          FUND      12,000,000     2,400,000                      34,000,000
2    NJ   NJD070565403   Scientific Chemical Processing               PRP
2    NJ   NJD980505762   Sharkey Landfill                             PRP                                    36,000,000
2    NJ   NJD002365930   Shieldalloy Corp.                            PRP
2    NJ   NJD041743220   Swope Oil & Chemical Co.                     PRP
2    NJ   NJD064263817   Syncon Resins                               FUND                                    25,000,000      18,000,000
2    NJ   NJ0001120799   United States Avenue Burn                    TBD
2    NJ   NJD002005106   Universal Oil Products(Chemical Division     TBD
2    NJ   NJD980654172   U.S. Radium Corp.                           FUND      10,000,000     3,000,000                      95,000,000
2    NJ   NJD980529879   Ventron/Velsicol                             PRP
2    NJ   NJD002385664   Vineland Chemical Co., Inc.                 FUND      20,000,000    12,000,000                      56,000,000



                                                                                                                   R2 FINAL NPL NOT CC TS5.123
                                                                                                                         Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                          Region's
                                                                               FY02          FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                Lead (1)   Requested    Distributed   Total Cost (2)     To Date      Notes
2    NJ   NJD054981337   Waldick Aerospace Devices, Inc.           FUND                                    21,000,000       6,000,000
2    NJ   NJD986620995   Welsbach & General Gas Mantle (Camden) FUND         12,000,000     7,000,000                     14,000,000
2    NJ   NJD980755623   White Chemical Corp.                      FUND                                                     8,000,000
2    NJ   NJD980505887   Woodland Route 532 Dump                    PRP                                    36,000,000
2    NJ   NJD980505879   Woodland Route 72 Dump                     PRP                                    36,000,000
2    NJ   NJD986643153   Zschiegner Refining                       FUND
2    NY   NYD980507693   Batavia Landfill                           PRP                                    15,000,000
2    NY   NYD980780670   Byron Barrel & Drum                        PRP                                     6,000,000
2    NY   NYD002044584   Claremont Polychemical                    FUND                                    11,000,000      10,000,000
2    NY   NYD980768691   Colesville Municipal Landfill              PRP                                     5,000,000
2    NY   NYD125499673   Computer Circuits                          TBD
2    NY   NY0002455756   Consolidated Iron and Metal                TBD
2    NY   NYD980528475   Cortese Landfill                           PRP                                     4,000,000
2    NY   NYD981560923   Forest Glen Mobile Home Subdivision       MIXED                                   16,000,000       7,000,000
2    NY   NY0000110247   Fulton Avenue                              TBD
2    NY   NYD981566417   GCL Tie & Treating Inc.                   FUND       4,000,000                    30,000,000      18,000,000
2    NY   NYD091972554   General Motors(Central Foundry Division)   PRP
2    NY   NYD002050110   Genzale Plating Co.                       FUND                                                     4,000,000
2    NY   NYD980780779   Hertel Landfill                            PRP
2    NY   NYD981560915   Hiteman Leather                           FUND
2    NY   NYD002920312   Hooker Chemical/Ruco Polymer Corp          PRP
2    NY   NYD000831644   Hooker (Hyde Park)                         PRP                                    60,000,000
2    NY   NYD980651087   Hooker (S Area)                            PRP                                    54,000,000
2    NY   NYD980763841   Hudson River PCBs                          TBD                                   460,000,000
2    NY   NYD001344456   Jackson Steel                              TBD
2    NY   NYD000813428   Jones Chemicals, Inc.                      PRP                                     1,000,000
2    NY   NYD980650667   Kentucky Avenue Well Field                MIXED
2    NY   NYD002041531   Lawrence Aviation Industries, Inc.         TBD
2    NY   NYD986950251   Lehigh Valley Railroad                     TBD
2    NY   NYD986882660   Li Tungsten Corp.                         MIXED      1,000,000     1,000,000      35,000,000       9,000,000
2    NY   NYD000337295   Liberty Industrial Finishing               TBD                                    21,000,000
2    NY   NY0001233634   Little Valley                             FUND                                                     2,000,000
2    NY   NYD013468939   Ludlow Sand & Gravel                       PRP
2    NY   NYD980753420   MacKenzie Chemical Works, Inc.             TBD
2    NY   NYD048148175   Mercury Refining, Inc.                     TBD



                                                                                                                 R2 FINAL NPL NOT CC TS5.123
                                                                                                                          Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                           Region's
                                                                                 FY02           FY02      Estimated        Obligated
RG   ST      EPA ID      Site Name                                  Lead (1)   Requested     Distributed Total Cost (2)     To Date         Notes
2    NY   NYD986950012   Mohonk Road Industrial Plant                FUND         250,000        250,000    12,000,000       1,000,000
2    NY   NYD000511451   Nepera Chemical Co., Inc.                    TBD
2    NY   NYD980664361   Niagara Mohawk Pwr Co(Saratoga Springs)      PRP                                   15,000,000
2    NY   NYSFN0204234   Old Roosevelt Field Contaminated GW Area     TBD
2    NY   NYD980528657   Olean Well Field                            MIXED       1,000,000     1,000,000                     2,000,000
2    NY   NYD986913580   Onondaga Lake                                TBD
2    NY   NYD980530265   Peter Cooper                                 TBD
2    NY   NYD980592547   Peter Cooper Corporation (Markhams)          TBD
2    NY   NYD980507495   Pfohl Brothers Landfill                      PRP                                   50,000,000
2    NY   NYD980507735   Richardson Hill Road Landfill/Pond           PRP                                   14,000,000
2    NY   NYD982272734   Rosen Brothers Scrap Yard/Dump               PRP                                    3,000,000
2    NY   NYD981486954   Rowe Industries Gnd Water Contamination      PRP
2    NY   NYD980535181   Sealand Restoration, Inc.                    PRP                                     1,000,000
2    NY   NYSFN0204269   Shenandoah Road GW Contamination             TBD
2    NY   NYD980507677   Sidney Landfill                              PRP                                     5,000,000
2    NY   NYD980535215   Sinclair Refinery                            PRP
2    NY   NY0002318889   Smithtown Ground Water Contamination         TBD
2    NY   NYD980421176   Solvent Savers                               PRP                                   30,000,000
2    NY   NYD047650197   Stanton Cleaners Area Ground Water Cont.    FUND                                    2,000,000       1,000,000
2    NY   NYD980509285   Tri-Cities Barrel Co., Inc.                  PRP                                   20,000,000
2    NY   NYD980763767   Vestal Water Supply Well 1-1                FUND        1,600,000     1,600,000     8,000,000       7,000,000
2    NY   NYD980509376   Volney Municipal Landfill                    PRP                                   13,000,000
2    NY   NYD000511733   York Oil Co.                                 PRP                                   11,000,000
2    PR   PRD980512362   Juncos Landfill                             MIXED                                   5,000,000       3,000,000
2    PR   PRD987376662   Scorpio Recycling, Inc.                      TBD
2    PR   PRD980763775   Vega Alta Public Supply Wells                PRP                                   10,000,000
2    PR   PRD980512669   Vega Baja Solid Waste Disposal               TBD
2    VI   VID980651095   Island Chemical Corp/V.I. Chemical Corp      TBD
2    VI   VID982272569   Tutu Wellfield                              MIXED       8,000,000                                              0


                                                        TOTALS                 174,250,000    74,250,000




                                                                                                                  R2 FINAL NPL NOT CC TS5.123
                                                                                                                           Enclosure 1
                    Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                            Region's
                                                                               FY02            FY02        Estimated        Obligated
RG   ST   EPA ID    Site Name                                    Lead (1)    Requested      Distributed   Total Cost (2)     To Date        Notes

              Notes (1) FUND = EPA Lead
                        PRP = Potentially Responsible Party Lead
                        MIXED = Shared Lead Responsibility
                        TBD = To Be Determined

                    (2) Estimated total costs for remedial construction activities include both PRP and Fund costs. Total costs represent the
                     best estimates of cost available at this time. These estimates are generally from Records of Decision, which can be inaccurate.




                                                                                                                    R2 FINAL NPL NOT CC TS5.123
                                                                                                                           Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                            Region's
                                                                                 FY02          FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                  Lead (1)   Requested    Distributed   Total Cost (2)     To Date      Notes

3    DE   DED980693550   Dover Gas Light Co.                          PRP                                     3,000,000
3    DE   DED980555122   E.I.Du Pont de Nemours (Newport Landfill     PRP                                    20,000,000           1,793
3    DE   DED980552244   Koppers Co., Inc. (Newport Plant)            TBD                                             0          22,393
3    DE   DED041212473   Standard Chlorine of Delaware,Inc            TBD                                    16,000,000
3    MD   MDD003061447   Central Chemical (Hagerstown)                TBD                                        50,000           8,682
3    MD   MDD980923783   Kane & Lombard Street Drums                  TBD                                     5,600,000       5,415,251
3    MD   MDD982364341   Ordnance Products, Inc.                      TBD                                     3,500,000       1,042,319
3    MD   MDD980705164   Sand, Gravel & Stone                         PRP                                     8,500,000          16,054
3    MD   MDD000218008   Spectron, Inc.                               TBD                                     8,000,000         480,327
3    PA   PAD003053709   Avco Lycoming (Williamsport Division)        PRP                                     2,000,000
3    PA   PAD980691794   Berks Sand Pit                                           500,000       500,000                       7,225,063
3    PA   PAD047726161   Boarhead Farms                               PRP                                    21,000,000       6,221,200
3    PA   PAD089667695   Breslube-Penn, Inc                           PRP                                                     1,406,138
3    PA   PAD980831812   Brown's Battery Breaking                     PRP                                    12,000,000       1,386,882
3    PA   PAD980508451   Butler Mine Tunnel                           PRP                                     6,000,000         151,413
3    PA   PAD000436261   Centre County Kepone                         PRP                                   10 - 20 M
3    PA   PAD980419097   Crater Resources/Keystone Coke/Alan Wood     PRP                                    10,000,000
3    PA   PAD981740061   Crossley Farm                               FUND                                    21,000,000       4,119,805
3    PA   PAD002384865   Douglassville Disposal                       PRP                                    47,000,000      10,513,494
3    PA   PAD981740004   Dublin TCE Site                              TBD                                    12,000,000       1,968,816
3    PA   PAD980830533   Eastern Diversified Metals                   PRP                                    12,000,000
3    PA   PAD980539712   Elizabethtown Landfill                       PRP                                    22,000,000
3    PA   PAD077087989   Foote Mineral Co.                            PRP
3    PA   PAD002338010   Havertown PCP                               FUND                                    12,000,000      19,747,786
3    PA   PAD002390748   Hellertown Manufacturing Co.                             350,000       350,000                       3,915,661
3    PA   PAD980830897   Hunterstown Road                             PRP                                    10,000,000
3    PA   PAD980829493   Jacks Creek/Sitkin Smelting and Refinery     PRP                                    15,000,000       1,139,184
3    PA   PAD054142781   Keystone Sanitation Landfill                 PRP                                    10,000,000             970
3    PA   PASFN0305521   Lower Darby Creek Area
3    PA   PAD014353445   Malvern TCE                                  PRP                                    18,000,000         155,491
3    PA   PAD046557096   Metal Banks                                  PRP                                    17,000,000
3    PA   PAD980508766   Moyers Landfill                              PRP                                    32,000,000      36,601,817
3    PA   PAD980691372   MW Manufacturing                             PRP                                    60,000,000       2,545,944
3    PA   PAD002342475   North Penn - Area 2                          TBD




                                                                                                                       R3 final NPL not CC TS5.123
                                                                                                                            Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                             Region's
                                                                                 FY02           FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                  Lead (1)   Requested     Distributed   Total Cost (2)     To Date      Notes
3    PA   PAD980692693   North Penn - Area 5                          TBD                                                        311,351
3    PA   PAD980926976   North Penn - Area 6                         FUND        1,000,000                     5,000,000       5,180,116
3    PA   PAD002498632   North Penn - Area 7                          TBD
3    PA   PAD079160842   Novak Sanitary Landfill                      PRP                                     20,000,000
3    PA   PAD980229298   Occidental Chemical Corp./Firestone Tire     PRP                                      7,000,000
3    PA   PAD981938939   Old Wilmington Road GW Contamination                                                                    302,592
3    PA   PAD002395887   Palmerton Zinc Pile                          PRP                                    65,000,000        5,988,877
3    PA   PAD980692594   Paoli Rail Yard                              PRP                                    35,000,000        2,886,762
3    PA   PAD981033285   Rodale Manufacturing Co., Inc.               PRP                                     6,000,000
3    PA   PAD980692487   Saegertown Industrial Area                   PRP                                    5 - 10 M
3    PA   PAD001933175   Sharon Steel Corp(Farrell Wks Disp Area)
3    PA   PAD980830889   Shriver's Corner                             PRP                                     15,000,000          37,880
3    PA   PAD980539126   UGI Columbia Gas Plant                       TBD
3    PA   PAD982363970   Valmont TCE                                                                                             472,637
3    PA   PAD980829527   Walsh Landfill                               PRP                                     12,000,000       4,070,852
3    PA   PAD980706824   Watson Johnson Landfill
3    PA   PAD005000575   Westinghouse Electronic (Sharon Plant)       PRP                                      7,000,000
3    PA   PAD003005014   Whitmoyer Laboratories                       PRP                                     80,000,000       1,894,600
3    PA   PAD980537773   William Dick Lagoons                         PRP                                     14,000,000       4,114,194
3    VA   VAD980551683   Abex Corp.                                   PRP                                     22,000,000         387,286
3    VA   VAD042916361   Arrowhead Associates/Scovill Corp.           PRP                                      8,700,000         242,774
3    VA   VAD990710410   Atlantic Wood Industries, Inc.               TBD                                      5,400,000
3    VA   VAD070358684   Avtex Fibers, Inc.                           PRP                                     76,000,000      34,706,073
3    VA   VAD059165282   Culpeper Wood Preservers, Inc.               TBD                                              0
3    VA   VAD123933426   Former Nansemond Ordnance Depot                                                                              33
3    VA   VAD077923449   Kim-Stan Landfill                           FUND
3    VA   VAD007972482   L.A. Clarke & Son                            PRP                                      3,000,000
3    VA   VAD980831796   Rhinehart Tire Fire Dump                    FUND          16,000                     11,000,000      10,650,765
3    VA   VAD003127578   Saltville Waste Disposal Ponds               PRP                                     28,000,000               0
3    VA   VAD003117389   Saunders Supply                                           24,000         24,000                      15,444,499
3    WV   WVD054827944   Big John Salvage - Hoult Road                                                                         2,819,170
3    WV   WVD047989207   Fike Chemical, Inc.                          TBD                                     38,000,000      21,950,133
3    WV   WVD004336749   Follansbee Site                              TBD                                              0
3    WV   WVD024185373   Hanlin-Allied-Olin                           PRP
3    WV   WVD000850404   Ordnance Works Disposal Areas                PRP                                      8,000,000




                                                                                                                        R3 final NPL not CC TS5.123
                                                                                                                                  Enclosure 1
                      Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                                   Region's
                                                                                     FY02            FY02         Estimated        Obligated
RG ST   EPA ID    Site Name                                            Lead (1)    Requested      Distributed    Total Cost (2)     To Date      Notes
3 WV WVD000800441 Sharon Steel Corp (Fairmont Coke Works)                TBD                                        16,000,000       6,814,820
3 WV WVD988798401 Vienna Tetrachloroethene                                                                                           2,038,477


                                                            TOTALS                   1,890,000        874,000

                                                            NEEDED                   1,016,000


                Notes (1) FUND = EPA Lead
                          PRP = Potentially Responsible Party Lead
                          MIXED = Shared Lead Responsibility
                          TBD = To Be Determined

                      (2) Estimated total costs are for sites with current Remedial Actions or Records of Decision.




                                                                                                                              R3 final NPL not CC TS5.123
                                                                                                                           Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                            Region's
                                                                                 FY02          FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                  Lead (1)   Requested    Distributed   Total Cost (2)     To Date      Notes

4    AL   ALD981868466   American Brass Inc.                         TBD                                                      5,000,000
4    AL   ALD041906173   Interstate Lead Co. (ILCO)                  PRP                                                      7,000,000
4    AL   ALD008188708   Olin Corp. (McIntosh Plant)                 PRP                                                          1,000
4    AL   ALD980844385   Redwing Carriers, Inc. (Saraland)           TBD                                                      4,600,000
4    AL   ALD095688875   Stauffer Chemical Co. (Cold Creek Plant)    PRP
4    AL   ALD008161176   Stauffer Chemical Co. (LeMoyne Plant)       TBD
4    AL   ALD007454085   T.H. Agriculture & Nutrition (Montgomery    PRP
4    FL   FLD012978862   Alaric Area GW Plume
4    FL   FLD008161994   American Creosote Works (Pensacola Plt)     FUND       8,000,000                    19,000,000       7,000,000
4    FL   FLD981014368   Anodyne, Inc.                                PRP
4    FL   FLD980709356   Cabot/Koppers                                PRP                                     4,250,000          56,000
4    FL   FLD094590916   Callaway & Son Drum Service                                                                            200,000
4    FL   FLD991279894   Coleman-Evans Wood Preserving Co.           FUND       7,000,000     4,500,000      33,600,000      33,600,000
4    FL   FLD008168346   Escambia Wood - Pensacola                   FUND                                                    25,200,000
4    FL   FLD984184127   Florida Petroleum Reprocessors               TBD                                                           350
4    FL   FLD053502696   Helena Chemical Co. (Tampa Plant)            TBD
4    FL   FLD004119681   Hollingsworth Solderless Terminal                         50,000        50,000
4    FL   FLD042110841   Landia Chemical Company                                                                                 60,000
4    FL   FLD088787585   MRI Corp (Tampa)                            TBD
4    FL   FLD004091807   Peak Oil Co./Bay Drum Co.                   TBD                                     14,800,000       2,600,000
4    FL   FLD980798698   Petroleum Products Corp.                    TBD                                                          2,650
4    FL   FLD980556351   Pickettville Road Landfill                  TBD                                     12,000,000
4    FL   FLD000824896   Reeves Southeast Galvanizing Corp           PRP                                      2,600,000
4    FL   FLD980602882   Sapp Battery Salvage                        TBD                                     19,300,000       1,000,000
4    FL   FLD045459526   Solitron Microwave                          TBD        2,400,000
4    FL   FL0001209840   Southern Solvents, Inc.                                5,000,000
4    FL   FLD010596013   Stauffer Chemical Co. (Tarpon Springs)      TBD                                     12,000,000          16,500
4    FL   FLD004065546   Tower Chemical Co.                          TBD          250,000                                     1,600,000
4    FL   FLD091471904   Trans Circuits, Inc.                                     200,000
4    FL   FLD980602767   Whitehouse Oil Pits                         PRP                                      8,600,000          83,000
4    FL   FLD049985302   Zellwood Ground Water Contamination        MIXED                                                     2,200,000
4    GA   GAD981024466   Brunswick Wood Preserving                   TBD                                                      8,000,000
4    GA   GAD008212409   Camilla Wood Preserving Company             TBD                                                      1,600,000
4    GA   GAD099303182   LCP Chemicals Georgia                       TBD                                                      1,200,000



                                                                                                                       R4 final NPL not CC TS5.123
                                                                                                                         Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                          Region's
                                                                              FY02           FY02        Estimated        Obligated
RG   ST      EPA ID  Site Name                                Lead (1)      Requested     Distributed   Total Cost (2)     To Date      Notes
4    GA   GAD991275686
                     Marzone Inc./Chevron Chemical Co.          PRP                                        19,500,000        376,000
4    GA   GAD042101261
                     T.H. Agriculture & Nutrition (Albany)      PRP
4    GA   GAD003269578
                     Woolfolk Chemical Works, Inc.              PRP                                        60,000,000          23,000
4    KY   KYD980729107
                     Maxey Flats Nuclear Disposal               PRP                                                         3,200,000
4    KY   KYD049062375
                     National Southwire Aluminum Co.            PRP
4    MS   MSD004006995
                     American Creosote Works, Inc.                                                                          2,600,000
4    MS   MSD046497012
                     Davis Timber Company
4    NC   NCD024644494
                     ABC One Hour Cleaners                     FUND             300,000       300,000       3,000,000       3,300,000
4    NC   NCD980843346
                     Aberdeen Pesticide Dumps                   PRP                                                         2,200,000
4    NC   NCSFN0406989
                     Barber Orchard                                                                                         4,000,000
4    NC   NCD981026479
                     Benfield Industries, Inc.                 FUND             100,000       100,000                       5,400,000
4    NC   NCD003188828
                     Cape Fear Wood Preserving                 FUND             750,000       750,000                      22,400,000
4    NC   NCD003188844
                     Carolina Transformer Co.                  FUND           5,100,000     2,000,000      19,600,000      16,000,000
4    NC   NCD095458527
                     FCX, Inc. (Statesville Plant)             FUND             200,000       200,000                       6,500,000
4    NC   NCD981475932
                     FCX, Inc. (Washington Plant)               TBD                                         3,400,000       3,000,000
4    NC   NCD991278953
                     National Starch & Chemical Corp.           PRP
4    NC   NCD980557656
                     NC State University(Lot 86,Farm Unit #1)   PRP
4    NC   NCD981021157
                     New Hanover Cnty Airport Burn Pit          TBD                                                            55,000
4    NC   NCD986187128
                     North Belmont PCE                         FUND                                         5,300,000       5,500,000
4    SC   SCD058754789
                     Aqua-Tech Environmental Inc (Groce Labs)   TBD                                                           850,000
4    SC   SCD980839542
                     Elmore Waste Disposal                     FUND             450,000       450,000                       1,800,000
4    SC   SCD980310239
                     Koppers Co., Inc. (Charleston Plant)       PRP                                                            10,000
4    SC   SCD003353026
                     Koppers Co., Inc. (Florence Plant)         TBD
4    SC   SCD991279324
                     Leonard Chemical Co., Inc.                 TBD
4    SC   SCD003360476
                     Macalloy Corporation
4    SC   SCD003357589
                     Shuron Inc                                 PRP                                                           360,000
4    TN   TND096070396
                     Ross Metals Inc                           FUND           3,000,000                     7,200,000       1,300,000
                          Special Funding-Enforcement Related                    50,000        50,000
4    TN TND071516959 Tennessee Products                         TBD                                        18,700,000      12,700,000
4    TN TND980844781 Wrigley Charcoal Plant                     TBD                                         3,700,000       1,250,000


                                                        TOTALS               32,850,000     8,400,000




                                                                                                                     R4 final NPL not CC TS5.123
                                                                                                                        Enclosure 1
                    Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                         Region's
                                                                             FY02           FY02        Estimated        Obligated
RG   ST   EPA ID    Site Name                                   Lead (1)   Requested     Distributed   Total Cost (2)     To Date       Notes

              Notes (1) FUND = EPA Lead
                        PRP = Potentially Responsible Party Lead
                        MIXED = Shared Lead Responsibility
                        TBD = To Be Determined

                    (2) Estimated total costs include removal and remedial action costs incurred, and expected removal or remedial action costs
                    where a Record of Decision or Action Memorandum has been signed. Cleanup costs generally do not include costs associated
                    with investigations, design, oversight, enforcement, administration and payroll, or post-construction.




                                                                                                                     R4 final NPL not CC TS5.123
                                                                                                                          Enclosure 1
                          Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                           Region's
                                                                               FY02           FY02        Estimated        Obligated
RG   ST      EPA ID       Site Name                               Lead (1)   Requested     Distributed   Total Cost (2)     To Date      Notes

5    IL   ILD002994259    Amoco Chemicals (Joliet Landfill)        PRP
5    IL   ILD021440375    Beloit Corp.                             TBD
5    IL   ILD010236230    Byron Salvage Yard                       PRP                                                         759,793
5    IL   ILD062340641    DePue/New Jersey Zinc/Mobil Chem Corp    PRP
5    IL   ILD042671248    Indian Refinery-Texaco Lawrenceville     PRP
5    IL    ILT180011975   Interstate Pollution Control, Inc        TBD
5    IL   ILD006282479    Jennison-Wright Corporation             FUND        12,500,000                   12 - 15 M           570,000
5    IL   ILD980823991    Kerr-McGee (Kress Creek/W Branch DuPage) TBD
5    IL   ILD980824007    Kerr-McGee (Reed-Keppler Park)           PRP
5    IL   ILD980824015    Kerr-McGee (Residential Areas)           PRP
5    IL   ILD980824031    Kerr-McGee (Sewage Treatment Plant)      TBD
5    IL   ILD980794333    LaSalle Electric Utilities              FUND                 0             0                      49,114,247    (3)
5    IL   ILD005451711    Lenz Oil Service, Inc.                   PRP
5    IL   ILD980497788    MIG/Dewane Landfill                      TBD                                     30 - 40 M            16,756
5    IL   ILD980606750    Ottawa Radiation Areas                  FUND                                                      29,000,000
5    IL   ILD000802827    Outboard Marine Corp.                    PRP
5    IL   ILD005252432    Parsons Casket Hardware Co.             FUND           170,000       170,000                       4,000,000
5    IL   ILD981000417    Southeast Rockford Gd Wtr Contamination MIXED                                    0 - 15 M          4,350,000
5    IL   ILD980500102    Yeoman Creek Landfill                    PRP
5    IN   IND016360265    American Chemical Service, Inc.          PRP                                                          19,500
5    IN   IND005480462    Cam-Or Inc                               TBD                                                         793,844
5    IN   IND000715490    Conrail Rail Yard (Elkhart)              PRP                                                           3,388
5    IN   IND001213503    Continental Steel Corp.                 FUND        10,000,000                   60 - 80 M        39,000,000
5    IN   IND084259951    Envirochem Corp.                         PRP                                                       1,195,156
5    IN   IND980500292    Himco Dump                               TBD
5    IN   IND064703200    Lakeland Disposal Service, Inc.          PRP
5    IN   IND980794341    Lemon Lane Landfill                      PRP                                                          26,833
5    IN   IND980615421    MIDCO I                                  PRP                                                         902,658
5    IN   IND980679559    MIDCO II                                 PRP                                                       2,343,737
5    IN   IND980614556    Neal's Landfill (Bloomington)            PRP                                                           1,540
5    MI   MI0001119106    Aircraft Components (D & L Sales)       FUND         1,500,000                     1,500,000       7,000,000
5    MI   MID006007306    Allied Paper/Portage Ck/Kalamazoo River  TBD                                                       9,970,000
5    MI   MID017188673    Barrels, Inc.                            TBD
5    MI   MID006030373    Bofors Nobel, Inc.                       PRP                                                      16,303,000



                                                                                                                       R5 final NPL not CC TS5.123
                                                                                                                           Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                            Region's
                                                                                 FY02          FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                  Lead (1)   Requested    Distributed   Total Cost (2)     To Date         Notes
5    MI   MID006016703   Kaydon Corp.                                 TBD
5    MI   MID980506463   K&L Avenue Landfill                          PRP                                                        13,488
5    MI   MID000775957   Michigan Disposal(Cork Street Landfill)      PRP
5    MI   MID005480900   North Bronson Industrial Area                PRP
5    MI   MID990858003   Organic Chemicals, Inc.                      PRP
5    MI   MID006028062   Rockwell International Corp. (Allegan)       TBD
5    MI   MID980794473   Shiawassee River                           TBD-PRP
5    MI   MID069826170   South Macomb Disposal (Landfills 9 & 9A)     TBD
5    MI   MID079300125   Spartan Chemical Co.                        FUND                                                     1,600,000
5    MI   MID980609341   State Disposal Landfill, Inc.                TBD
5    MI   MID980794655   Tar Lake                                     TBD                                                     9,107,074
5    MI   MID044567162   Thermo-Chem, Inc.                            PRP                                                       145,143
5    MI   MID980901946   Torch Lake                                  FUND                                                    15,200,000
5    MI   MID000722439   Velsicol Chemical Corp (Michigan)           MIXED     13,200,000    13,200,000     30 - 60 M        36,100,000       (4)
5    MN   MND982425209   Baytown Township Ground Water Plume          PRP
5    MN   MND038384004   Freeway Sanitary Landfill                    PRP
5    MN   MND985701309   Fridley Commons Park Well Field              TBD
5    MN   MND006192694   MacGillis & Gibbs/Bell Lumber & Pole Co.    FUND         300,000       300,000                      25,000,000
5    MN   MND039045430   St. Louis River Site                         PRP
5    MN   MND057597940   St. Regis Paper Co.                          PRP
5    OH   OHD043730217   Allied Chemical & Ironton Coke               PRP
5    OH   OHD980509657   Buckeye Reclamation                          PRP
5    OH   OHD980614572   Fields Brook                                 PRP                                                         3,446
5    OH   OHD000377911   Industrial Excess Landfill                   TBD                                                     1,896,887
5    OH   OHD980610018   Nease Chemical                               TBD
5    OH   OHD980611875   North Sanitary Landfill                      TBD
5    WI   WID039052626   Moss-American(Kerr-McGee Oil Co.)            PRP
5    WI   WID980996367   Sheboygan Harbor & River                     TBD
5    WI   WID980610307   Tomah Municipal Sanitary Landfill            PRP                                                                0


                                                          TOTALS               37,670,000    13,670,000




                                                                                                                        R5 final NPL not CC TS5.123
                                                                                                                          Enclosure 1
                   Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                           Region's
                                                                              FY02            FY02        Estimated           Obligated
RG   ST   EPA ID   Site Name                                    Lead (1)    Requested      Distributed   Total Cost (2)        To Date    Notes

          Notes:   (1) FUND = EPA Lead
                       PRP = Potentially Responsible Party Lead
                       MIXED = Shared Lead Responsibility
                       TBD = To Be Determined

                   (2) With regard to PRP-lead sites, we do not have authoritative information on past costs expended by PRPs
                   or future costs planned by PRPs. PRPs are not required to provide this information to EPA.

                   (3) An original $7 million "SCAP request" was a "contingency" due to a pending court case.

                   (4) This site was declared construction complete in 1992. Substantial new RA has since been required.
                   The FY 02 original "request" was for the total project amount required. HQ has distributed all necessary
                   funding to Region 5 for FY 02, $13.2 million.




                                                                                                                       R5 final NPL not CC TS5.123
                                                                                                                         Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                          Region's
                                                                               FY02          FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                Lead (1)   Requested    Distributed   Total Cost (2)     To Date      Notes

6    AR   ARD049658628   Mountain Pine Pressure Treating          FUND                                                        670,000
6    AR   ARD042755231   Ouachita Nevada Wood Treater             FUND                                                      3,000,000
6    LA   LAD008187940   Central Wood Preserving Co.              FUND        9,000,000                     9,000,000         725,000
6    LA   LAD072606627   Combustion, Inc.                          PRP                                                              0
6    LA   LAD052510344   Delatte Metals                           FUND       14,000,000                    14,000,000       4,900,000
6    LA   LA0000187518   Mallard Bay Landing Bulk Plant            TBD                                                      1,300,000
6    LA   LAD008473142   Marion Pressure Treating                 FUND                                     22,000,000         470,000
6    LA   LAD980745533   Old Inger Oil Refinery                   FUND                                     25,300,000      26,200,000
6    LA   LAD057482713   Petro-Processors of Louisiana Inc         PRP                                                            275
6    LA   LAD985185107   Ruston Foundry                            TBD                                                         33,000
6    NM   NMD980622864   AT&SF (Albuquerque)                       PRP                                     60,000,000           2,000
6    NM   NMD986668911   Fruit Avenue Plume                       FUND                                      7,000,000
6    NM   NM0002271286   Griggs & Walnut Ground Water Plume        TBD
6    NM   NMD986670156   North Railroad Avenue Plume              FUND                                      6,000,000
6    OK   OKD082471988   Hudson Refinery                           State      8,500,000                                     5,800,000    (3)
6    OK   OK0002024099   Imperial Refining Company                 TBD
6    OK   OKD980620868   Mosley Road Sanitary Landfill             PRP                                      4,000,000
6    OK   OKD091598870   Oklahoma Refining Co.                    FUND                                     43,000,000      18,300,000
6    OK   OKD980629844   Tar Creek (Ottawa County)                FUND        5,000,000                    25,000,000      63,800,000
6    OK   OKD987096195   Tulsa Fuel and Manufacturing              TBD
6    TX   TXD008123168   ALCOA (Point Comfort)/Lavaca Bay          TBD                                     57,000,000             640
6    TX   TXD980625453   Brio Refining, Inc.                       PRP                                     80,000,000          45,000
6    TX   TX0001399435   City of Perryton Well No. 2              FUND        2,000,000     2,000,000       4,000,000         930,000
6    TX   TXD990707010   Crystal Chemical Co.                      PRP                                     16,000,000         950,000
6    TX   TXD007330053   Garland Creosoting                       FUND                                                      7,800,000
6    TX   TXD050299577   Hart Creosoting Company                  FUND       10,000,000                                       425,000
6    TX   TXD008096240   Jasper Creosoting Company Inc            FUND        6,500,000                                       760,000
6    TX   TXD980623904   Koppers Co Inc (Texarkana Plant)          PRP                                    6 - 10 M          5,000,000
6    TX   TXD980864789   Malone Service Company, Inc.              PRP                                                      3,700,000
6    TX   TXD008083404   Many Diversified Interests, Inc.         FUND                                                        400,000
6    TX   TXD980873343   North Cavalcade Street                   FUND          250,000       250,000      10,000,000      10,300,000
6    TX   TXD068104561   Palmer Barge Line                         PRP                                                      1,500,000
6    TX   TXD980873350   Petro-Chemical Systems, (Turtle Bayou)   MIXED                                    38,000,000       8,500,000
6    TX   TXD066379645   Rockwool Industries Inc                  FUND



                                                                                                                 R6 FINAL NPL NOT CC TS5.123
                                                                                                                                Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                                 Region's
                                                                                      FY02          FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                    Lead (1)      Requested    Distributed   Total Cost (2)     To Date      Notes
6    TX   TXD079348397   RSR Corp.                                     MIXED                                      49,000,000     11,500,000
6    TX   TXD062132147   Sheridan Disposal Services                     PRP                                       28,000,000
6    TX   TX0001407444   Sprague Road Ground Water Plume               FUND          8,000,000                    20,000,000         360,000
6    TX   TX0001414341   Star Lake Canal                                PRP
6    TX   TXD099801102   State Marine of Port Arthur                    TBD                                                          525,000
6    TX   TXSFN0605177   State Road 114 Ground Water Plume             FUND
6    TX   TXD062113329   Tex-Tin Corp                                   PRP                                       40,000,000         890,000
6    TX   TXD008056152   Texarkana Wood Preserving Co.                 FUND                                       10,000,000      10,400,000

                                                           TOTALS                   63,250,000     2,250,000




                 Notes (1) FUND = EPA Lead
                           PRP = Potentially Responsible Party Lead
                           MIXED = Shared Lead Responsibility
                           TBD = To Be Determined

                         (2) Estimated total costs include removal and remedial action costs incurred (including PRP costs where known or estimated),
                         and expected removal or remedial action costs where a Record of Decision or Action Memorandum has been signed. Cleanup
                         costs do not include costs associated with investigations, design, oversight, enforcement, administration and payroll,
                         or post-construction.

                         (3) FY02 request is for Non-Time Critical Removal Action




                                                                                                                        R6 FINAL NPL NOT CC TS5.123
                                                                                                                           Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                            Region's
                                                                                 FY02          FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                  Lead (1)   Requested    Distributed   Total Cost (2)     To Date         Notes

7    IA   IAD980969190   Mason City Coal Gasification Plant            PRP
7    KS   KSD981710247   57th and North Broadway Streets Site         FUND        100,000       100,000       2,810,000       1,400,000
7    KS   KSD046746731   Ace Services                                 FUND      5,200,000     5,200,000       8,100,000       6,000,000
7    KS   KSD031349624   Chemical Commodities, Inc.                    PRP
7    KS   KSD980741862   Cherokee County                              MIXED                                                  34,500,000
7    KS   KSD980631766   Obee Road                                     PRP
7    KS   KSD980862726   Strother Field Industrial Park                PRP
7    KS   KSD984985929   Wright Ground Water Contamination            FUND                                                    1,770,000
7    MO   MOD046750253   Armour Road                                   PRP
7    MO   MOD981126899   Big River Mine Tailings/St. Joe Minerals      PRP
7    MO   MOD980965982   Missouri Electric Works                      MIXED                                                   3,500,000
7    MO   MOD985798339   Newton County Wells
7    MO   MOD980686281   Oronogo-Duenweg Mining Belt                  FUND                                                   31,000,000
7    MO   MO0000958835   Pools Prairie                                 PRP
7    MO   MOD981720246   Riverfront                                                                                                      0
7    MO   MOD980633176   St Louis Airport/HIS/Futura Coatings Co.
7    MO   MOD980968341   Valley Park TCE                               PRP
7    MO   MOD079900932   Westlake Landfill                             PRP
7    NE   NED981713837   10th Street Site                             FUND      2,060,000                                                0
7    NE   NED981713829   Bruno Co-op Association/Associated Prop       PRP
7    NE   NED981499312   Cleburn Street Well                           PRP                                    3,000,000       1,690,000
7    NE   NED980862668   Hastings Ground Water Contamination          MIXED     2,000,000                                     6,300,000
7    NE   NE6211890011   Nebraska Ordnance Plant (Former)
7    NE   NED986369247   Ogallala Ground Water Contamination          FUND                                                      100,000


                                                          TOTALS                9,360,000     5,300,000




                 Notes (1) FUND = EPA Lead
                           PRP = Potentially Responsible Party Lead
                           MIXED = Shared Lead Responsibility



                                                                                                                       R7 final NPL not CC TS5.123
                                                                                                                           Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                            Region's
                                                                                 FY02          FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                  Lead (1)   Requested    Distributed   Total Cost (2)     To Date         Notes

7    IA   IAD980969190   Mason City Coal Gasification Plant            PRP
7    KS   KSD981710247   57th and North Broadway Streets Site         FUND        100,000       100,000       2,810,000       1,400,000
7    KS   KSD046746731   Ace Services                                 FUND      5,200,000     5,200,000       8,100,000       6,000,000
7    KS   KSD031349624   Chemical Commodities, Inc.                    PRP
7    KS   KSD980741862   Cherokee County                              MIXED                                                  34,500,000
7    KS   KSD980631766   Obee Road                                     PRP
7    KS   KSD980862726   Strother Field Industrial Park                PRP
7    KS   KSD984985929   Wright Ground Water Contamination            FUND                                                    1,770,000
7    MO   MOD046750253   Armour Road                                   PRP
7    MO   MOD981126899   Big River Mine Tailings/St. Joe Minerals      PRP
7    MO   MOD980965982   Missouri Electric Works                      MIXED                                                   3,500,000
7    MO   MOD985798339   Newton County Wells
7    MO   MOD980686281   Oronogo-Duenweg Mining Belt                  FUND                                                   31,000,000
7    MO   MO0000958835   Pools Prairie                                 PRP
7    MO   MOD981720246   Riverfront                                                                                                      0
7    MO   MOD980633176   St Louis Airport/HIS/Futura Coatings Co.
7    MO   MOD980968341   Valley Park TCE                               PRP
7    MO   MOD079900932   Westlake Landfill                             PRP
7    NE   NED981713837   10th Street Site                             FUND      2,060,000                                                0
7    NE   NED981713829   Bruno Co-op Association/Associated Prop       PRP
7    NE   NED981499312   Cleburn Street Well                           PRP                                    3,000,000       1,690,000
7    NE   NED980862668   Hastings Ground Water Contamination          MIXED     2,000,000                                     6,300,000
7    NE   NE6211890011   Nebraska Ordnance Plant (Former)
7    NE   NED986369247   Ogallala Ground Water Contamination          FUND                                                      100,000


                                                          TOTALS                9,360,000     5,300,000




                 Notes (1) FUND = EPA Lead
                           PRP = Potentially Responsible Party Lead
                           MIXED = Shared Lead Responsibility



                                                                                                                       R7 final NPL not CC TS5.123
    TBD = To Be Determined

(2) For mixed and fund lead sites, the EPA costs incurred to date and, where there is a final Record of Decision, estimated total
cleanup costs associated with each site are shown. Cleanup costs include Non-Time Critical Removal and remedial action
costs incurred (not including PRP costs) and expected removal or remedial action costs where a final Record of Decision or
Action Memorandum has been signed. Cleanup costs do not include costs associated with investigations, design, oversight,
enforcement, administration and payroll, or post-construction. No cost information is shown for PRP-lead sites.




                                                                                                     R7 final NPL not CC TS5.123
                                                                                                                          Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                           Region's
                                                                                FY02          FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                Lead (1)    Requested    Distributed   Total Cost (2)     To Date      Notes

8    CO   COD980717938   California Gulch                             MIXED                                                 22,400,000
8    CO   COD980717557   Central City, Clear Creek                    MIXED                                                 18,900,000
8    CO   COD980716955   Denver Radium Site                           MIXED   15,200,000    10,000,000     152,000,000     104,000,000
8    CO   COD042167858   Lincoln Park                                  PRP
8    CO   COD980499248   Lowry Landfill                                PRP
8    CO   COD983778432   Summitville Mine                             MIXED                                173,000,000     151,300,000
8    CO   COD007063274   Uravan Uranium Project (Union Carbide)        PRP
8    CO   CO0002259588   Vasquez Boulevard and I-70                   MIXED    7,000,000                                     1,600,000
8    MT   MTD093291656   Anaconda Co. Smelter                          PRP                                 90 - 160M
8    MT   MT6122307485   Barker Hughesville Mining District           FUND
8    MT   MTD982572562   Basin Mining Area                            FUND     3,900,000                                     5,500,000
8    MT   MT0001096353   Carpenter Snow Creek Mining District         FUND
8    MT   MTD006230346   East Helena Site                              PRP
8    MT   MT0007623052   Lockwood Solvent Ground Water Plume          FUND                                                   1,200,000
8    MT   MTD980717565   Milltown Reservoir Sediments                  PRP                                                     600,000
8    MT   MTD980502777   Silver Bow Creek/Butte Area                   PRP
8    MT   MTSFN7578012   Upper Tenmile Creek Mining Area              FUND     3,500,000                   23 - 28M         10,100,000
8    SD   SDD987673985   Gilt Edge Mine                               FUND    13,400,000     5,400,000     37,000,000       21,600,000
8    UT   UT0001119296   Bountiful/Woods Cross 5th S. PCE Plume
8    UT   UT0001277359   Intermountain Waste Oil Refinery             FUND                                                      60,000
8    UT   UTD093120921   International Smelting and Refining           PRP
8    UT   UT0002391472   Jacobs Smelter                               FUND                                                  12,100,000
8    UT   UTD081834277   Midvale Slag                                 MIXED                                                 25,000,000


                                                        TOTALS                43,000,000    15,400,000



                 Notes (1) FUND = EPA Lead
                           PRP = Potentially Responsible Party Lead



                                                                                                                       R8 final NPL not CC TS5.123
    MIXED = Shared Lead Responsibility
    TBD = To Be Determined

(2) Estimated total costs include past removal and remedial action costs incurred and expected removal or remedial action
costs where a Record of Decision or Action Memorandum has been signed. Cleanup costs do not include costs associated
with investigations, design, oversight, enforcement, administration and payroll, or post-construction. PRP costs are included
where they are known or a reasonable estimate could be made.




                                                                                                     R8 final NPL not CC TS5.123
                                                                                                                          Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                          Region's
                                                                              FY02           FY02        Estimated         Obligated
RG   ST      EPA ID      Site Name                               Lead (1)   Requested     Distributed   Total Cost (2)      To Date       Notes

9    AZ   AZD008399263   Apache Powder Co.                         PRP                                     25 - 30 M
9    AZ   AZD980695969   Indian Bend Wash Area                    MIXED         100,000       100,000       140 M            1,140,715
9    AZ   AZD009004177   Motorola, Inc.(52nd Street Plant)         PRP                                      100 M
9    AZ   AZD980695902   Phoenix-Goodyear Airport Area             PRP                                     75 - 80 M
9    AZ   AZD980737530   Tucson International Airport Area        MIXED                                   90 - 110 M           759,158
9    CA   CAD980358832   Aerojet General Corp.                     PRP
9    CA   CAD098229214   Alark Hard Chrome
9    CA   CAD052384021   Brown & Bryant, Inc.(Arvin Plant)         TBD                                     15 - 20 M         7,697,688
9    CA   CAD020748125   Casmalia Resources                                                               250 - 300 M       10,893,462
9    CA   CAD063015887   Coast Wood Preserving                     PRP                                        1M
9    CA   CAD055753370   Cooper Drum Company
9    CA   CAD980498455   Crazy Horse Sanitary Landfill             PRP
9    CA   CAD980636914   Fresno Municipal Sanitary Landfill        PRP                                    15 - 20 M
9    CA   CAD980498612   Iron Mountain Mine                       MIXED       1,500,000     1,500,000      880 M            36,578,896
9    CA   CAD009103318   Jasco Chemical Corp.                      PRP                                  800 K - 1.1 M
9    CA   CAD009112087   Koppers Co., Inc. (Oroville Plant)        PRP                                    30 - 35 M
9    CA   CAD983618893   Lava Cap Mine                             TBD                                                         505,091
9    CA   CAD980673685   Leviathan Mine                                                                                        344,984
9    CA   CAD009106527   McCormick & Baxter Creosoting Co.         TBD        1,405,000     1,405,000                        4,192,245
9    CA   CAD981997752   Modesto Ground Water Contamination       FUND          368,000       368,000       5-7M             2,371,092
9    CA   CAD008242711   Montrose Chemical Corp.                   TBD                                                      21,357,403
9    CA   CAD981434517   Newmark Ground Water Contamination        TBD                0             0      50 - 70 M        26,465,859
9    CA   CAD042245001   Omega Chemical Corporation                TBD
9    CA   CAT080012024   Operating Industries, Inc., Landfill      PRP                                    500 - 550 M       13,760,319
9    CA   CAD980737092   Pemaco Maywood                           FUND                                                         817,380
9    CA   CAD980736151   Purity Oil Sales, Inc.                    PRP                                     40 - 50 M         1,586,541
9    CA   CAD980894893   San Fernando Valley (Area 1)              PRP                                    250 - 300 M        5,048,087
9    CA   CAD980894901   San Fernando Valley (Area 2)              PRP                                       80 M
9    CA   CAD980894984   San Fernando Valley (Area 3)              TBD
9    CA   CAD980894976   San Fernando Valley (Area 4)              TBD
9    CA   CAD980677355   San Gabriel Valley (Area 1)               TBD        2,400,000     2,378,000                       10,536,620
9    CA   CAD980818512   San Gabriel Valley (Area 2)               PRP                                      300 M                  296
9    CA   CAD980818579   San Gabriel Valley (Area 3)               TBD
9    CA   CAD980817985   San Gabriel Valley (Area 4)               TBD                                     30 - 35 M



                                                                                                                        R9 final NPL not CC TS5.123
                                                                                                                               Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                                Region's
                                                                                   FY02            FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                    Lead (1)   Requested      Distributed   Total Cost (2)     To Date       Notes
9    CA   CAD029452141   Selma Treating Co.                            FUND                                       30 M          18,006,660
9    CA   CAT080012826   Stringfellow                                   PRP                                        1B           41,927,369
9    CA   CAD980893275   Sulphur Bank Mercury Mine                      TBD                                                       5,083,219
9    CA   CAD009106220   T.H. Agriculture & Nutrition Co.               PRP
9    CA   CAD981436363   United Heckathorn Co.                          PRP
9    CA   CAD063020143   Valley Wood Preserving, Inc.                   PRP                                      3.5 - 5 M
9    CA   CAD980884357   Waste Disposal, Inc.                           PRP                                      8 - 10 M            19,036
9    HI   HID980637631   Del Monte Corp. (Oahu Plantation)              PRP
9    NV   NVD980813646   Carson River Mercury Site                     FUND                                                       3,767,180


                                                             TOTALS                5,773,000      5,751,000



                 Notes (1) FUND = EPA Lead
                           PRP = Potentially Responsible Party Lead
                           MIXED = Shared Lead Responsibility
                           TBD = To Be Determined

                         (2) Estimated total costs include removal and remedial action costs incurred (including PRP costs, which are estimated),
                         and expected removal or remedial action costs. Cleanup costs do not include costs associated with investigations, design,
                         oversight, enforcement, administration or payroll.




                                                                                                                             R9 final NPL not CC TS5.123
                                                                                                                            Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                             Region's
                                                                                  FY02          FY02        Estimated        Obligated
RG   ST       EPA ID     Site Name                                  Lead (1)    Requested    Distributed   Total Cost (2)     To Date      Notes

10   AK   AKD980988158 Arctic Surplus                                    TBD                                     336,000         336,000
10   ID    IDD048340921 Bunker Hill Mining & Metallurgical              MIXED    4,700,000     4,350,000     562,300,000     151,000,000
10   ID    IDD984666610 Eastern Michaud Flats Contamination              PRP
10   OR   ORD009020603 McCormick & Baxter Creos. Co. (Portland)         FUND     3,377,000     3,200,000      25,500,000      10,700,000
10   OR   ORD980988307 Northwest Pipe & Casing/Hall Process Co          FUND     1,600,000       400,000       7,700,000       3,200,000
10   OR   ORSFN1002155 Portland Harbor                                   PRP
10   OR   ORD009412677 Reynolds Metals Company                           PRP
10   OR   ORD009042532 Taylor Lumber and Treating                       FUND                                  17,300,000       2,300,000
10   OR   ORD050955848 Teledyne Wah Chang                                PRP
10   OR   ORD009049412 Union Pacific Railroad Tie Treatment              PRP
10   WA   WAD009624453 Boomsnub/Airco                                   FUND                                  10,800,000      10,800,000
10   WA   WAD980726368 Commencement Bay, Near Shore/Tide Flats           PRP                                                           0
10   WA   WAD053614988 Frontier Hard Chrome, Inc.                       FUND       530,000       530,000       4,000,000
10   WA   WASFN1002174 Hamilton/Labree Roads GW Contamination            TBD                                   6,809,000           9,000
10   WA   WAD980722839 Harbor Island (Lead)                              PRP
10   WA   WAD000065508 Kaiser Aluminum Mead Works                        PRP
10   WA   WA0002329803 Lower Duwamish Waterway                           PRP
10   WA   WAD980978753 Midnite Mine                                      TBD                                  75,000,000
10   WA   WAD988466355 Moses Lake Wellfield Contamination                TBD
10   WA   WAD000641548 North Market Street                               PRP
10   WA   WAD008957243 Oeser Co                                          TBD                                   2,200,000       2,200,000
10   WA   WAD009248287 Pacific Sound Resources                          FUND                                  10,200,000
10   WA   WAD991281874 Pasco Sanitary Landfill                           PRP
10   WA   WAD009248295 Wyckoff Co./Eagle Harbor                         FUND     4,600,000     4,600,000      84,300,000      50,000,000
10   WA   WAD0000026534 Palermo Well Field Ground Water Contamin.       FUND       102,000       102,000                       4,800,000


                                                          TOTALS                14,909,000    13,182,000



                   Notes (1) FUND = EPA Lead
                             PRP = Potentially Responsible Party Lead
                             MIXED = Shared Lead Responsibility



                                                                                                                   R10 FINAL NPL NOT CC TS5.123
                                                                                                                            Enclosure 1
                         Funding Information on all Non-Federal NPL Sites Not Yet Construction Complete
                                                                                                             Region's
                                                                                  FY02          FY02        Estimated        Obligated
RG   ST       EPA ID     Site Name                                  Lead (1)    Requested    Distributed   Total Cost (2)     To Date      Notes

10   AK   AKD980988158 Arctic Surplus                                    TBD                                     336,000         336,000
10   ID    IDD048340921 Bunker Hill Mining & Metallurgical              MIXED    4,700,000     4,350,000     562,300,000     151,000,000
10   ID    IDD984666610 Eastern Michaud Flats Contamination              PRP
10   OR   ORD009020603 McCormick & Baxter Creos. Co. (Portland)         FUND     3,377,000     3,200,000      25,500,000      10,700,000
10   OR   ORD980988307 Northwest Pipe & Casing/Hall Process Co          FUND     1,600,000       400,000       7,700,000       3,200,000
10   OR   ORSFN1002155 Portland Harbor                                   PRP
10   OR   ORD009412677 Reynolds Metals Company                           PRP
10   OR   ORD009042532 Taylor Lumber and Treating                       FUND                                  17,300,000       2,300,000
10   OR   ORD050955848 Teledyne Wah Chang                                PRP
10   OR   ORD009049412 Union Pacific Railroad Tie Treatment              PRP
10   WA   WAD009624453 Boomsnub/Airco                                   FUND                                  10,800,000      10,800,000
10   WA   WAD980726368 Commencement Bay, Near Shore/Tide Flats           PRP                                                           0
10   WA   WAD053614988 Frontier Hard Chrome, Inc.                       FUND       530,000       530,000       4,000,000
10   WA   WASFN1002174 Hamilton/Labree Roads GW Contamination            TBD                                   6,809,000           9,000
10   WA   WAD980722839 Harbor Island (Lead)                              PRP
10   WA   WAD000065508 Kaiser Aluminum Mead Works                        PRP
10   WA   WA0002329803 Lower Duwamish Waterway                           PRP
10   WA   WAD980978753 Midnite Mine                                      TBD                                  75,000,000
10   WA   WAD988466355 Moses Lake Wellfield Contamination                TBD
10   WA   WAD000641548 North Market Street                               PRP
10   WA   WAD008957243 Oeser Co                                          TBD                                   2,200,000       2,200,000
10   WA   WAD009248287 Pacific Sound Resources                          FUND                                  10,200,000
10   WA   WAD991281874 Pasco Sanitary Landfill                           PRP
10   WA   WAD009248295 Wyckoff Co./Eagle Harbor                         FUND     4,600,000     4,600,000      84,300,000      50,000,000
10   WA   WAD0000026534 Palermo Well Field Ground Water Contamin.       FUND       102,000       102,000                       4,800,000


                                                          TOTALS                14,909,000    13,182,000



                   Notes (1) FUND = EPA Lead
                             PRP = Potentially Responsible Party Lead
                             MIXED = Shared Lead Responsibility



                                                                                                                   R10 FINAL NPL NOT CC TS5.123
    TBD = To Be Determined

(2) Estimated total costs include removal and remedial action costs incurred by EPA, and expected removal or remedial action
costs where a Record of Decision or Action Memorandum has been signed, or a Proposed Plan issued. Cleanup costs do not
include costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.




                                                                                               R10 FINAL NPL NOT CC TS5.123
                                                                                      Enclosure 2

                                     Site Clean-up Funding

       Funds for site clean-up activities are budgeted, requested and distributed in three separate
categories -- emergency removal, pipeline operations, and remedial action. EPA has used these
categories since FY 1999. Its methods for estimating and providing these resources differ and
have changed over time. Details on each follow.

Emergency Removal

         Headquarters emergency removal funds are distributed to Regions based on past
spending, not by site. Site-specific needs can not be estimated until the emergency is identified.
If site needs exceed the Region’s resources, a request for additional funding is submitted to
Headquarters.

Pipeline Operations

        For FY 2002, Headquarters distributed funds to Regions based on a Region’s prior year
allocation and expected workload, not by site. As explained in OSWER Directive # 9200.2-44,
FY 2002 Superfund Pipeline Operations Advice of Allowance Allocation Process (Enclosure 5)
this approach was used, “because annual resource needs across the country vary based on the
number of sites and type of work being conducted, and because allocating finite resources based
on future work needs is more appropriate than basing allocations on historical resource use.”
Past year funding distributions have been based on other workload models and on the average of
the prior 3 years funding. The Regions suggested an overall slowdown in the pace of pipeline
operations due to limited funding.

Remedial Actions

        Funds for remedial action sites are distributed to the Regions based on Headquarters’
review of site specific requests. The Regions explained that until FY 2002, on-going remedial
actions were fully funded while new start funding was distributed based on site prioritization.
For FY 2002, on-going remedial actions were not fully funded, but were funded at amounts
determined by Headquarters. New starts funding has been prioritized through the National Risk-
Based Priority Panel process since FY 1995.

On-Going Remedial Actions and Long-Term Response Actions

        For FY 2002, EPA Headquarters asked the Regions to submit Project Evaluation Forms
for on-going remedial actions that need more than $5 million and for long-term response actions
that need more than $600,000 in funding for FY 2002. The forms required that Regions specify a
minimum funding level and described how changes to project budgets and schedules would
affect human health and the environment, cost, and national program priorities. The Regions
submitted 17 remedial action and 20 long-term response action forms. The information collected
was then used by Headquarters to prioritize sites to determine how best to distribute funds among
the high-cost projects to sustain progress and minimize negative impacts.

       EPA Headquarters adopted the following approach for allocating remedial action
funding:

       •   On-going remedial actions needing $5 million or less were funded at the requested
           levels; those needing more than $5 million were funded at Headquarters-determined
           levels.

       •   Long-term response actions needing $600,000 or less were funded at the requested
           levels; actions needing more than $600,000 were funded at the minimum level in the
           Project Evaluation Form.

       Several Regions suggested that the evaluation process encourages scrutiny of high-cost
clean-up actions to identify possible cost saving opportunities.

National Risk-Based Priority Panel Process for New Start Projects

         Proposed new start remedial action projects are prioritized by a panel of experts using
The National Risk-Based Priority Panel Process (Enclosure 6). Prioritization is based on five
criteria -- risks to human population exposed, contaminant stability, contaminant characteristics,
threat to a significant environment, and program management considerations. The Panel is
comprised of national program experts from Regional offices and Headquarters. Regional
experts independently rate proposals from all but their own region, then Headquarters personnel
compile the ratings. Once Headquarters determines site funding, the amounts are released to the
Region, but not the scores. Generally, Regional officials said their sites receive equitable
treatment and the process should be continued

        The classification of new starts was recently changed to include projects within a site that
are just beginning. For example, a Region may have been working on the water aspect of a
Superfund site for several years, but is scheduled to begin work on the soil. The soil component
is now considered a new start even though the site has been active for several years. This change
was implemented as a means to avoid clean-up disruptions but allow for consideration of phased
clean-up during periods of limited funds.
                                                                                                                           Enclosure 3
                         Summary of Non-Federal NPL Sites that Need Additional Funding

                                                                                FY02           FY02        Estimated        Obligated
RG   ST      EPA ID      Site Name                                 Lead (1)   Requested     Distributed   Total Cost (2)     To Date      Notes

1    MA   MAD001026319   Atlas Tack Corp.                           FUND       13,100,000                    18,200,000         222,600
1    MA   MAD980731335   New Bedford Site                           FUND       10,000,000     6,500,000     302,000,000      73,869,436
1    ME   MED980915474   Eastland Woolen Mill                                  12,000,000     5,000,000      43,000,000      36,023,534
1    NH   NHD001091453   New Hampshire Plating Co.                 FUND         8,600,000                    14,800,000       5,821,476
1    NH   NHD990717647   Ottati & Goss/Kingston Steel Drum         MIXED        8,450,000     8,450,000      25,500,000      19,486,541
1    VT   VTD988366621   Elizabeth Mine                                        15,000,000
2    NJ   NJD980504997   Burnt Fly Bog                             FUND        22,000,000                    59,000,000      31,000,000
2    NJ   NJD980484653   Chemical Insecticide Corp.                FUND        28,500,000                                     8,000,000
2    NJ   NJD094966611   Combe Fill South Landfill                 FUND         1,400,000                                    47,000,000
2    NJ   NJ0001900281   Federal Creosote                          FUND        33,500,000    31,000,000                      55,000,000
2    NJ   NJD980785646   Glen Ridge Radium Site                    FUND        15,000,000    15,000,000                     110,000,000
2    NJ   NJD980654164   Montgomery Twnshp Housing Development     FUND         2,000,000                     2,000,000               0
2    NJ   NJD980654156   Rocky Hill Municipal Well                 FUND         2,000,000                     2,000,000               0
2    NJ   NJD073732257   Roebling Steel Co.                        FUND        12,000,000     2,400,000                      34,000,000
2    NJ   NJD980654172   U.S. Radium Corp.                         FUND        10,000,000     3,000,000                      95,000,000
2    NJ   NJD002385664   Vineland Chemical Co., Inc.               FUND        20,000,000    12,000,000                      56,000,000
2    NJ   NJD986620995   Welsbach & General Gas Mantle (Camden)    FUND        12,000,000     7,000,000                      14,000,000
2    NY   NYD981566417   GCL Tie & Treating Inc.                   FUND         4,000,000                    30,000,000      18,000,000
2    NY   NYD986882660   Li Tungsten Corp.                         MIXED        1,000,000     1,000,000      35,000,000       9,000,000
2    NY   NYD986950012   Mohonk Road Industrial Plant              FUND           250,000       250,000      12,000,000       1,000,000
2    NY   NYD980528657   Olean Well Field                          MIXED        1,000,000     1,000,000                       2,000,000
2    NY   NYD980763767   Vestal Water Supply Well 1-1              FUND         1,600,000     1,600,000       8,000,000       7,000,000
2    VI   VID982272569   Tutu Wellfield                            MIXED        8,000,000                                             0
3    PA   PAD980691794   Berks Sand Pit                                           500,000       500,000                       7,225,063
3    PA   PAD002390748   Hellertown Manufacturing Co.                             350,000       350,000                       3,915,661
3    PA   PAD980926976   North Penn - Area 6                        FUND        1,000,000                     5,000,000       5,180,116
3    VA   VAD980831796   Rhinehart Tire Fire Dump                   FUND           16,000                    11,000,000      10,650,765
3    VA   VAD003117389   Saunders Supply                                           24,000        24,000                      15,444,499
4    FL   FLD008161994   American Creosote Works (Pensacola Plt)    FUND        8,000,000                    19,000,000       7,000,000
4    FL   FLD991279894   Coleman-Evans Wood Preserving Co.          FUND        7,000,000     4,500,000      33,600,000      33,600,000
4    FL   FLD004119681   Hollingsworth Solderless Terminal                         50,000        50,000
4    FL   FLD045459526   Solitron Microwave                         TBD         2,400,000
4    FL   FL0001209840   Southern Solvents, Inc.                                5,000,000
4    FL   FLD004065546   Tower Chemical Co.                         TBD           250,000                                     1,600,000
4    FL   FLD091471904   Trans Circuits, Inc.                                     200,000
4    NC   NCD024644494   ABC One Hour Cleaners                      FUND          300,000       300,000       3,000,000       3,300,000
4    NC   NCD981026479   Benfield Industries, Inc.                  FUND          100,000       100,000                       5,400,000
4    NC   NCD003188828   Cape Fear Wood Preserving                  FUND          750,000       750,000                      22,400,000



                                                                                                                    FINAL NPL NOT CC sum short from TS5.123
                                                                                                                      Enclosure 3
                       Summary of Non-Federal NPL Sites that Need Additional Funding

                                                                             FY02           FY02      Estimated        Obligated
RG ST    EPA ID    Site Name                                    Lead (1)   Requested     Distributed Total Cost (2)     To Date      Notes
4  NC NCD003188844 Carolina Transformer Co.                      FUND        5,100,000     2,000,000    19,600,000     16,000,000
4  NC NCD095458527 FCX, Inc. (Statesville Plant)                 FUND          200,000       200,000                     6,500,000
4  SC SCD980839542 Elmore Waste Disposal                         FUND          450,000       450,000                     1,800,000
4  TN TND096070396 Ross Metals Inc                               FUND        3,000,000                   7,200,000       1,300,000
                         Special Funding-Enforcement Related                    50,000         50,000
5  IL ILD006282479 Jennison-Wright Corporation                  FUND        12,500,000                 12 - 15 M           570,000
5  IL ILD005252432 Parsons Casket Hardware Co.                  FUND           170,000       170,000                     4,000,000
5  IN IND001213503 Continental Steel Corp.                      FUND        10,000,000                 60 - 80 M        39,000,000
5  MI MI0001119106 Aircraft Components (D & L Sales)            FUND         1,500,000                   1,500,000       7,000,000
5  MI MID000722439 Velsicol Chemical Corp (Michigan)            MIXED       13,200,000    13,200,000   30 - 60 M        36,100,000    (3)
5  MN MND006192694 MacGillis & Gibbs/Bell Lumber & Pole Co.     FUND           300,000       300,000                    25,000,000
6  LA LAD008187940 Central Wood Preserving Co.                  FUND         9,000,000                   9,000,000         725,000
6  LA LAD052510344 Delatte Metals                               FUND        14,000,000                  14,000,000       4,900,000
6  OK OKD082471988 Hudson Refinery                              State        8,500,000                                   5,800,000    (4)
6  OK OKD980629844 Tar Creek (Ottawa County)                    FUND         5,000,000                   25,000,000     63,800,000
6  TX TX0001399435 City of Perryton Well No. 2                  FUND         2,000,000     2,000,000      4,000,000        930,000
6  TX TXD050299577 Hart Creosoting Company                      FUND        10,000,000                                     425,000
6  TX TXD008096240 Jasper Creosoting Company Inc                FUND         6,500,000                                     760,000
6  TX TXD980873343 North Cavalcade Street                       FUND           250,000       250,000     10,000,000     10,300,000
6  TX TX0001407444 Sprague Road Ground Water Plume              FUND         8,000,000                   20,000,000        360,000
7  KS KSD981710247 57th and North Broadway Streets Site         FUND           100,000       100,000      2,810,000      1,400,000
7  KS KSD046746731 Ace Services                                 FUND         5,200,000     5,200,000      8,100,000      6,000,000
7  NE NED981713837 10th Street Site                             FUND         2,060,000                                           0
7  NE NED980862668 Hastings Ground Water Contamination          MIXED        2,000,000                                   6,300,000
8  CO COD980716955 Denver Radium Site                           MIXED       15,200,000    10,000,000   152,000,000     104,000,000
8  CO CO0002259588 Vasquez Boulevard and I-70                   MIXED        7,000,000                                   1,600,000
8  MT MTD982572562 Basin Mining Area                            FUND         3,900,000                                   5,500,000
8  MT MTSFN7578012 Upper Tenmile Creek Mining Area              FUND         3,500,000                  23 - 28M        10,100,000
8  SD SDD987673985 Gilt Edge Mine                               FUND        13,400,000     5,400,000     37,000,000     21,600,000
9  AZ AZD980695969 Indian Bend Wash Area                        MIXED          100,000       100,000     140 M           1,140,715
9  CA CAD980498612 Iron Mountain Mine                           MIXED        1,500,000     1,500,000     880 M          36,578,896
9  CA CAD009106527 McCormick & Baxter Creosoting Co.             TBD         1,405,000     1,405,000                     4,192,245
9  CA CAD981997752 Modesto Ground Water Contamination           FUND           368,000       368,000     5-7M            2,371,092
9  CA CAD980677355 San Gabriel Valley (Area 1)                   TBD         2,400,000     2,378,000                    10,536,620
10 ID IDD048340921 Bunker Hill Mining & Metallurgical           MIXED        4,700,000     4,350,000   562,300,000     151,000,000
10 OR ORD009020603 McCormick & Baxter Creos. Co. (Portland)     FUND         3,377,000     3,200,000    25,500,000      10,700,000
10 OR ORD980988307 Northwest Pipe & Casing/Hall Process Co      FUND         1,600,000       400,000     7,700,000       3,200,000
10 WA WAD053614988 Frontier Hard Chrome, Inc.                   FUND           530,000       530,000     4,000,000
10 WA WAD009248295 Wyckoff Co./Eagle Harbor                     FUND         4,600,000     4,600,000    84,300,000      50,000,000



                                                                                                               FINAL NPL NOT CC sum short from TS5.123
                                                                                                                                       Enclosure 3
                          Summary of Non-Federal NPL Sites that Need Additional Funding

                                                                                        FY02             FY02      Estimated             Obligated
RG ST    EPA ID     Site Name                                            Lead (1)     Requested       Distributed Total Cost (2)          To Date      Notes
10 WA WAD0000026534 Palermo Well Field Ground Water Contamin.             FUND            102,000         102,000                          4,800,000

                                                             TOTALS                    450,102,000    159,027,000




            Notes   (1)       FUND = EPA Lead
                              PRP = Potentially Responsible Party Lead
                              MIXED = Shared Lead Responsibility
                              TBD = To Be Determined

                    (2) Region 1 - Estimated total costs include removal and remedial action costs incurred and expected removal or remedial action costs
                        where a Record of Decision or Action Memorandum has been signed. These projections do not include the cost of work
                        conducted (or to be conducted) by PRPs. Cleanup costs do not include costs associated with investigations, design, oversight,
                        enforcement, administration and payroll, or post-construction.

                          Region 2 - Estimated total costs for remedial construction activities include both PRP and Fund costs. Total costs represent the
                          best estimates of cost available at this time. These estimates are generally from Records of Decision, which can be inaccurate.

                          Region 3 -   Estimated total costs are for sites with current Remedial Actions or Records of Decision.

                          Region 4 - Estimated total costs include removal and remedial action costs incurred, and expected removal or remedial action costs
                          where a Record of Decision or Action Memorandum has been signed. Cleanup costs generally do not include costs associated
                          with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

                          Region 5 - With regard to PRP-lead sites, we do not have authoritative information on past costs expended by PRPs
                          or future costs planned by PRPs. PRPs are not required to provide this information to EPA.

                          Region 6 - Estimated total costs include removal and remedial action costs incurred (including PRP costs where known or estimated),
                          and expected removal or remedial action costs where a Record of Decision or Action Memorandum has been signed. Cleanup
                          costs do not include costs associated with investigations, design, oversight, enforcement, administration and payroll,
                          or post-construction.

                          Region 7 - For mixed and fund lead sites, the EPA costs incurred to date and, where there is a final Record of Decision, estimated total
                          cleanup costs associated with each site are shown. Cleanup costs include Non-Time Critical Removal and remedial action
                          costs incurred (not including PRP costs) and expected removal or remedial action costs where a final Record of Decision or



                                                                                                                                   FINAL NPL NOT CC sum short from TS5.123
                                                                                                                                  Enclosure 3
                      Summary of Non-Federal NPL Sites that Need Additional Funding

                                                                                      FY02            FY02         Estimated       Obligated
RG   ST   EPA ID      Site Name                                      Lead (1)      Requested       Distributed Total Cost (2)       To Date    Notes
                      Action Memorandum has been signed. Cleanup costs do not include costs associated with investigations, design, oversight,
                      enforcement, administration and payroll, or post-construction. No cost information is shown for PRP-lead sites.

                      Region 8 - Estimated total costs include past removal and remedial action costs incurred and expected removal or remedial action
                      costs where a Record of Decision or Action Memorandum has been signed. Cleanup costs do not include costs associated
                      with investigations, design, oversight, enforcement, administration and payroll, or post-construction. PRP costs are included
                      where they are known or a reasonable estimate could be made.

                      Region 9 - Estimated total costs include removal and remedial action costs incurred (including PRP costs, which are estimated),
                      and expected removal or remedial action costs. Cleanup costs do not include costs associated with investigations, design,
                      oversight, enforcement, administration or payroll.

                      Region 10 - Estimated total costs include removal and remedial action costs incurred by EPA, and expected removal or remedial action
                      costs where a Record of Decision or Action Memorandum has been signed, or a Proposed Plan issued. Cleanup costs do not
                      include costs associated with investigations, design, oversight, enforcement, administration and payroll, or post-construction.

                   (3) This site was declared construction complete in 1992. Substantial new RA has since been required.
                       The FY 02 original "request" was for the total project amount required. HQ has distributed all necessary
                       funding to Region 5 for FY 02, $13.2 million.

                   (4) FY02 request is for Non-Time Critical Removal Action




                                                                                                                             FINAL NPL NOT CC sum short from TS5.123
                                                                                                                      4


                            UNITED       STATES   ENVIRONMENTAL            PROTECTlON   AGENCY
                                                  WASHINGTON,       D.C.   20460




                                                                                                           O"'FICE OF
                                                                                                 ~OLID Wf.STE AND EMERGENCY
                                                                                                          I'IE5PON5E
                                                    ,~~.!   32X)2
                                                                                             OSWER      9215.1-04


MEMORANDUM


SUBJEcr:             Approach for Allocating FY 2002 Remedial Action Advice of Allowance
                     ReSources

FROM:                Elaine F. Davies, Acting Director +-
                     Office of Emergency and                                       f~
TO:                  Superfund    National Program Managers, Regions 1 -10


Purnose


       The purpose of this memorandum is to describe the procedures for distributing the
resources of the Remedial Action Advice of Allowance during Fiscal Year 2002. These
procedures reflect our discussions at the November 6-8, 2001, Superfund National Program
Managers meetirig. Several action items are also identified.

Back2round


        The RemedialAction Advice of Allowance (RA AOA) will fund the sameactivities as it
has in the past: remedial actions(RAs); long-teml responseactions(LTRAs); five-year reviews;
"enforcement fairness" projects;above-the.-baseremovalactions(i.e., removalswith costs that
exceed a Region's&baseremovalbt.Jdget);and redevelopment/raIse  projects.
                                                       .t
        The Office of Emergency and Remedial Response(OERR) has budgeted $224 million to
the RA AOA for FY 2002. CERCLIS data as of September24, 200 1, revealed that Regions'
estimates of their resource needs for the activities incl~ded in the RA AOA are nearly three times
the budgeted amount. Moreover, these estiDl4itesdo not necessarilyinclude the Regions'
estimates of their needs for "enforcement fairness" projects.

            To best determine how to allocate the RA AOA resources among the Regions, OERR
collected     additional   infomlation    on ongoing projects with substantial resource needs.       In an
October      2, 200 1, memorandum         from Dottie Pipkin. we requested Regions to submit Project




                                                                                                             W--3.~
                                                       -2-

    Evaluation Forms for ongoing Reme;dial Actions (and above-the-base removals) that need more
    than $5 million in FY 2002 and for LTRAs that need more than S600,000 in FY 2002. Regions
    submitted 15 RA forms and 18 L TRA forms (excluding late fomtS submitted after allocation
    dec:sions were made) that described how changesto project budgets and scheduleswould affect
    human health and the environri1ent, cost, and national program priorities. We also held followup
    discussions with Regional staff tv octter P.SSe.lS
                                                   the iI!lpac:s cf providing less funding than
    Regions requested for certain projects. We used this infonnation to detcmline how best to
    distrlbutethe limited resources among the high-cost projects to maintain progress and minjmize
    negative impacts.

        Based on our review of CERCLIS and evaluation form data and followup discussions
with Regions and within Headquarters, we developed an allocation approach for the FY 2002 RA
AOA resources. The national program managersand the Assistant Admini~or         for OSWER
discussed and approved this approach during the November 6-8, 2001, meeting.


ARRroach

            As a result of our NatioIial   Program Managers meeting, OERR has adopted the following
methodology        for allocating the RA AOA among the Regions this fiscal year.


            Ongoing
               millionRAs  (andinabove-the-base
                                  FY 2002-fund removals  approved
                                                             levels for funding by OERR)
.                                                                                        that need
            $5         or less                  at requested                       .

.          LTRAs that need $600,000 or less in FY 2002-fund at requested levels
.          Five-year reviews-fund at requested levels
.          Ongoing RAs (and above-the-base removals approved for funding by OERR) that need
           more than $5 million in FY 2002-fund at Headquarters-determined levels
.          LTRAs that need more than $600,000 in FY 2002-fund at the minimum-need level
           specified in the Project Evaluation fol1DSsubmitted by the Regions
.          RedevelopmeJJt/teuseprojects-fund at Headquarters determined levels
.          Enforcement fairness projects-fund at Headquarters determined levels

         Furth~ore,   OS~ is reviewing, in cooperation with the Regions, the 15 high cost,
ongoing RAs (and above-the-base removals) to assessthe poSSlDilityoffunding from other
sources. I strongly mcourage you to continue to work with OSREto explore other sources of
funding for our ~nse      activities. Given our current budget coDatraiDIÃit is mote important
than ever that Regions continue to maximize opportunities for PRP-lead work. This is true not
only .for the most exprnsive ongoing projects, but for all of HPA .s responsework.


Next     Stel!s


           Two atta('hments are included with this memorandum.      The first attachment identifies


.          the full-year fundi:ng needs requested by the Regions in CERCUS     as cifSeptember   24,




                                                                                                      ~-~.~
                                                   -3-

        2001, for all ongoing RAs (and above-the-base-removals),          L TRAs, and five-year reviews,
.       OERR' s 1. and 2.. quarter funding recommendations,                      ...
.       the actual 1. and 28dquarter site-specific distributions,   and
.       OERR' s 31d and 4. quarter funding recommendations.

This attachmel1t al3O identifies discrepancies between the recommended funding decision 'and tJ.;e
actual distribution. Most of these discrepancies are OERR data entry errors. We will make
adjustments as needed at 'mid-year to account for these discrepancies. Footnotes are included in
attachment 1 to help clarify questions you may have.

         The secondattachmentlists Regions'funding requestsfor new start RAs, asreported in
CERCLIS as of September24,2001. We recognizethat someof thesenew starts,while
~nsistent with"the Superfund/OilProgramImplementationManual (SPIM) definition of a new
RA start, are actually componentsof ongoingRA projectsthat havebeenrankedandapproved
fo.r funding in previous yearsJ>ythe National Risk-BasedPriority Panel As a result, someof
these projects should havebeeneligible for continuedfunding as ongoingRAs during our initial
distribution ofresources. While we identifiedmanyof theseprojects and allocatedresourcesto
them, a few projects remainunfunded: By January 25, 2002, pleasesend to Ed Cayous (703-
603-8807) a list o(those projects from this attachment that should have received, but did
not receive, ongoing RA funding as part of our initial distribution of resources.

         The National Risk-Based Priority-Panel currently plans to meet on February 6-7, 2002. In
preparation for this meeting, Regions will need to provide information for any new projects they
want the Panel to raDk. We will send out an updated response action priority form in early
January. In addition. to its usual ranking of new projects, the Panel will also discuss options for
different approaches to project management at high-cost, ongoing projects. Regions with high-
cost, ongoing RAs should also be prepared to discuss their specific projects. Please contact John
I. Smith (703-603-8802) if you have questions regarding this discussion.

        At the end ofMarch 2002, we will reconfirmour funding recommendations for 3rdand 4d1.
qUarter basedon updatedCERCLIS data ftom the Regions. Pleasemake sure that your actual
obligations (aDd.tasldng) data are up to date in CERCLIS by March 7, 2002, IS wdl as any
reVisions to your 3~ and 4.. quarter needs(planned, approved obligations). We will use
these data in conjunctionwith any follow-up informationB:omthe Regionsto determinehow to
allocate any remAiningresourcesthat may be availablefor,the RA ~OA (e.g.,national
deobligation pool).
        Add~tionaUy, we ask that you send to the appropriate Regional Center Director any
revisions to your deobligation plans by March 7. To help us gaugewhentheseresourceswill
be available for redistributionfrom the nationalpoo~ we request that you also provide us with
an approximate schedulefor implementing the plans. We ad~e Regionsto deobligate
monies early, so that'we will have sufficienttime to reallocatethe nationalpool resourceswell
before September.




                                                                                                   "'-~.,   0
                                                   -4-


        The FY 2002 Superfund appropriation prevents us from allocating S100 million until
September I, 2002. As a result, we'WillDot distribute $60 million of the RA AOA until
September I. Consequently, we willlike!y have only $15 million available for distribution at the
beginning of the 3rd quarter. We" ask that you identify in CERCLIS only your most critical
resource needs through September 1 as Jrd quarter needs (Le., shift most critical July and
August needs to J"' quarter, aDd move I~s crlticalJrd quarter funding DeedSto the 41h
quarter so we know your priorities). This infofD1ation is crucial to enable us to allocate the
limited 3rdquarter resources to the projects where they are most needed.

        Through this allocation process, our goal has been to provide you assuranceregarding the
RA AOA resources you should expect to receive in FY 2002. In return, we expect YO:uto use
those resources as consistently as possible with the allocation. If a Region fmdg it absolutely
necessary to.shift resources from one project to another, the Region should consult with,
and provide written documentation to, the appropriate OERR Regional Center Director.
Any shift of resources among projects will be subject to review during our mid-year allocation
process, and may affect 3n1and ~di quarter distributions. If a Region determines that it does not
need all the resources it received during lIt and 2adquarter, those savings should be reflected in

your 3N and 4di quarter funding request.

        We are an struggling to shift our management approaches to address the continuing
budget constraints that the Superfund program faces. We recognize and appreciate the hard work
that you all are undertaking to ensure that cleanups continue. and that Superfund is successful in
its mission to protect the public and the environment.    We will continue to work with you to find
the best solutions to address our funding priorities throughout    the year. If you have questions
regarding    this memorandum.    please call me or'bave your staff call the appropriate OERR

Regional     Center .


Attachments

           IeffIosephson,   Superfund Lead Region Coordinator,    Region 2
cc:
           Barry Breen, OECA, 2271A
           Susan Ianowiak, OSWER, 5103
           Regional Sup~d    Program Branch Chiefs
           Regional Sup~d    Legal ~ranch Chiefs             ,f

           Regional Budget Coordinators
           Regional Information Management Coordinators




                                                                                                 \/I-;.'\
                                                                                                                        0               0         0                                                    0                   0
                                                               8
                                                                                                                        ~               ~         ~                  ~                §                ..,                 ~
                      .C,.J                                                   8            §              §.                                                                                                                                                           10
 ~                    ~
                       -W)
                              .-                               o              o            0              O                                                                                                                                        §.
                                                               VI             "'           ...,           V\                                                                          8
                                                                                           ~              ~                                                                           ...,                                                         9                   ~
 ;>                ~~                                                                                                                                                                 -6                                                           r-
 -                                                                                                                                                                                    fA
                   ~-=                                                                                                                                                                                                                             ~                   "
 .,)                '- f                                                                                                                                                                                                                                               ~
 t---
 N                 ~~                                                                                                                                                                                                                                                  Q;;
 ~                                '-
                              -
 ~                            0'
                                                              a            0           0                  0          0                  0         0              0                   O               0                   0                       0
                  "O..:~
                   =     W) .-
                                                              ~            ...         ~                  ~          ...                ~         ~              ~                   ~               ~                   ~                       ~
 ~                N-U
 0                ~~~
                  ~-=Q.
                  - 0'                      41
                      WI                    '-
                  ~                         U
                                            W)
                                       S
                                                              O           0            0               0           o                    o        o              o                 o                 o                 o                      o
                  CIS
                   '                                          fA          ~            ~               ~           o                   o         o              o                 ~                 o                 o                      o
                                                                                                                   o                    o        o              o                                   o                 o
                                                                                                                                                                                                                                             0.
                                                                                                                   O                   O         0.             0.                                  O                 0-                     o
                                                                                                                   "'                  'D        0              O                                   0                 0
                                                                                                                                       M         In             -0                                  ...0
                  'C-                                                                                                                                                                                                                        "'
                                                                                                                   ~                   ~         ~              ~
                                                                                                                                                                                                    ,.;               "'-
                   c          ~                                                                                                                                                                                                              0
                  M           =                                                                                                                                                                     ~                 ~                      -
                                                                                                                                                                                                                                             ~
         a        ~'U'
         =         ...<
         N          ~
                  -
          ~
           a..
          .s                                                                                                       o                o        o                  o                o
                                                          O               0            0              0                                                                                          o                   o
                   ...~=                                                                                                                                                                                                                    o
          ~       -OJ                   Q                 lA              ~            ~              ~            o
                                                                                                                   o
                                                                                                                                   o
                                                                                                                                   o
                                                                                                                                             o
                                                                                                                                             o
                                                                                                                                                                o
                                                                                                                                                                o
                                                                                                                                                                                 ~               o
                                                                                                                                                                                                 o
                                                                                                                                                                                                                     o
                                                                                                                                                                                                                     o
                                                                                                                                                                                                                                            o
           U                                                                                                                                                                                                                                o
           =      O'~;                                                                                             O
                                                                                                                   "'
                                                                                                                                   0
                                                                                                                                   '0
                                                                                                                                             0
                                                                                                                                             0
                                                                                                                                                                O
                                                                                                                                                                O
                                                                                                                                                                                                 O                   O                      O
                              =         =                                                                                                                                                        o                   o
           Q                                                                                                       ~               N         "'                 '0                                                   0                      .,.,
           a..    'OOJ.o
                   =    s              .-                                                                          "'              ~         "'                 ~
                                                                                                                                                                                                 ..;                 .,;                    0
           c.                                                                                                                                                                                    ~                   ~
           c.     MS~Q .~
                  ~
          <
           ~      ~~~
                  .-4~
         .-=
         '0
           =                                             o
                                                         o
                                                                      o
                                                                      o
                                                                                    000000000
                                                                                   000000000
                                                                                                                                                                                                                                            °
                                                                                                                                                                                                                                            °
           =      O'g                                    0            o            000000000
                                                                                                                                                                                                                                            0.
        .~                                               0.           O            O        O                   O                 O          O          O                    0"               0-                 0"                         0
                  =-.;                                   "'
                                                         ~
                                                                      "'
                                                                      fA
                                                                                   V)
                                                                                   tAtA.'
                                                                                            V)                  V)                -0         0
                                                                                                                                             V)\OV)r--o
                                                                                                                                                        0                    0                0                  0
           =       ...~                                                                                         tAtAtAtA                                                             --"                                                    N.
           Q       ~          =                                                                                                                                              \0               ..,                V)                         1-
                   OJ         OJ                                                                                                                                             tA               tA                 tA
                                                                                                                                                                                                                                            ~
         0.=      >t          S
           U
         <        =           S
         -         =          Q
                  ~           U
         .-=          OJ
         'i          ~                                   8            8                                                                                                                                                                 8
                     -                                   o            0            §§8888888                                                                                                                                            0.
           8                                             0.           O            'i.    'i.    'i. g                                      g               9.               o               g                   2-
           GJ    ~~                                      "'           "'                                                                                                                                                                ::
                                                         ~            ~            ~~..'.N."'0'8t""o
                                                                                                ~~~~                                                                              °                 oM                                  r--.
         ~
                 ,.J~                                                                                                                                                        2               ~                   -                      r--
                                                                                                                                                                                                                                        N
                                                                                                                                                                             ~                                   ~                      ~
                 ~~.
                 ~-
                 U
                                                                                                               r.:.              :;!
                                                          .~                                                                     u
                                                        U..J..J                                                !-6                                                                           5..J
                                                        ~..J::!                                                <~                                                                            !-8                               ~
                                                          ,.!,'III.                                            ~;J                                    !-                                     UI~                               .;;
                                                        03=~                                                                     ..J                  UI                                     O
                                                                                                                                                                                                                                8
                 I-I                                    ~             ~            ~              >-           ~                 ~          ~~j                                              ~                   ~              ~
                 (/)                                                                                                                                                                                                           0.
                                                        ~             IIJ          ~              ~            ~            .~              g5~                          ~                   ~               8                                                   §
~                                                                                                                                                                                                                               u
                                                                                                                                                                                                                                                                 N
                 .~
                    a
                                                        111           §
                                                                      ~            ~              §            ~             ~              q~
                                                                                                                                                           ~             ~                   8~~

                                                                                                                                                                                                                               "a
                                                                                                                                                                                                                               -                                 N
                   .
                                                        :I:                                       UI                         ~                                           Q                   ~~                                --
                                                                                                                                                                                                                                                                 O
~                                                       U                                         ~            IIJ>-<                                                    i&j                 ~Q
                                                                                                                                                                                                                               0
                 z                                                                                                                                                                                                                                               ~
                   GI                                                                                                                                                                                                             .                              ~
                  -
                 .-                                                                                                                                                                                                             "c
                                                                                                                                                                                                                                 0                               5
~                (/)                                    ~             ~ml                         ~            ~!~§ils                                                   i                   g~1
                                                                                                                                                                                                                               oM
                                                                                                                                                                                                                                 ..
                                                                                                                                                                                                                               p:                                 ~
~                                                                                                                                                                                                                                ..
                                                                                                                                                                                                                                                                 n
                                                  o                                                                                                                                                                            .a
                                                         9            9            9              9
t:                                                 c
                                                   0
                                                                                                                                                                     ~    ~                                  .                 "                                 -H
<                                                .-     ~~~~~~~~
                                                        "0> I..> I.~                              I..t~                      ~                             ~         ~C'Qg~                                                            8                         ~
                 ~                                 bO
                 <                               ~
                                                   ~
                                                        &~&~&~&~55                                                                          9              ~
                                                                                                                                                           .J
                                                                                                                                                                     5.g~~~
                                                                                                                                                                     ~-<~-<~
                                                                                                                                                                                                                               ~
                                                                                                                                                                                                                               V)
                                                                                                                                                                                                                                       a
                                                                                                                                                                                                                                      (I)
                                                                                                                                                                                                                                                        'IJ- ~ .(J..
                                                                           0        o     o
                                                                                                      ~         §    §
                                                                                                                                                                      0                                               'C
                                                                           ~        ~     ~
              ~.J                                         §         §                                                          ~§§09.
..,.          ~ .~                                        8         8                                           8    ~                     88                                                     c=
                                                                                                                                                                                                                      ~
                                                          "'        "'                                          N    ..,                   ...,       "'                                          o
~                                                         ~         ~                                           ~    ~                     ~          ..:
-             ~.Q
                         \1:                                                                                                                          ~                                    .Ori
                                                                                                                                                                                                  G.)                  ~
.()           'E f                                                                                                                                                                         ~
                                                                                                                                                                                                                      ~
r---                                                                                                                                                                                         G.)
M             ~.Q                                                                                                                                                                          .r:
0\                ..                                                                                                                                                                        -
                                                                                                                                                                                            ;>.
~                O                                                                                                                                                                        .0
                                                                                                                                                                                          ~
~             "a.J~
                                                          o
                                                          ~
                                                                    o
                                                                    ~
                                                                           0
                                                                           ~        § ~               o
                                                                                                      ~
                                                                                                                o
                                                                                                                ~
                                                                                                                     o
                                                                                                                     ~
                                                                                                                               00000
                                                                                                                                                                     c.
                                                                                                                                                                     o
                                                                                                                                                                                                G'
               ~ .~ u                                                                                                                                                                      .~
~                                                                                   8                                                                                8       c
                                                                                                                                                                                                e
0             M~~                                                                   ...                                                                              ..'0    o
              ~ ...c.
                   ..~                                                              ~
                                                                                                                                                                     ...    .00           .g
              ...        O'              GI
                                                                                                                                                                             u              VI
               WI                   ..
                                                                                                                                                                            ~
              -U
                                              Wj                                                                                                                             u                 E
                                                                                                                                                                            -S            c2
                                    a
                                                                                                                                                                            ~
                                                          o         o      0        o     o           o         o    o
                                                                                                                            ~oooo                                           "0
               '--                                        ~         ~      ~        0     lA          o         ~    ~                                                           u                          c
              -~                                                                    0                 o                     0                                 8      8
                                                                                    O
                                                                                    0                 O
                                                                                                      o                     o
                                                                                                                            0
                                                                                                                                                              0.
                                                                                                                                                              "'
                                                                                                                                                                     0.
                                                                                                                                                                     0
                                                                                                                                                                            .~
                                                                                                                                                                                          ~
                                                                                                                                                                                                          .~
                                                                                                                                                                                                            o
              os
              ~-                                                                    N.                o                     0                                 00     M        e           .r:
                                                                                                                                                                                               G.)
                                                                                                                                                                                                           ~
              N
               =               ~
                               =
                                                                                    ~                 ;:f,                 ~                                         ~      ..c
                                                                                                                                                                              ::s
                                                                                                                                                                              U)          .5
                                                                                                                                                                                                         ..2
                              -                                                                                                                                                                          ~
       M      ~                U                                                                                                                                                          ~
       =                                                                                                                                                                     E             ~
                                                                                                                                                                                                          u
       =      -<                                                                                                                                                                            VI                 u
                                                                                                                                                                                                               ...
       M        ~                                                                                                                                                           lE                G.)
              ...                                                                                                                                                                                              ='
                                                                                                                                                                                              ~
       >                                                                                                                                                                                      0'"
                                                                                                                                                                                                              0
                                                                                                                                                                                                               ti)
       ~                                                                                                                                                                                      G.)
                                                                                                                                                                                                               u
                                                                                                                                                                                              1-               ...
        L.                                                                                                                                                                  ~
                                                                                                                                                                                                               ...
                                                                                                                                                                                          ~
                                                                                                                                                                            ...1                               u
       ~                                                  o         o      0        o     o           C>        C>   C>    o           o          o           o      0
                                                                                                                                                                             u
                                                                                                                                                                                              G.)
                                                                                                                                                                                              G.)
                ..-0~                                     ~         ~      ~        o     ~           C>        ""   ""    o           ~          ~           o      ..,                                     t
       .c     -Ql       0                                                           o                 C>                   o                                  o             .c                C               ~
        U                                                                           O                 O                    6                                  6                                               ='
        ~     0'-0-.;:                                                              o                 C>                   0                                  "'                              e               0-
              -0      ~ =                                                           0-                C>                   0                                  ~             .5
        Q                                                                           ~                                      ..:                                ~                               ~
        L.      ~QI,Q                                                                                 ""                   ~                                                "0
                                                                                                                                                                                                         ~
        c.    M6"C                                                                                                                                                            u           :§
        c.    A~ 6 -=                                                                                                                                                           "'            e
                                                                                                                                                                                                          "0
              ~o-                                                                                                                                                               u
       <                                                                                                                                                                        ::s           G.)          a
               -U~
        ~
                W1 Ql                                                                                                                                                           0-
                                                                                                                                                                                      -:S                "2
              .-4~
                                                                                                                                                                                u                        M
        =                                                                                                                                                                       ...
       .-                                                                                                                                                                                     0            00
                                                                                                                                                                            ~
       '0                                                                           o     o           o         o    o     o           o          o           o     0           u                          C
                                                          o         o      0                                                                                                          ~
         =                    c                           o         o      ~        o                 o         o    o     o           o          o           o     ~           u             ~          ..:
                                                                                                      o         o    o     o           o          o           0
         =                                                o         o                                                                                                           c             G.)          ='
              O'.,g                                       O         O               O                 O         0    O     0.          0          O           0.                          -
                                                                                                                                                                                                         "0
       ~      =     =                                     o         o               o                 o         O    on    0
                                                                                                                           0
                                                                                                                                       0
                                                                                                                                       "'
                                                                                                                                                  0
                                                                                                                                                  .,..
                                                                                                                                                              "'
                                                                                                                                                              ~              e
                                                                                                                                                                                              VI
                                                          "'        "'              0-                O         N    ..,                                                                                 "0
         =                                                                                                 .~        ~           .~                      .~                  ::s      .5
               '"-0                                       ~.~                                                                                                                                             U
         Q     =              c                                                                       ~                    ~                      ~                                                       >
       .-      41             41                                                                                                                                            .a        r/)
                                                                                                                                                                                      -
        -                                                                                                                                                                                                0
         U    ~               e                                                                                                                                             .S        ..J                 (/)
              =               e                                                                                                                                              u                            U
       <                                                                                                                                                                                                  ...
       -       =              o                                                                                                                                                       ~
              r..             (.I                                                                                                                                           -S                             U
         ~                                                                                                                                                                            r.tJ               .0
       .-                      41                                                                                                                                                     U
       '0                                                 o o              o        00                0000000                                                                   O                        -
          ~                   ~                                                                                                                                     8       "0
                                                          8 8              8.       88888                                  888~                                               ~
                                                                                                                                                                                      .5
                                                                                                                                                                                                         .~
        e                     -
              C/)
              ~~                                          88 ~                      ~g                9.gg                 09.8                                     g         u       -0
                                                                                                                                                                                                          (/)
        ~
                                                          "'
                                                          ~                8.
                                                                                    '0\
                                                                                    ~
                                                                                        "'      --~
                                                                                                      OM...          ~
                                                                                                                           ~OV\  ---                                "!.      ~             G.)
                                                                                                                                                                                                          U
       ~                                                                   -              -"'                              M           --                           -                     "Vi
                                                                           ...            lA          lA                   IA~~                                     lA      .5             G.)
                                                                                                                                                                                                         .U
                                                                                                                                                                                           ~
                                                                                                                                                                            ,..J'                         ~
               ~~                                                                                                                                                               c          0'"
                                                                                                                                                                                           G.)
                                                                                                                                                                                                          Q.
               ~-                                                                                                                                                               ::s        1-             U
                                                                                                                                                                                                          ...
                                                                                                                                                                                o
               U                                                                                                                                                                                          U
                                                                                                                                                                                                          ti)
                                                            .cj                                                      ~     ~           '          6                             ~
                                                                                                                                                                                           c
                                                                                                                                                                                           ~
                                                           0                                          ~                                                                     -              0             :a
                                                           u        ~      <                               ,.              u                      u                                                       ...
                                                           O~              ~                          O                    c                      foo                                                        ~
                                                                                          >-Ucj                            ~                      <
                                                                                                                                                                            ;S             ~
                                                           ~~                             ~           ~         ~    ~~                           !:;;        ~
                                                                                                                                                                             u             G.)            ~
                                                                                                                                                                            -5        -:S
                                                                                                                                                                                                           ='
                                                           g,.J            ~              ~           U         vi   ~.~                          ~           ~                                            0-
                    ~                                                                                                                                                       "0        -0                 "a
                                                                                                                                                                                                          ~
                                                                                                                                                                             u         G.)                           C>
                                                                                                                                                                                                          N          C>
                                                                                                                                                                             ~            ~
 -                                                            ~
                                                              ~
                                                                     ~
                                                                     VJ
                                                                           ~     ~ -~
                                                                                 ~1&0
                                                                                          ~
                                                                                          ~
                                                                                                      ~.I
                                                                                                      ~         ~ ~
                                                                                                                     ~
                                                                                                                       ~
                                                                                                                           ~           ~
                                                                                                                                       t1J ;
                                                                                                                                                  ~           ~
                                                                                                                                                              ~.~
                                                                                                                                                                    N~
                                                                                                                                                                            ..9;      ..Q

                                                                                                                                                                                           c.>            "0
                                                                                                                                                                                                           a
                                                                                                                                                                                                                     N
                                                                                                                                                                                                                     N
                                                                                                                                                                                                                     C>
                    ~                                                                                                                                                       '"&;      "'.u               .
                     ~                                        !!!    ffi   ~e        VJ   .41                   !:;; ~ ~               ~   ()                 ~     f                                    -
                    z                                         ~      9     ~S~            <..I                  ~ o~~                  u   ~                  ~     0                                                 ~
                                                                                                                                                                            ~         ~                  -5           ~
                     ~                                                                                                                                                      ~         r.tJ                            a
                    .-                                        ~      ~8!:;;~~             ~~~                   ~    ~~a               ~          ~           m     ~                                    .~
                                                                                                                                                                            0
 I                  00                                                                                                                                                                O
                                                                                                                                                                                                          ti)
                                                                                                                                                                                                          U
                                                                                                                                                                                                                      ~
                                                                                                                                                                                                                      ..
 u
                                                                                                                                                                                      N
                                                                                                                                                                                                         .~          -0
 <                                                 9
                                                                                                                                                                                                         .>
                                                                                                                                                                                                         .~
                                                                                                                                                                                                                      ~
                                                                                                                                                                                                                      t:
                                                                                                                                                                                                          U          ~
                                                    =
                                                                                                                                                                                                                     ~
 ~                                                  O                                                                                                                                                    <
                    ~
                    <
                                                   "bi>
                                                              ~      ~     ~         ~    ~           ~         ~    ~     9 9 g. 9                                 ~
                                                   ~
                                                                                                                                                                                                        \ti- ?1'3
                                                   0                0         0                                                      0                   0                 0
                                      §            ...              V)        ~                            ~                         ~                   ~                 ~
                                                                                                                                                                                         0
                                                                                                                                                                                         ""
                                                                                               §.                       8.                                                                                                   -0
    ~           :e .i                                                                          O                                                                                                              8.
                                      §"                                                       .,.,
                                                                                               N                        8.                                                                                    8              "Q.
    '9          ~~ ~                  0                                                        ~                        ""'                                                                                   00.
                                                                                                                                                                                                              ~
    ~
    VI
                                      ~                                                                                 ~                                                                                     "'
                                                                                                                                                                                                              ~
    1-          ~  e                                                                                                                                                                                                         ~
                   ~                                                                                                                                                                                                         Q;;
    ~
    ~                15
                        .~
                                     0
                                     ~
                                               0
                                               ~                  a           0
                                                                              ...
                                                                                           0
                                                                                           ~
                                                                                                          0
                                                                                                          ~
                                                                                                                       0
                                                                                                                       ~
                                                                                                                                   0
                                                                                                                                   ~
                                                                                                                                                      0
                                                                                                                                                      ~
                                                                                                                                                                       0
                                                                                                                                                                       ..,
                                                                                                                                                                                      0
                                                                                                                                                                                      ""
    ~           ~     .'§ .y                                                                                                                                                                               8-
                                                                                                                                                                                                           0
                      ~ =                                                                                                                                                                                  0
    0                                                                                                                                                                                                      'D.
                r~      '-    !.
                       ..."                                                                                                                                                                                ~
                      0',-
                              u
                              W2
                              Q
                                     °         °               °          °               0            °            0              °                0                  0              °                  o
                                     °         °               °          °               ~                                        °                                                  °
                c-=                  °         0.              0.         0.                           9
                                                                                                                    "'
                                                                                                                                   °
                                                                                                                                                    "'                 ~
                                                                                                                                                                                      0.
                                                                                                                                                                                                         o
                                                                                                                                                                                                         o
                                     O         °               0                                       6                           6                                                  °
                0'i5                 °         °               0
                                                                          °
                                                                          °                            °                           °                                                  °
                                                                                                                                                                                                         O
                                                                                                                                                                                                         "'
                ~-                   0.        0.
                                               N
                                                               \0.        0.                           0.                          0.                                                 0.                 0..
                                     M
                                     ~         ~
                                                               ~          ..,
                                                                          ~                            lA                          ~                                                 ~
                                                                                                                                                                                                         ..,.
                                                                                                                                                                                                         "'
                                                                                                                                                                                                         ~
          M     ~~
          =
          =     ~<
          M
          >
                ~
         .~
          ...
         cS                                                               o
                  ~'C=              °          °              o                          0            o            0           °                0                    O              o                    °
         .c      :E. ~     O        °          °              o           o              ...          o            ~           °                ~                    lA             o                    °
                                                                          o                           o                        °                                                    o
         .u     ~'C;
                                    0.
                                    0
                                               0.
                                               0
                                                              o
                                                                          O                           O                        O                                                    6
                                                                                                                                                                                                         0.
          ~                         °          °
                                                              O
                                                              o           o                           o                        °                                                    o
                                                                                                                                                                                                         0
                                                                                                                                                                                                         "'
          e     'C     =.=                                                o                                                                                                                              M
                       ~.c .c       0.         0.             '0.                                     q                        0.                                                   0-
          ...
          Q.
                =      e
                                    N          N
                                               lA
                                                              OA
                                                                          M
                                                                                                      ~                        ...
                                                                                                                               ~                                                    "'                   M
                                                                                                                                                                                                         "'
                                                                                                                                                                                                         ~
          Q.    ~      ~ .i
         <             uQ
          bl)
         .-
           =    ~~
         'C
          =                         °          o              o                          o            °            °           o                0                 0              °                    o
                                    °                                     8              o            °            °                            ...               ~              °
          =     t:i§                0.
                                               o
                                               o
                                                              o
                                                              o           0.             o            °            °          8                                                  °
                                                                                                                                                                                                      o
                                                                                                                                                                                                      o
         ~      =--=                °          O              O           0              0"           O            O          0                                                  O                    O
                      .                        o              o                          ...,         °            °          °                                                  °                    "'
                                               0              'D
           =     &.'C               g.
                                               M"             --
                                                                          8.
                                                                          M              ~            0.           0-
                                                                                                                   ."
                                                                                                                              0.
                                                                                                                              r-
                                                                                                                                                                                 0.
                                                                                                                                                                                                     ...r
           e     I~ =               ..,        -~                         ~                           ~            ~          ~                                                  ..,                 ~
         -.c    >     ~             ~          ~                                                                                                                                                     0.4
           U      s
         <
         -
                ~ s
           ~
         .-
         'C
                r     ~
           ~          ~             °
                                    °
                                                                          o              8
                                                                                                      8            o          o
                                                                                                                                                8
                                                                                                                                                                  o
                                                                                                                                                                  o
                                                                                                                                                                                 o
                                                                                                                                                                                 o
                                                                                                                                                                                                     o
                                    0.         8              9           8.             0.           o            9          8                 o                 o              o
                                                                                                                                                                                                     8.
          e                                                                              °                                                                                                           o
          ~
         ~      k~                  8          .8" s"
                                               o --                       8.             ~            §
                                                                                                      ..:
                                                                                                                   §
                                                                                                                   .,;
                                                                                                                              g"
                                                                                                                              0             ~                    §               §                   N
                                                                                                                                                                                                     "'.
                                    o                                                                                                       ~                    ri              -0
                                    ~
                                               ~ ~                        ~                           ~            -N
                                                                                                                   ~  ~                     ~                    -"'
                                                                                                                                                                 "'
                                                                                                                                                                                                     M
                                                                                                                                                                                                     ~
                ~~
                ~-
                u
                                               u
                                               ~                                                                              "'
                                               O
                                               u              >-
                                                                                               ~                              o
                                                                                                                              <
                                                                                                                                                                         ~
                                                                                                                                                                         u
                                               :c!            ~
                                                                                         ! . i
                                                                                         ;J                                   ~                     .              .~                         ~
                                                                                                                                                                                               O
                                   ~           u              ~    .                                                                                             8     .~
                                                                                                                                                                                               u
                                    0          ~              r/J ~                      ~ ~                                                                     ..J Qu
                                                                                                                                                                                               ~
                                    {/)        ~              ~ o                        ~ u ~                                ~ ~                                ~    uz                      ]
                                                                                                                                                                                                u
                                                                                                                                                                                                                        o
                                                                                                                                                                                                                        0
                                                                                         ~ ~ ~                                ~ ~
-                                                                                                                                                                ~    dg                      "0                        N
                                               u              ~ ~                                                                                                                             .
                                    ~
                                                                                                                                                                                              ~                         ~
                I                              ~              ~zg                              ~                              ~~ ~                               ~              ~~            s
                                                                                                                                                                                                                        ~
                                    a          ~              f-..J~                                                                                             =
                                                                                                                                                                 ~
                                                                                                                                                                                !I)...
                                                                                                                                                                                ~U
                                                                                                                                                                                               a                        :3
                ~
                                    Q
                                    ~          ~              ~~,;                       i§~ ~
                                                                                         ~~..J                                ~~.~                              ~               6~
                                                                                                                                                                                              -c
                                                                                                                                                                                               o                        i
~
                                                                                                                                                                                              "to                       ~
u                                                                                                                                                                                             p!.                       tU
                                                                                                                                                                                              .£                        ~
                                                                                                                                                                                                                         c
                                    .~                                                                             ~~                       .~~                                                                         "0
                                                                                                                                                                                                                         u
                                    :0 c:Oc:Oc:Oc]c                                                   1c1c1                             c   1                c~c:Oc
                                                                                                                                                                                              ~
~
                ~                   ~     .§   ~         .e   ~      .§   ~         .e   G-e                  .~         i           .~                   .e     ~         .e   ~        .~
                                                                                                                                                                                                     E                  ~
                <                   ~<~<~<~<~<~<~<~<                                                                                        ~<~<~<
                                                                                                                                                                                               ~
                                                                                                                                                                                              (11
                                                                                                                                                                                                     =
                                                                                                                                                                                                    V)
                                                                                                                                                                                                                    \1'1-3.'4-
                                             0
                                             ~
                                                        0
                                                        ~
                                                                                             0
                                                                                             ~
                                                                                                           0
                                                                                                           ...
                                                                                                                                        0
                                                                                                                                        ~
                                                                                                                                                       0
                                                                                                                                                       ~
                                                                                                                                                                      0
                                                                                                                                                                      ~            ~          8           8            ~                       'C
             .c,.J                                               §.        §.     §.                                    8.
                                                                                                                                                                                              o           o
~            ~     .~                                            0         0      V\                                    V)                                                                    O
                                                                                                                                                                                              -D
                                                                                                                                                                                                          O
                                                                                                                                                                                                          "'
                                                                                  M                                     N                                                                                                                      ~
=                                                                ;;        ~      ""                                    ~                                                                     ~           M
  I          ~Q                                                                                                                                                                                           ~
-
             ~-=                                                                                                                                                                                                                                ~
.()           -f                                                                                                                                                                                                                               ~
1-
             ~Q
~                    -
~                    0
                                             0          O        O        O                  0            0            0            0              0                               ~          o
             ~        .J         ~           ~          fA       lA       lA
                                                                                  O
                                                                                  ...        ~            ~            ~            ~              ~               ~               8          ~
              =        ~       .-                                                                                                                                                  0
~            M       .-u
0                                                                                                                                                                                  §
             ~Q~                                                                                                                                                                   ~
             -be-
              ~O-
             -u
                               ~
                               S
                                             °                   0        O       O          o            o            0            °              o               o               o         o         o           o
                      ~                      °          9        ~        ...     "'
                                                                                             8            8
                                                                                                                       ~            °
                                                                                                                                                  8                8
                                                                                                                                                                                   ~         ~         ~           o
                                             0.         0.                                   0-'          v;
                                                                                                                                    0.
                                                                                                                                    0             v)               O
                                                                                                                                                                                                                   o
                                                                                                                                                                                                                   O
                                             0
             os                                         M                                    ..,          M                         .,.,          N                ...,                                            .,.,
             '0-                             ~          ~                                    ~            ~                         ~             ..,              ..,
                                                                                                                                                                                                                   ~
              = ~
             N.B
      N      ~   ~
      =              <
      =
      N      ~
              ~
      >
      ~
       ..
      cS                                     °          °                 0       0          o            o            0            o             O               O             0            0      o              o
      .c
              ~~c
             -41                Q            °          °        ~        ~       ~          o
                                                                                             o
                                                                                                          o
                                                                                                          o
                                                                                                                       ~            o
                                                                                                                                    o
                                                                                                                                                  O
                                                                                                                                                  O
                                                                                                                                                                  O
                                                                                                                                                                  O
                                                                                                                                                                                0
                                                                                                                                                                                0
                                                                                                                                                                                             ."     ~              o
                                                                                                                                                                                                                   o
       U
       ~     OI~;
                                             0.
                                             0
                                                        0-
                                                        "'                                   M
                                                                                             6            M                         O             "'-             O             O
                                                                                                                                                                                0                                  O
       0
             -=                 =            ~          M
                                                        ~                                    ~            ~
                                                                                                                                    VI
                                                                                                                                    ~
                                                                                                                                                  ('I"'
                                                                                                                                                  ~               ~             \D
                                                                                                                                                                                ."                                 N
       ..     ~41.Q
              =   e            .C
       ~
       ~     NS- Q .!J:
             ~
      <      -U~
       bJ)    ~ 41
       C     -~
      .-
      'C                                                                                                                            o             o               o              o       o           o         o
                                             °          °        000000
       C                                     °          °        000000                                                             o             o               o              o       o           o         o
       =     og
             =       .-                      0.         0.       0.
                                                                 0
                                                                        0.
                                                                        °
                                                                                  0.
                                                                                  "'
                                                                                             0.
                                                                                             °
                                                                                                          0.
                                                                                                          "'
                                                                                                                      '0.
                                                                                                                       "'
                                                                                                                                    o
                                                                                                                                    0-
                                                                                                                                                  0
                                                                                                                                                  "'
                                                                                                                                                                  o
                                                                                                                                                                  O
                                                                                                                                                                                o
                                                                                                                                                                                0-
                                                                                                                                                                                         o
                                                                                                                                                                                         0
                                                                                                                                                                                                     o
                                                                                                                                                                                                     0
                                                                                                                                                                                                               0
                                                                                                                                                                                                               O
                                             0          "'
      ~                                                 M        ~      .,..      .,..       ~
                                                                                             "'           .,..         .,..                       M               "'            'D
                                                                                                                                                                                0        ..,        ,"'        N
                     -;                      ~          ~                                                                           ~             ~               ~
        C     '-"0
        o     ~           ~
              4J          4J
      -.c:   >            a
        U
      <      =            8
      -       =           Q
        ~    ~            u
      .-            4J
      'C                                                         °                                                                                                              °        °         °           °
        41         ~                                             °                                                                                                              °        °         °           °
                                             9          9        0.       g.      9          9            9            8            9             8               8             0.       0.        0.          0.
       B           -                         o
                                             ~          ~                 0                  0                                      0             "'              0             0        °         °           °
       41    ri)...c                                             ~                ""         M            ""          ""            ..,           ..,             ~             0'0"""
                                                                 ~        ~                                                                                                     -~...N
                                                                                                                                                                                ...:               ~           ~
      =
             ~~                                                                                                                                                                 ~
             ~C!
             ~~
             ~
             U
                                                                           :;i!                                                                                                                    O
                                                                 t:                                                                                                                                u                         ..
                                                                 ~        .~      ~          ~                                        g~
                                                                           CII    ~          Q                                        cnd                                                           ~                        9
                                                                 ~                                                                                                                                 'U                        0)
                                                                           is     ~          ~                                        ~:;                                                         8~
             1-4                                                           ~      9          o                                                                                 .A.                O~               .        B
             fJ}                                                           CII    ~          I.:          ~    5                    oQ~                                                                                      c:        o
                                                                                                                                                                                ~                 ~u~
-
                                             I          ~ ~               ~       ~          ~
                                                                                                            .N
                                                                                                                                    ~~~
                                                                                                                                    o2~                             ,
                                                                                                                                                                                                                             0)        0
                                                                                                                                                                                                                                       N
             ~                                                                                            ffi ~                                                                ~         ~~8                   i                      N
                                                                                                                                    u(/)~                         ~                                                          ~
              s                                                           ~       ~          ~                                                                                                                              -0        O
              .                                                  ~                                        ~    0                    >-~~                          0
             z                               ~ .~ ~                                                                                 ..J:Sw'u
                                                                                                                                    o..J..J                       x
                                                                                                                                                                               ~         ffi~~,g
                                                                                                                                                                                                                            ~
                                                                                                                                                                                                                                          ~
                                                                                                                                                                                                                                          ='
              ~                                                                                           ~           ~             U.E:! e                       w
                                                                                                                                                                                                                                          a
             rn                              ~~ ~                         ~~~~i                           <           ~             ~~~                           ~            ~         ~~~~                               ~
                                                                                                                                                                                                                           ...
                                                                                                                                                                                                                                      -
                                                                                                                                                                                                                                       ~
                                                                                                                                                                                                                                       .,
~                                                                                                                                                                                                                                     -0
                                                                                                                                                                                                                                       "'
<                                     M                                                                                                                                                                                                u
                                                                                                                                                                                                                                       c:
                                      O          ~~ ~             ~        tI~~~~~                                                                ~~ ~                                                                                -0
                                                 u       u   ~    u   ~    ..~  u        ~   u     ~       u     ~     u       ~    u        ~    u               u        ~                                                           u
~            ~                         1:=
                                       O                                                                                                                                                                                              :3:
<             E-t                            >-u>-u>-u>-u>-u>-u>-u>-u>-u>-u>-u
                                              u .-J.    .-J.    -"     -J.     .-"                 .-J.          -"           .-"           .-"            .-J.           .-   9         9
             "U
              <
                                     :bi1
                                      ~
                                       U     ~~~~~~~~~~~~~~~~~~~~~~~
                                              »»»)0                         »»>                                        >            >             »»
                                                                                                                                                                                         ~         ~           ~
                                                                                                                                                                                                                                  W-;.I~
                                                   8          ~              0                   0
                                                                                                                                     '<)
                   ..=...;
                                                                             ~                   "'
                                                                                                                                     -
                    ~             WI
                                                                                       8.                          8.
                   ~         .-
                                                                                       ~                           ...               ~
~                                                  8                                   N                           ,.,
                                                   N
                                                   ~
                                                                                       ~                                             ""
~                  ~~                                                                                              ~
.-4                                                                                                                                  ~
v).                '2~                                                                                                               ~
1'--               ff)~
N
0\                                '-
                             5
                   'O,.J~
                                                   o
                                                   ...~
                                                              o
                                                                             a         0
                                                                                       ~
                                                                                                 0
                                                                                                 ...               8
                                                                                                                   c
                    =      '"2.~
                   M     .-~
~                                                                                                                  9
0                  ~~~
                   ~'-Q,          ~
                                                                                                                   ;
                    ~O'f
                    -u
                                           WI
                                           ~
                                                                             °         O         o                 °
                                                   o          o                                                    °
                      I           ~                ~          o              °         M         o                            c
                                                              o              0.
                                                                                                 o                 0.        o
                                                                                                                   V\
                                                              O              0
                                                                                                 9                 °        .:.
                    oS                                        ...,
                                                              ""
                                                                             VI
                                                                             ~                   on                ..,..      ~
                    ~-                                        ~                                  ~                           <J
                     d =                                                                                           ~        ~
                    M =
                                                                                                                            -c;
           M        ~             U
           =                                                                                                                 G)
                                  <                                                                                          <J
           =                                                                                                                  ...
                      ~                                                                                                      ~
                    ,...c                                                                                                    O
                                                                                                                             "1
           E                                                                                                                 ~
            ...                                                                                                               ...
                                                                                                                             G) .
           cS                                      o          o              °         0          °                °
                                                                                                                   °        t
                      "'00=                        ~          o              °         ~          °                          ~
           -=              ~                   o              o              0.                   0.               0.
                                                                                                                             ~
            ~        0"0;                                     6              0                    0                "'
                                                                                                                   °         0-
            ~        -~                     =                 "'             V"I                  °
                                                                                                  ""
                                                              M              fA
                                                                                                  ~
                                                                                                                   0.
                                                                                                                   M
                                                                                                                           ~
            f         W~,Qe
                      ~                    .-                 ~
                                                                                                                   ~        ~
             ~                                                                                                              "0
             ~       Me.:                                                                                                    c
                     ~                0    .~                                                                                ~
           <                          u~                                                                                   "E
                        ~             ~
             ~                                                                                                              M
                      ~~
           .-=                                                                                                               00
                                                                                                                             C
           -=                                       o             o              o      o         °                o
                                                                                                                           .L:
             =                         ~            o             o              o      o         °                o
                                                                                                                   o         ~
                                                    o             o              o      o
             =                                                                   O      ..;
                                                                                                  0.
                                                                                                  0                0'       "0
                                                    6             0-                                               ,.,
           ~          gi                            0
                                                    M             M
                                                                                 ~
                                                                                        M
                                                                                        ~
                                                                                                  °
                                                                                                  "'               I"".    "0
                                                                                                  ~                          G)
             =         s..~
                       ~               ~
                                                     ~            '-'t                                             N
                                                                                                                   ~         >
             Q         ~               ~
           -.c                                                                                                             O
                      ~                e                                                                                     "1
              ~
                      =                e                                                                                     ~
            <          =               Q
            -                                                                                                                G)
                      ~                ~                                                                                    .c
            .-~                                                                                                             -
            -=              ~                          o          o              o         o          o            8
              Gl                                                                 o         o
                                                                                                                            .~
                            -                          8          8              o         o          8.           0.
                                                                                                                   0-
              e                                                                  O         ..                                C/I
                                                       g          s::"           .,.
                                                                                 ~
                                                                                           ("4
                                                                                           ~
                                                                                                      8
                                                                                                      ...,         ~         G)
            ~           ~E                             ~          ~                                   ~            ..,
                                                                                                                   ...
                                                                                                                            .U
                        d~                                                                                                   ~
                        ~~                                                                                                   0.
                                                                                                                             G)
                                                                                                                             ...
                                                                                                                             <J
                        fj-                                                                                                  C/I
                                                                                                                            ".6
                                                                                                                             ...
                                                                                                                             G)
                                                                                                             ~              ~
                                                                             .d                              "E             ~
                                                                         0                  u                               C"
                                                                         u                  >-                8
                          ~
                          rn                           IIJ               !
                                                                         0                  ~
                                                                                            ~          I:
                                                                                                       ~
                                                                                                             3

                                                                                                              !!
                                                                                                              u

                                                                                                                           ~
                                                                                                                           N
                                                                                                                           "1:J
                                                                                                                                    o
                                                                                                                                    o
                                                                                                                                    ~
                                                                                                             -0
    9"'4                  ~                                                                                  O               ~
                                                                                                             ~             .        s
                           e                                                                           ~                   -
                           =                              i        i<~                      a                ...
                                                                                                             o                       ~
                          z                                                                                   .             -S       :.
                           ~                                                                                                .i
                                                                                                                                     ~
                          .-                                                                           ~     -§
                                                                                                                                    ...
                          rn                              ~          ~i~                    ~          a2    .00             C/I     ~
    I                                                                                                         u              G)      tU
                                                                                                                            .:.     "Q
                                                                                                             ~                       "'
                                                                                                                                     u
                                                                                                             .E             .>       c
    ~                                                                                                                               "Q
                                                                                                                            .-fi     u
                                                                                                              ~             <       ~
    ~
                                                          ~    :ac:ac]c:ac                                          e
    <                                                                                                               ~
                        ~                                 ~     ~.5~-5~.5~.5                                 ~
                                                          ...J ~<~<~<~<                                      VI    (J)
                       '<
                                                                                                                           W-;.\b
                                                    O                         0            0             0                                0                0                                              0                0                                    ~                      o                  o
                                                    ."                        ~            ~
             .C.J
                                                               8-
                                                                                                         ~
                                                                                                                            8.
                                                                                                                                          ~                ...
                                                                                                                                                                            §.               8.
                                                                                                                                                                                                          ~                ~
                                                                                                                                                                                                                                             8.
                                                                                                                                                                                                                                                                O                                         ~                  '0
~            ~      .-
                        WJ
                                                               0
                                                               ""'
                                                                                                                            o                                               0                                                                o                  O
                                                                                                                                                                            .,.,                                                             "'
<9                                                             ~                                                                                                            ~
                                                                                                                                                                                            M
                                                                                                                                                                                            ...                                              ~
                                                                                                                                                                                                                                                                o
                                                                                                                                                                                                                                                                "'                                                           ~
-           ~Q
                    =
                                                                                                                                                                                                                                                                ...                                                          '0
                                                                                                                                                                                                                                                                                                                              "
.,)          'E         ~
I'                                                                                                                                                                                                                                                                                                                            ~
M            f")Q                                                                                                                                                                                                                                                                                                            Q;;
0\                      I..
~                   5
~           ~..;u
             c       w:       .-
                                   WJ             0
                                                  ~
                                                              0
                                                              ~
                                                                           0
                                                                           ~
                                                                                        0
                                                                                        ~
                                                                                                         0
                                                                                                         ~
                                                                                                                        o
                                                                                                                        ~
                                                                                                                                         o
                                                                                                                                         ~
                                                                                                                                                          0
                                                                                                                                                          ~
                                                                                                                                                                           0
                                                                                                                                                                           ~
                                                                                                                                                                                            O
                                                                                                                                                                                           lA
                                                                                                                                                                                                         0
                                                                                                                                                                                                         ~
                                                                                                                                                                                                                        0
                                                                                                                                                                                                                        ~
                                                                                                                                                                                                                                          0
                                                                                                                                                                                                                                          ~
                                                                                                                                                                                                                                                              o o o
(/J
            MQ~
0           ~        I..           ~
                                   Q.
            -=01~
            -u
                                   W)
                              ;3
                                                 °            0            o           o             °                  0              o                o              0               o              o            °                     0                  o                      o                  o
                                                 °            -            o           o             °                  ~              o                o              ~                              o            °
            -WI                                  0.                        o           o                                               o                o                                             0
                                                                                                                                                                                                                                         ~                  ~                      o
                                                                                                                                                                                                                                                                                   o
                                                                                                                                                                                                                                                                                                      o
                                                                                                                                                                                                                                                                                                      0
                                                                                                     0.                                                                                                            0.
                                                 "'                        O           O             0                                 O                <'i                                           O
            O'Q                                  M                         .,..        .,..          t"I                               "'               N
                                                                                                                                                                                                                   "'                                                              0.                 O
                                                                                                                                                                                                      ...,         "'                                                              .,..               0
                                                 ~                         ...,        ...,          ~                                 ~                ~
            ~-
             C       ~                                                                                                                                                                                                                                                           ~ ~
                                                                                                                                                                                                                                                                                   M
            N        =
                    -
      M     ~        U
      =.
      =     -<
             ~
            -
      ~
      ~
       "'
      ~      &.. ~             =                  °          0            o           o              o              0              °                 0                0              0             o             o                   0                    o                     o                 o
      .c    -~                 o                 °           ~            o
                                                                          o
                                                                                      o
                                                                                      0
                                                                                                     o
                                                                                                     0
                                                                                                                    ~              °                 O
                                                                                                                                                     O
                                                                                                                                                                      ""             ~             o
                                                                                                                                                                                                   o
                                                                                                                                                                                                                 o
                                                                                                                                                                                                                 o
                                                                                                                                                                                                                                     ~                    ~                     o
                                                                                                                                                                                                                                                                                o
                                                                                                                                                                                                                                                                                                  o
                                                                                                                                                                                                                                                                                                  0
       U                                         0.                                                                                0.
       =    O'~;                                 "'                       0.          O              0-                            0                                                               O             ...,.                                                          0.                O
                    =          =                 N                        "'          "'                                           ...,             N                                              ...,          ~                                                              ...,              0
                                                 '-4                      ~           ~              ~
       E    ~~,Q
             c   e            .-
                                                                                                                                   ..,              ~                                              ~
                                                                                                                                                                                                                                                                                ~ ~
                                                                                                                                                                                                                                                                                  M
       c.
       c.   Me~ Q .~
            ~
      <
            -U.Q
             ~   ~
       ~
       =    -~
      .-
      'C
       =                                         °          °            o           o               o              o              o                o               o               o             o            °                   o                   o                      o                   o
       =    O'§                                  °
                                                 0.
                                                            °
                                                            0.
                                                                         o
                                                                         o
                                                                                     o
                                                                                     0
                                                                                                     o
                                                                                                     o
                                                                                                                    o
                                                                                                                    o
                                                                                                                                   o
                                                                                                                                   o
                                                                                                                                                    o
                                                                                                                                                    o
                                                                                                                                                                    o
                                                                                                                                                                    0
                                                                                                                                                                                    o
                                                                                                                                                                                    o
                                                                                                                                                                                                  o
                                                                                                                                                                                                  o
                                                                                                                                                                                                               °
                                                                                                                                                                                                               0.
                                                                                                                                                                                                                                   o
                                                                                                                                                                                                                                   o
                                                                                                                                                                                                                                                       o
                                                                                                                                                                                                                                                       o
                                                                                                                                                                                                                                                                              o
                                                                                                                                                                                                                                                                              o
                                                                                                                                                                                                                                                                                                  o
                                                                                                                                                                                                                                                                                                  o
      ~     =0.:                               -N
                                                 ""         °
                                                            ...,
                                                                         0.
                                                                         "'
                                                                                     0-
                                                                                     "'
                                                                                                 O
                                                                                                 M
                                                                                                                    0
                                                                                                                    N
                                                                                                                                   O
                                                                                                                                   "'
                                                                                                                                                    N
                                                                                                                                                    N
                                                                                                                                                                    0.
                                                                                                                                                                    .,..
                                                                                                                                                                                    .,;
                                                                                                                                                                                    M
                                                                                                                                                                                                  O
                                                                                                                                                                                                  on
                                                                                                                                                                                                               V)
                                                                                                                                                                                                               ~
                                                                                                                                                                                                                                   O                   O
                                                                                                                                                                                                                                                       0
                                                                                                                                                                                                                                                                              0-
                                                                                                                                                                                                                                                                              v.
                                                                                                                                                                                                                                                                                                  O
                                                                                                                                                                                                                                                                                                  0
                                                 ~          ...,         ~           ~           ..,~~~                                                             ~               ~             ~                                ..,                 v.                                         M
        ~
        c    .~
             ~ c
      -.c   >   ~
        u
            -E
      <     =       E
      -     ~       O
      .-
        =           u
      'C
        ~           ~                           o
                                                o
                                                            o
                                                            o
                                                                         0000000
                                                                         0000000
                                                                                                                                                                                   o
                                                                                                                                                                                   o
                                                                                                                                                                                                  o
                                                                                                                                                                                                  o
                                                                                                                                                                                                               o
                                                                                                                                                                                                               o
                                                                                                                                                                                                                               o
                                                                                                                                                                                                                               o
                                                                                                                                                                                                                                                      o
                                                                                                                                                                                                                                                      o
                                                                                                                                                                                                                                                                           o
                                                                                                                                                                                                                                                                           o
                                                                                                                                                                                                                                                                                              o
                                                                                                                                                                                                                                                                                              o
                                                o           o            0000000                                                                                                   o              o            o               o                      o                    o                  0
       8
       ~    rn-                                 .,;         O            oooooMo                                                                                                   .,.,.          0.           .,.,.           O                      0.                   0-                 O
            -.-4                                N                        "'
                                                                         o.'t
                                                                                 W\
                                                                                 o.'t
                                                                                                 M
                                                                                                 o.'t
                                                                                                                    N
                                                                                                                    ~
                                                                                                                                  "'
                                                                                                                                  o.'t
                                                                                                                                                   N
                                                                                                                                                   o.'t
                                                                                                                                                                    "'
                                                                                                                                                                    o.'t
                                                                                                                                                                                   N
                                                                                                                                                                                   ~
                                                                                                                                                                                                  ...~
                                                                                                                                                                                                  ~
                                                                                                                                                                                                                               VI
                                                                                                                                                                                                                               M
                                                                                                                                                                                                                                                      0
                                                                                                                                                                                                                                                      "'
                                                                                                                                                                                                                                                                           "'
                                                                                                                                                                                                                                                                           -M
                                                                                                                                                                                                                                                                                              0
      ~     ~e                                                                                                                                                                                                                                        ~                    ~                  ~
            u~
            ~~
            ~~
            u
                                                .J        .
                                                .J,...O 7
                                                -o~     u
                                                "'<     I::;                                                                                       O.                                                                          .J                     u                   .J
                                                ~0~~~                                                                       ~                      U                O                             ~            ~               -(/]~                                      <
                                                :':S~~~9                                                            ~=e                            ~ ~ :j                                         ~            O               §~                     ~                   2                   ~
            -                                   ~~u~~o                                                              ~~~                            u Uz~                                          ~            ~               ~~~                                        s                   ~
            ~
            ~                                   ~~~:~                                8          ~                   ~d~                            ~~mQ~                                          ~            ~               IlJg:J                                     ~                ~                         9
                                                                                                                                                                                                                                                                                                                     N
~            ~
                                                                                                                                                                                                                               .Jl;g
                                                                                                                                                                                                                               1IJ"l;
                                                                                                                                                                                                                                                                          (/]
                                                                                                                                                                                                                                                                          <
                                                                                                                                                                                                                                                                                           b.(/]
                                                                                                                                                                                                                                                                                           1lJt:
             E                                                                                                                                                                                                                 ~          IIJ                         ~                    (/]A.                     N
                                                                                                                                                                                                                                          A.O                                              (/]
             «                                  ~~~~~                                ~~~                            ~~~                            ~~~~~                                          ~~~                          z          8       .J                  ~                    ~~
                                                                                                                                                                                                                                                                                                                     O
            Z                                   ~~<x~                                ~~2                            01                             =    ~OS                                       °~O                          0                  ~                   0                    ~~                         "
             ~                                 ~5~~~~§~                                                             ~             ~                ~~~~3                                          ~~~                                                                                                                 ;3
                                                                                                                                                                                                                               ,:;:a~                                 ~                    8ffi                       a
~           00                                 ~~~=~                                 ~~~                            ~             ~                "'~u~=                                         <~-                          zu     IIJ                             IIJ                  ~(/]                      ...
                                                                                                                                                                                                                                                                                                                      ;.0;
u                                                                                                                                                                                                                                                                                                                     ~
                                                                                                                                                                                                                                                                                                                     -0
<                                       ":1"                                                                                                                                                                                                                                                                          VI
                                                                                                                                                                                                                                                                                                                      U
                                        0                                                                                                                                                                                                                                                                             C
                                                a           a            aaa~~aaaaa                                                                                                                                            a                                                                                     -0
                                         c      u..u..u..u..u..u..u..u..u..u..u..u                                                                                                                                             u..                                                                                    ...
                                         o     )o..)0..)oP.)0..)0..)0..)0..)0..>-~)0..)0..)0~)0..
~                                               u
                                                 ,u
                                                     .-:.
                                                                   u
                                                                 .-:.
                                                                                u
                                                                              -l.
                                                                                           u,u.u,u
                                                                                         .-u              .-u           .-u              .-l.
                                                                                                                                                            u,u,u
                                                                                                                                                          .-u              .-u            .-l.
                                                                                                                                                                                                        u
                                                                                                                                                                                                      .-l.
                                                                                                                                                                                                                         u
                                                                                                                                                                                                                       ...l.             .-
                                                                                                                                                                                                                                           u                          ~                   ~
                                                                                                                                                                                                                                                                                                                     ~
            ~                           .611    »
                                               .-u.-        > »>..»>..»>..»»»»
                                                            u.-     u-""  u.-                                u-""           u.-             u...           u.-              u.-            u-            u.-             ~»
                                                                                                                                                                                                                         u.-              u       ~
            <                            u     ~~~~~~~~~~~~~~~~~~~~~~~~~~                                                                                                                                                                         ~                   ~                   ~
                                        ~
                                                                                                                                                                                                                                                                                                              W-3.           \1
                                          0        0                         0         0             0             C)
                                          ~        ""                                                ~
               ~~                                           8.        8      ~         ...                         ~
                                                                                                                                                                   -0
               .; .~                                                                                                                         8-                    ...
 ~                                                          8         8-                                                                     ...,
 ~
                                                            "'
                                                            ~
                                                                      -0                                                                     0-                    ~
 ~
               ~~                                                                                                                                                  t-.
               ~~                                                                                                                            ...
                                                                                                                                                                    ~.
 an             ~ f
 I'                                                                                                                                                                ~
 M             ~~
 a'\                       ~
                          ...
 ~                        0"
                                                   0        0     0          0        O           O            0
               ~           ~ .1                    ~        ~     ~          ~        04         ...           ~                          8
                =         .-u             8.                                                                                              ~
~                                         0                                                                                               0-
               M~C                        "'                                                                                              "'
0              .~     ~          .
                                          ~                                                                                               ~
               ~...Q.
                          ,      ~
                W}\.1'U
               -~
                                Q
                                          °                 0     0         o         o          °            o                           o
                ~-                        °        8        ~     ~         o         o          °                                        o
               -WI .-
              '""'                        0-       °                        o         0          0.
                                                                                                              8                           o
                                          °        0-                       O         0-         0            o                           N
              '-'Q:                       on       °                        o         0          °            V\                          M
                                                                            ."        0                       r-
              -a-
                = ~                      ~         0-
                                                                            ..        N          ~            ~                           N.
                                               ~                            ~         01
                                                                                                                                          0-
                                                                                                                                          ~
              M.S
       N      ~   U
       =
       =       -<
       N      -
                  WI
        ~
         '-
       cS                                                                  °       o          o               o                           o
                  '"'=c                        °        °        0
       .c                 Gl     O       ~     °
                                               °
                                                        fA       ~         °       o
                                                                                   o
                                                                                              o
                                                                                              o
                                                                                                              o
                                                                                                              o
                                                                                                                                          o
                                                                                                                                          o
         U                                     0.
                                                                           0.
                                                                                   O          0               O                           "'
         =    0"=;                                                         0
                          =      =             0                           °       o
                                                                                   0
                                                                                              0
                                                                                              -0-
                                                                                                              "'                          ~
         C                                     0.                          "'.                                                            0
         '-   '=GI.c
               =     e          .c                                                M                                                       0;
         c.                                    fA                          ...
                                                                           ~      ...                                                     OA
         c.   ~
              Me 0 .~
       <
         ~     ~ u Gl j:l
         =    ,-c~
       .-
       'C
                                               o        o        o         o      o          o           o                            °
         =                               0
                                         ~     o        o        o         o      o          o           o                            °
         =    O'§                              o        o        o         o      o          o           o                            0.
       ~                                       6        6        6         O      O          O           O
              =--=                             o        o        o         o      o          o           "'
         =     '",= =
               ~
                                               0
                                               ...:
                                                        N
                                                        ~
                                                                 "'
                                                                 ~
                                                                           "'     o
                                                                                  N
                                                                                       .~    -           ...
                                                                                                         ..,
                                                                                                                                      .,.,
                                                                                                                                      0-
         C     Gl Gl                           ."                          -;j,
       -.c
                                                                                  ~
                                                                                                                                      ~
         U    >     E
       <      =     E
       -       = 0
              ~     ~
       .-=
       'C                                                        o                O          9;          O                            o
         ~         ~                     °
                                         °
                                               o
                                               o
                                                        o
                                                        o                  8                                                          o
                   -                     0.
                                               o        o        8         o      8          o           g                            o
         e    OO,-c                      0                                        o          g           o                            ro:
         ~                               "'                      8-        8-
                                         -     8-       ~        'D        ~      8          -~                                       ~
       ~      ~e                         ~     --~               ~                     ."'               "'
              (.)~                             ~                           ~      "'
                                                                                  N
                                                                                                                                      '3.
                                                                                                                                      ~
              ~~
              ~-
              (.)
                                                                                  O
                                                                                  u              .
                                                                                  ~          u
                                               ~                 0::<: Q          ~          ~.
                                               ~        III      VI                                                          ";;'
                                                        ..J      2                                                           '2
                                                                       8          o          ~
                                                        ~        VI    ~          ""         ~                                8
              ~                          8     d        ~        ~         (/) (/) ~                     Q                    2!
              f/)                                                          ~8~     ~                     8                                                    o
                                                                                                                             .B                               0
                                                                                                                              "
t-I           ~                      ~o8                ~        ~                                                           "0
                                                                                                                             ..,.
                                                                                                                                                              M
                e                    °~=                ~        ~         ~~~               ! ';~                           C!.
                                                                                                                                                             M
                                                                                                                                                             O
                ~                                                          ~~~               .J ~~                           ~                                t-
              z                                                            UJUJo             ~ ~UJ                                                            ~
                ~
                                     ~~~                ~~~                                                                   I                               ~
              .-~                    o::<:~u            x3~                5~~               ~ <~                            -C
                                                                                                                              O                              ]
~             f/)                    ~~~                ~~uJ               UA.U              aI UA.                          "00
                                                                                                                              "                                ~
 u                                                                                                                      -~                                   ~
                                                                                                                                                               ~
 <                                                                                                                           .£
                                                                                                                                                              "'
                                                                                                                                                              U
                                                                                                                                                              C
                                               -a   -a   -a   -a                  -a         -a          -a                                                  ~
~                                              ~c~c~c~c~c~c~c
                                                                                                                             "                                U
.<.           ~                                                                                                                      B
                                                                                                                                                             3:
              u                                ~ .e ~ .e ~ .e ~ .e ~ .e ~ .e ~ .g                                        ~           =
              <                      )         1.:<1.:<1.:<1.:<1.:<1.:<1.:<                                              011        (/)
                                                                                                                                                    w-;.\~
                                                       0
                                                       ~
                                                                                   0                                       0
                                                                                                                           ...
                                                                                                                                          0
                                                                                                                                          ~
                                                                                                                                                        0                0              o                                 0               0              0               0
                     -=...:
                      -WI
                                                                     §-
                                                                                   ~
                                                                                                §             8.
                                                                                                                                                        ~                ...,
                                                                                                                                                                                        8.                  §
                                                                                                                                                                                                                                          ~              ~               ~
                                                                                                                                                                                                                                                                                          -0
                                                                                                                                                                                                                                                                                          ...
                                                                     "'                                       "'                                                                        V)                  v\
~
O
                     ...,.    .-
                                                                     N
                                                                     ~
                                                                                                9             N
                                                                                                              ~                                                                         ~
                                                                                                                                                                                                            N
                                                                                                                                                                                                            ~                                                                             '-0-
  I                 ~Q                                                                          ~                                                                                                                                                                                         ~
~                        ~                                                                                                                                                                                                                                                                 "
11)                 'E f
r--                                                                                                                                                                                                                                                                                        ~
M                   ft)Q                                                                                                                                                                                                                                                                  ~
C'\                            ...
                              -
~                             01
                    ~         .,.:  ~
                                                      0            0
                                                                   ~
                                                                                  0
                                                                                  ~
                                                                                                0
                                                                                                ~
                                                                                                            0
                                                                                                            ...
                                                                                                                          0
                                                                                                                          ~
                                                                                                                                         O
                                                                                                                                         M
                                                                                                                                                       0
                                                                                                                                                       ~
                                                                                                                                                                      0
                                                                                                                                                                      ~
                                                                                                                                                                                        O                0               0            O                  0            0
~                                                                                                                                                                                       fA               ~               ~            OA                 ~            ~
                     =         WI .-
rIJ                 ,~        Q
                                   U
                                   =
O
                    ~         -c.
                     -=OIf
                    -u
                                     WI
                                     S
                                                    °           0              o               0            0             o            o              °              o                o                0             °            o                  o              °
                                                    °           ~              0               ~            ~             o            o              °              o                ...
                    ...~                            0.                         0-                                         o            o              0.             0
                                                                                                                                                                                                       ""            °            o
                                                                                                                                                                                                                                  o
                                                                                                                                                                                                                                                     o
                                                                                                                                                                                                                                                     o
                                                                                                                                                                                                                                                                   °
                                                                                                                                                                                                                     0-                                            0.
                                                    V\                         "'                                         ...,-        ...,-          0              .".                                             "'                                            ""'
                    O'S                             N                          M                                                                      °              N                                               N
                                                                                                                                                                                                                                   .,.;
                                                                                                                                                                                                                                  '""
                                                                                                                                                                                                                                                     0
                                                                                                                                                                                                                                                     ~             N
                                                    ~                          ~                                                                                     ...
                    ~-
                     = =                                                                                                                              ~                                                              ~            ~
                                                                                                                                                                                                                                                    fA             ...
                    N    =
                              ...
          M         ~          U
       =
          =         ...<
       M                ~
                    -
       ~
        ...
      ~
                                                    °           0             °            0             0             o             o               o              o               0                0               °                                           o
                     '-~c                                                                                                                                                                                                         o                o
      ..c           -~               Q              °           ~             °            ~             ~             o
                                                                                                                       o
                                                                                                                                     o
                                                                                                                                     o
                                                                                                                                                     o
                                                                                                                                                     o
                                                                                                                                                                    o
                                                                                                                                                                    o
                                                                                                                                                                                    ~                ~               °            0                o             o
              u                                     0.                        0.                                                                                                                                     0.           0-               o             q
                    O'~~                            "'                        ""'                                      ...,-         ...,-           O              .,.,.                                                         "'               O             VI
              ~
                         c .~                       N                         '""                                                                    O              N                                                N
                                                    ~                         ~                                        04            04              ..,.           ~
                                                                                                                                                                                                                                  N                "'            N
              0
              ...   'O~.c
                     c e .c                                                                                                                          ~
                                                                                                                                                                                                                                  OA
                                                                                                                                                                                                                                                  ~              ~
              Q.
              Q.    Me- 0 .~
                    ~
      <
                    -UQ
                     WI ~
              ~
              =     -~
      .-
      '0
           =                                       °           °              °            0             °            °             o             O             o               o                 °               o            o                  o              °
                                                   °           °              °            0             °            °             o             O             o               o                 °               o            o                  o              °
           =        O'~                            0.          0.             0.           0             0.           0.            o             0             o               0
                                                                                                                                                                                                  0.              o            O                  o
                                                                                                                                                                                                                                                                 0.
      ~
                                                   "'          "'             "'           0-           "'            V\            .".           O             ...;            ...;                              ...;         ...;               O              V\
                    =i                             ..,         N              M            0            N             N             "'            o             N               N
                                                                                                                                                                                                 ~                M            M                  .,.,           M
           =
           0
                     '-~
                     ~        =
                                                               ~              fA
                                                                                           ...,         lA            ~             ~
                                                                                                                                                  lA            ~               ~                                 ~            ~
                                                                                                                                                                                                                                                  ~              ~
      .-             Gl       Gl
       -
           u        >         e
      <
                    =         e
      -
                     =        Q
           ~        ~         u
      .-
      '0
                               Gl
           41                 ~                    o
                                                   o
                                                               o
                                                               o
                                                                              o
                                                                              o
                                                                                           o
                                                                                           o
                                                                                                        0000000
                                                                                                        0000000
                                                                                                                                                                                                                 o
                                                                                                                                                                                                                 o
                                                                                                                                                                                                                              o
                                                                                                                                                                                                                              o
                                                                                                                                                                                                                                              o
                                                                                                                                                                                                                                              o
                                                                                                                                                                                                                                                             o
                                                                                                                                                                                                                                                             o
                              -                    o           o              o            o            0000000                                                                                                  o            o               o              o
           e
                    oo~                            .,.;        "'-                         0-           .,;   .,;                  .,;            0             .,;             .,;              .,;             .,.;         on-             O              on-
           41                                      N           N              ...0                      NNNONNN                                                                                                  M            M               on             N
      ~             ~e:
                    ~~
                                                 .~            ~              ~
                                                                                           ~
                                                                                           -
                                                                                                        ~~~~~~~
                                                                                                                                                                                                                 ~            ~
                                                                                                                                                                                                                                              ~              ~
                    ut:!
                    ~e.
                    ~
                    u
                                                                                                                      t/)                        ~              <'     ~
                                                                                           cJ                         ...~                                      ...~
                                                                              8            2:                         (.)                        O              O:2:G:                                                            ...J
                                                                              >                         ~             5            u             (.)            ~(.)~
                                                                                                                                                                                                                              O                    ...J
                                                                              e.:
                                                                              ~                         :J            ~            z=            ~              ~~~                             ~                             ~~~                            ~
                    ~                                                         ""           9                                                                                                    ii)              g2           Ii:(/)U                        <
                                                  ..J                                                                                                                                                            o            ~ <..J                         ..J
                    00
                                                  ..J                         ~            ~                                                                                                    ~                u                                                                 o
~                   ~
                                                  ~            ~
                                                               ~              ~
                                                                                           ~
                                                                                           u
                                                                                                        ~
                                                                                                        o~<
                                                                                                                      ~            8
                                                                                                                                   ~
                                                                                                                                                 ~
                                                                                                                                                 (.)~~I;z
                                                                                                                                                                'O~6
                                                                                                                                                                                                ~                                ~~

                                                                                                                                                                                                                                   ~~                        ~
                                                                                                                                                                                                                                                             O

                                                                                                                                                                                                                                                                                   0
                                                                                                                                                                                                                                                                                   N
                     e                                                                                                                                                                          "'               ~            >-~u                           ~                    N
                     ~
                                                  ~
                                                               ~                                        (.)o~                      ~             ~<t:~2                                                                                                                           O
                                                  ..J
                                                               o              ~            ~            ~~~                        II.           8°~~x
                    Z
                                                               u                                                                                                                                5                ~                                                                  ~
                     ~                                                                                                                                                                          ..J                                                                                 ~
                    -                                                                                   ffi~~                      ~             .~~~~g
                    0-                                                                     ~                                                                                                    ...:                                                                                a
                    00                            ~            ~              ~            <            ~<Il.                      ~              ~~~e.~                                        "'               ~            II;I~
I                                                                                                                                                                                                                                                                                   ~
<                                         IrI
                                          0

                                                                                                                                                                                                                                                                                   -0
                                                                                                                                                                                                                                                                                    "'
                                                                                                                                                                                                                                                                                    U
                                                                                                                                                                                                                                                                                    t::
~                   ~                       c
                                                   ;:a~~
                                                   u       ~   u          ~   u        ~   u        ~
                                                                                                        ~~~~2~~~~~~
                                                                                                        u         ~   u        ~   u         ~   u          ~   u        ~      u           ~   u           ~    u        ~   u       ~       u          ~   u        ~           "fl
<                   ~
                    U
                                          .-
                                            0
                                            00
                                                  >-u>-u>-u);u);u);u~u>-u);u>-u);u);u>-u>-u);u
                                                   l.
                                                   > > > > > > > > > > > >
                                                                           u .-u                                                   li -l.
                                                                                                                                   > >           >
                                                                                                                                                        .-u  .-l.
                                                                                                                                                         > > >                  >
                                                                                                                                                                                        .-u
                                                                                                                                                                                         >      >
                                                                                                                                                                                                         .-u  .-:. .-:. .-u
                                                                                                                                                                                                          > > > > > > > > >
                                                                                                                                                                                                                            .-                                                    ;3:
                                            u
                    -<                           ~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~
                                          ~
                                                                                                                                                                                                                                                                             w-    3. \~
                                                                                                           0                0           o                                    o
                                                                                                                                                                             ~
                                                                                                                                                                                                o
                                                                                                                                                                                                ~
                                                                                                                                                                                                                    0
                                                                                                                                                                                                                    ~                ~                8
                         ~..:                      8.           8             8            8.                                           8.            8.                                                                                                                     -0
                         ...W1                     "'           o             .,;          o                                            o             o
    '0!"                 ~     .-
                                                   N            "'            M            ...,                                         '""           ~                                                                                               8.
                                                   fA           OA            OA           ...                                          ~             ~                                                                                                                      ~
    0:;>                 ~Q                                                                                                                                                                                                                           ~                      0-
    ~                    ~~                                                                                                                                                                                                                                                  "
    ~                     '" e
    r--                                                                                                                                                                                                                                                                      ~
    M                    ~Q                                                                                                                                                                                                                                                  Q;;
    =--                         '"
                               ...
    ~                          0
                      ~.oJ~
                                                  0
                                                  ...
                                                                o            o           0
                                                                                         ~
                                                                                                       0
                                                                                                       ...
                                                                                                                        0               c
                                                                                                                                        ~
                                                                                                                                                      0
                                                                                                                                                      ~
                                                                                                                                                                         o
                                                                                                                                                                         ~
                                                                                                                                                                                              o
                                                                                                                                                                                              ~                   a               8                  ~
    ~                  C ~           .:-                                                                                                                                                                          o               o
    ~                 M-
                      A~ Q            ~
                                       :,1                                                                                                                                                                        o
                                                                                                                                                                                                                  0               O
                                                                                                                                                                                                                                  o
    0                                                                                                                                                                                                             N
                      ~bc.
                                                                                                                                                                                                                  ~               ~
                                      GI
                       W1,,",","
                      ~               U
                                      W1
                                     Q
                                               0
                                               ~
                                                                o            o           0
                                                                                         ~
                                                                                                      o                °
                                                                                                                       °
                                                                                                                                    0
                                                                                                                                    ~
                                                                                                                                                     0
                                                                                                                                                     ~
                                                                                                                                                                         o                 o
                                                                                                                                                                                           o
                                                                                                                                                                                                                  o
                                                                                                                                                                                                                  0.
                                                                                                                                                                                                                                 o
                                                                                                                                                                                                                                 o
                                                                                                                                                                                                                                                  o
                                                                                                                                                                                                                                                  o
                      -WI                                                                             9                0.                                                                  o                      o              o                o
                                                                                                      vi               V\                                                                  O                      O              0                O
                     CIS                                                                                               N                                                                   o                      o              o                o
                     ~-                                                                               ~                ~                                                                   "'                     -M                              -
                                                                                                                                                                                                                  ~                   .~
                     N
                      =        ~
                               =                                                                                                                                                                                                 ~
                              -
           N         ~         U
           =
           =          -<
                         WI
                     -
           ~
           ~
            -
           .s
                       ~~=                    0             o             o           0               °               o             0               O                o                    0                   o               o                  o
           .d                                 ~             ~             ~           ~               °               0             ~               04               ~                    0                   o               o                  o
                      -~              o                                                               0.              0-                                                                  0                   o               o                  o
                y
                =    O'~;                                                                             "'              ..,                                                                 O                   O               O                  0-
                     -=               =                                                               N               N                                                                   0
                                                                                                                                                                                          ~
                                                                                                                                                                                                              N              0
                                                                                                                                                                                                                             '0
                                                                                                                                                                                                                                                 0
                                                                                                                                                                                                                                                 -
                ~                                                                                     ~               lA
                -      W~,Q
                       =   a         .-                                                                                                                                                   ~                   ...            ~                   ~
                c.
                c.   ME.C
                     ~    0          .~
           <
                     -u~
                      rII ~
                bD
                =    ~~
           .-
           "0
                                              o             o            o           o            °               °              °               °                  o                 0                      O               o                   o
                =                                                                                                                                                                                            O
                                              o             o            o           O            °               °              °               °                  ""                o                                      o                   o
               =     0'8                      o             o            o           o            0.              0-             0.              0.                                   o                      O               o                   O
           ~                                  .".           O            ...,-       0.           V\              V\             0               0                                    O                      O               0                   O
                     =-.;                                   ...,         N           ...,         N               N              N               «)                                   o                      N               o                   0
                                              ~             ~            ~           ~            ""              ~              ~               ~                                    "'                                     'D                  M
              =       ~'O                                                                                                                                                             ""                     ;;              M                   M
              ~
                      =        c
           .-         G)       G)
            -
              y
                     ~         e
           <         =         e
           -
                      =        0
             =       ~         u
           .-
                                G)
           "0
                              ~               °             o            o           o                                          o               o                  o                 o                   o                o                  o
             ~                                °             o            o           o            8               8             o               o                  o                 o                   o               o                  o
                                                            o            o           o            o                             o               0                  o                 0                   o               o                  0
           .a                 -               0.
                                                                                                  .,;
                                                                                                                  0.
                                                                                                                  "'                                                                                                     0-                 O
                     ~e
                     rn                      M
                                                            O
                                                            on
                                                                         .,;
                                                                         M
                                                                                     O
                                                                                     .,..         M               N
                                                                                                                                O
                                                                                                                                N
                                                                                                                                                0-
                                                                                                                                                ~
                                                                                                                                                                   0.
                                                                                                                                                                   0
                                                                                                                                                                                     O
                                                                                                                                                                                     0
                                                                                                                                                                                                         O
                                                                                                                                                                                                         V\              0                  0
                                             M                                                    ~               ..,           ~               ~                  ..,               -                   ...             ..,                ..,
           ~                                                                                                                                                       ~                 ..:                 ~               ...:               ~
                                                                                                                                                                                     ~                                   ~
                     d~
                     ~~
                     ~
                     u
                                                                                                                  ...J
                                                                                                                                .J                                 O .J
                                                                                                                                                                   U.JJ
                                                                                                                  ...J
                                                                                     d                     .G:                  Ii:!                               o ~                                                  ~.
                                                                                     u
                                                                                                                                                                                                                                                             ...:
                                                                                                                                ~                                  ~ O                                                   1-                      .
                                                            <            ~           :;i!         u              ~                              ~                                    u                                  U                  O                 9
                                                            >            <           u                                                                                                              .~                                     U                 u
.-4
                     ~
                     ~
                                                            ~ .~
                                                            u°fl!
                                                                                     i
                                                                                     u

                                                                                                  ~
                                                                                                  :1
                                                                                                                 >-
                                                                                                                 ~
                                                                                                                                ~
                                                                                                                                0

                                                                                                                                                ~.J
                                                                                                                                                ~d
                                                                                                                                                1-1&:~
                                                                                                                                                1-
                                                                                                                                                ~
                                                                                                                                                               !                 o.J
                                                                                                                                                                                 ~2

                                                                                                                                                                                     fl)0
                                                                                                                                                                                     =U
                                                                                                                                                                                     ew


                                                                                                                                                                                                                        Q
                                                                                                                                                                                                                        O
                                                                                                                                                                                                                        ~
                                                                                                                                                                                                                        ~
                                                                                                                                                                                                                        Q

                                                                                                                                                                                                                                           O
                                                                                                                                                                                                                                           ~
                                                                                                                                                                                                                                           ::s
                                                                                                                                                                                                                                                            £
                                                                                                                                                                                                                                                            c
                                                                                                                                                                                                                                                            u
                                                                                                                                                                                                                                                           .~
                                                                                                                                                                                                                                                                       N
                      8                                                                           ~              ~              U               ~        ~                       ~ ~ ...><                              8                  ~                 (V
                                             ~                                                    -.n                                                                                                                                                                  9
                     .                                                                            Q              -                                                                                                                                          -0
~                    Z
                                             (I)
                                                                                                  §              ~              b                        ~.J                     dffi~.~                                                   gj
                     ~                       iij            ~j~~~                                                               ~                        ~~                      8~      ~                              t;                 2
                                                                                                                                                                                                                                                            ~           f
                                                                                                  0"             ~
                                                                                                                                ~               00.                              ~~ui                                   Ui                 ffi              ~          -
                                                                                                                                                                                                                                                                        =
;                    r.n                     ~              §~~~~                                 :1             j              o               fl)U~                            ~.J                     ~              ~                  ~
                                                                                                                                                                                                                                                            0
                                                                                                                                                                                                                                                           ...          ~
                                                                                                                                                                                                                                                                       -5
~                                                                                                                                                                                                                                                                       .,
                                                                                                                                                                                                                                                                        ~
                     ~                        ~             ~            ~           ~            ~               ~             ~               ~                                                                                                                      -5
                                                                                                                                                                                                                                                                        u
                                              ..~..~U~..~U~U~                                                                   U~U~
s                    E-l                     >-..>-u>-u>-u>-
                                              u.-u.-l.-b.~b.                                                 f   >-u>-u>-u.o
                                                                                                                  b.-           b.-l..-                                          ~                                                                                     ~
                     U                        >         >   >       >-   >       >   >.u          >               >         >   >           >   ~         >    ~
                                                                                                                                                                                                                        9                9
                     <                       i.:~i.:~lA:~i.:~lA:~i.:~i.:~it~o                                                                                                    .J                      ~              .J               .J
                                                                                                                                                                                                                                                                    W";..1.0
                                              0                                                                                                    0             0           0           0                       °
                                              ~         8
                                                                 0                    0       0
                                                                                                                                                   ~             ~           ~           ~                       °                                        "0
               ~.;                                      o
                                                                 ~
                                                                            §         ~       ~
                                                                                                           §.          8             8                                                               8.          0.                   8                   ...
                             ,                          O                   O                                          o             o                                                               o
                                                                                                                                                                                                                 ..,                                      '0-
~              ~            .-                          "'                  o                              8           "'
                                                                                                                                     ~                                                               ~                                M
                            .Q                          m
                                                        ~                   "'.                            N.
                                                                                                           "'          ~                                                                                         ~                                        ~
                                                                                                                                                                                                                                                          ...
<9                                                                          M                                                                                                                                                        0-
-              ~-=                                                                                         lA                                                                                                                        ~                     "
.n             'E f                                                                                                                                                                                                                                        ~
r--                                                                                                                                                                                                                                                       ~
M              f").Q
0"\                 -L.
~                   0
                                                                 c          O         0       O                        0             0             0             0           0           O           0           0
                                              0         0
               ~            .;
                                         .,
                                         ~    ~         ~        ~          lA        ~       fA           ~           ~             ~             ~             ~           ~           OA          ~           ~
                                                                                                                                                                                                                                     8
~                  c         .,        .-
                                                                                                                                                                                                                                     o
~                  .-u                                                                                                                                                                                                               ~
               ("~ .Q                    Ci                                                                                                                                                                                          -c
0              ~    L.                   =                                                                                                                                                                                           ~
                             -Q.
                -.-v~
                 .',-,I..
               -U
                                       .~
                                       .Q
                                              0         °        °          0         o
                                                                                      o       "'
                                                                                                           0
                                                                                                           O
                                                                                                                       0
                                                                                                                       ~
                                                                                                                                     0
                                                                                                                                     ~
                                                                                                                                                   o
                                                                                                                                                   o
                                                                                                                                                                 °
                                                                                                                                                                 °
                                                                                                                                                                             °
                                                                                                                                                                             °
                                                                                                                                                                                         0
                                                                                                                                                                                         ...
                                                                                                                                                                                                     0
                                                                                                                                                                                                     ~
                                                                                                                                                                                                                 0
                                                                                                                                                                                                                 ~                   .0        c
                    ~            UI           ~         °        °
                                                                                      o       0-           O                                       o                                                                                 0-.
                                                        0.       0.                                                                                              0.          0.                                                                o
                                                                 0                    6       ..,.         0                                       O             °           "'
                                                        0
                                                                                      o       "'           0                                       N             °           lA                                                      0-      .:;
               OQ                                       °        °
                                                                                              -0                                                   ~             ...                                                                           ~
               "0-
                =                ~
                                                        ~        N
                                                                                      ~                    «)                                                    ~                                                                             u
               M                 =                                                                                                                                                                                                   ~       ..9;
        M                                                                                                                                                                                                                                    "t;
               ~                 (.I
        O                                                                                                                                                                                                                                     G)
                             <                                                                                                                                                                                                                  u
        O                                                                                                                                                                                                                                       ...
        M       -
                    UI
                                                                                                                                                                                                                                                ~
        >c                                                                                                                                                                                                                                     0
                                                                                                                                                                                                                                                "'
        ~                                                                                                                                                                                                                                       G)
                                                                                                                                                                                                                                                ...
         -                                                                                                                                                                                                                                      ...
                                                                                                                                                                                                                                               G)
        .s       '" 00 c                      0         °        °          0         o                     0           0            0             o             o           °           0           0           0
                                                                                                                                                                                                                 ~                   -D       t
                                                                            ~         o       "'            o           ...          ...           o             o           C           ~           ~
                                                        °        °
        .c            QI O                              0-       0.
                                                                                      o       0-            Q                                      o             o           0-                                                      0\.       ~
         u      0'00;                                   °        °                    O       .c            0.                                     O             O           "'                                                                ='
         =      -c       =                              °        °                    o
                                                                                      M
                                                                                              "'
                                                                                              -0
                                                                                                            0                                      "'            O
                                                                                                                                                                 M
                                                                                                                                                                             ~                                                                 0'"
         0
                 c~QI~e .-                              ~        .-I
                                                                                      ~                     ~                                                    04                                                                         -s
         -                                                                                                                                                                                                                                   -.:r
                                                                                                                                                                                                                                     ~
          Q.                                                                                                                                                                                                                                 ~
          Q.    Me=
                ~    0 .~                                                                                                                                                                                                                      c:
                                                                                                                                                                                                                                              ~
         <
                 rI1 yQ
                     QI                                                                                                                                                                                                                     "2
          bD                                                                                                                                                                                                                                 M
         =      -~
        .~                                                                                                                                                                                                                                    OD
        '0                                                                                                                                                                                           o           o                            C
                                                         °           °       o        °                     O           °            °             o             o           o           0
                                                                                                                                                                                                                                     'D
         =               =                        O
                                                                     °       o        °        'D           0           °            °             o             o           o           ~           o           o                          .C
                                                  4A     °
                                                                             o                 0-           O                                      o             o           o                       o           o                   0-.      ~
         =                                                                            0.                                0.           0.
                   01.2                                  0.
                                                         0
                                                                     0-
                                                                     °       6        0        .c"          O           0            °             O             O           .,,-                    O
                                                                                                                                                                                                     v
                                                                                                                                                                                                                 .--
                                                                                                                                                                                                                 M
                                                                                                                                                                                                                                     ~      ~
        ~                                                                    o        0        'D           O           "'                         N             O           ~
                                                         .,.,        °
                   =~                                                                                                                              ~
                                                                                                                                                                 ~
                                                                                                                                                                 ..,                                 ~           ~                   ""'.   ~
          =         '"00                                    ~        ""      "'-      M
                                                                                      OA
                                                                                               -M
                                                                                               ~
                                                                                              ...,
                                                                                                                 .      ~                                                                                                            O        G)
          0         ~    =                                                   ~
                                                                                                                                                                                                                                     N        :>
        .~          ~ ~                                                                                     ~
                                                                                                                                                                                                                                            "0
          u        ~     8                                                                                                                                                                                                                    "'
                                                                                                                                                                                                                                              G)
        <          =     8                                                                                                                                                                                                                    ...
        -           = Q                                                                                                                                                                                                                       G)
          =        ~     u                                                                                                                                                                                                                  .J:J
        .~                        ~
        '0                                                                            o                     o           o            0             o             o           o           °           o           0
                                 ~                o         o        o        o
                                                                                               .0           0           0            O             o             o           o           °           00                              'D
          ~                                       o         o        o        o       o                                                                                                              0           0
                                 -
                                                  o         o        o        o       o        0-           0           0            O             o
                                                                                                                                                   O
                                                                                                                                                                 o
                                                                                                                                                                 O
                                                                                                                                                                             o
                                                                                                                                                                             .,;
                                                                                                                                                                                         0.
                                                                                                                                                                                         0           ~
                                                                                                                                                                                                     O           ~
                                                                                                                                                                                                                                     0\.
                                                                                                                                                                                                                                     t-oo   .~
         S                                        O         O        O        O       6        -Do-"                    66                                                                                                                   {/)
                    (/)~                                                              o                                                            M             O           ~           0
         ~                                        o         VI       o        0                .o~on-                                                                                                                                v.      G)
        ~
                    I-I=
                    ..J-
                                                  VI.       ~
                                                                     N
                                                                     ~        O -     M
                                                                                      ~
                                                                                               -~
                                                                                               ~
                                                                                                            ~-~
                                                                                                                        ..,.         ~             ~
                                                                                                                                                                 ~
                                                                                                                                                                 M                       0-
                                                                                                                                                                                         r--
                                                                                                                                                                                                                 ~                   t-oo
                                                                                                                                                                                                                                            .u
                                                  ~
                                                                              ...
                                                                              ~                             M
                                                                                                            ~
                                                                                                                                                                                         ~
                                                                                                                                                                                                                                     ~
                    U~                                                                                                                                                                                                                       ~
                    ~~                                                                                                                                                                                                                       Q.
                    ~-                                                                                                                                                                                                                       ~
                    U                                                                                                                                                                                                                        U
                                                                                                                                                                                                     ..J
                                                                                                                                                                                                                                             "'
                                                  ~
                                                  e,
                                                                       -
                                                                     "-<:                                        .                                          j:J              ~           ~           ..J         .J
                                                                                                                                                                                                                 .J
                                                                                                                                                                                                                                            ~
                                                                                                                                                              ~              o           E                       w                           ...
                                                                                                                                                                                                                                             G)
                                                  (/)           o >O
                                                                Z                                           ~                                                                                                    ~           ';j'
                                                  ~          e    ~                       "-<:              u                        d             <             8           ~           ~                                   ""             .~
                                                                                                                                     u                                                               ~           ~             B              ='
                                                  ~          5~z                 ~        e:                "-<:                                                                                     ~           ~             u              0'"
                                                  0          ~.t ~               ~        u    1-           u                        o                                                                           u             ~            "0
                       -                                                                                                                           ~ ;§~                                 ~                                                   ~
                                                                                                                                                                                                                                             N        o
                       cn
                                                                                                                                     ~             O .O-l1lJ                             G                                   .3
                                                                                                                                                                                                                              ..
                                                                                                                                                                                                                                             ~
                                                                                                                                                                                                                                                      0
                                                                                                                                                                                                                                                      N
    -                  ~                           ~         ~~~~~8~                              ~8~                                .J
                                                                                                                                     "'
                                                                                                                                                   ~8~2;~
                                                                                                                                                   ~~~~u                                 ~
                                                                                                                                                                                         w           i
                                                                                                                                                                                                     o
                                                                                                                                                                                                                 ~.          ""
                                                                                                                                                                                                                             M
                                                                                                                                                                                                                             ::!:.
                                                                                                                                                                                                                                              a       N
                                                                                                                                                                                                                                                      O
                        e                                                                                                            "'
                                                                                                                                                                                                     ~                                      u-
    ~                   ~                                                                                                                                                                                        ~           o                         ~
                       z                                                                                                             ~             ~~;;!~:   ~                                       :J          Cl)o
                                                                                                                                                                                                                 O.J
                                                                                                                                                                                                                              . .
                                                                                                                                                                                                                             -C             -5         :3
                        u                                                                                                            111
                                                                                                                                                   ~~~~~     ~                                                   I-tU                                  a
                       -                                                                                                             111
                                                                                                                                                                                                     ~                        o .
                                                                                                                                                                                                                             .Go            .~        -.
                                                   s~l~i!li~~lljl~                                                                   "'            OU~-1-1.4                                                     ~G:
                                                                                                                                                                                                                                             {/)
    i                  rn
                                                                                                                                                                                                                                             G)        ~
    u                                                                                                                                                                                                                        ~
                                                                                                                                                                                                                              ..            :E
                                                                                                                                                                                                                                                      "C
                                                                                                                                                                                                                                                       "'
    <                                                                                                                                                                                                                        .2               :>
                                                                                                                                                                                                                                            .:;
                                                                                                                                                                                                                                                       U
                                                                                                                                                                                                                                                       c:
                                                                                                                                                                                                                                                      "C
                                                                                                  "OI"OI"OI"OI"OI"OI"OI"OI"OI"OI                                                                                              "              (.)       U
                       ~.                                                                         :;c:;c:;c:;c:;c:;c:;c:;c:;c:;c                                                                                                            <         ~
    ~                  ~
                       u
                                                                                                    u
                                                                                                    u

                                                                                                          O u
                                                                                                    E .;J E .:J
                                                                                                          u     u

                                                                                                                      O u
                                                                                                                      u
                                                                                                                            E .;J
                                                                                                                            u

                                                                                                                                 O
                                                                                                                                 u

                                                                                                                                         u
                                                                                                                                         E
                                                                                                                                         u

                                                                                                                                               0
                                                                                                                                             .;J
                                                                                                                                               u

                                                                                                                                                       i!
                                                                                                                                                       c
                                                                                                                                                       u

                                                                                                                                                             o
                                                                                                                                                            .a
                                                                                                                                                             u

                                                                                                                                                                     i!
                                                                                                                                                                     c .~
                                                                                                                                                                     ..u

                                                                                                                                                                         0    u
                                                                                                                                                                              E
                                                                                                                                                                              u

                                                                                                                                                                                     0
                                                                                                                                                                                    .~
                                                                                                                                                                                     u

                                                                                                                                                                                           i!
                                                                                                                                                                                           c
                                                                                                                                                                                           u

                                                                                                                                                                                                 o
                                                                                                                                                                                                .~
                                                                                                                                                                                                 u

                                                                                                                                                                                                      ~
                                                                                                                                                                                                      t:
                                                                                                                                                                                                      u

                                                                                                                                                                                                             0
                                                                                                                                                                                                           .;J
                                                                                                                                                                                                             u

                                                                                                                                                                                                                  ~
                                                                                                                                                                                                                  t:
                                                                                                                                                                                                                  u

                                                                                                                                                                                                                         o
                                                                                                                                                                                                                        .~
                                                                                                                                                                                                                         u
                                                                                                                                                                                                                              ~
                                                                                                                                                                                                                              ~
                                                                                                                                                                                                                             (/)
                                                                                                                                                                                                                                      B
                                                                                                                                                                                                                                      =
                                                                                                                                                                                                                                     00
                       <                           ~         ~         ~          ~       ~       ~<~<~<~<~<~<~<~<~<~<
                                                                                                                                                                                                                                                w...~l1
                                                0                   0
                                                                    ...
                                                                               0
                                                                               ~
                                                                                       0
                                                                                       ~
                                                                                                  o
                                                                                                  8
                                                                                                           o
                                                                                                           ~
                                                                                                                  o
                                                                                                                  8
                                                                                                                          o
                                                                                                                          ~
                                                                                                                                  o      o
                                                                                                                                         o
                                                                                                                                                   0
                                                                                                                                                   ~
                                                                                                                                                        °
                                                                                                                                                        °
                                                                                                                                                                 0
                                                                                                                                                                 ~                                                    'C
                                                                                                                                         o              0.
                  ~..;                                    8.                                                                                            0
                  ..,. .-WI                                                                       .".             O
                                                          o                                                                              O
..,.                                                                                           N                  "'                     o              °
                                                                                                                                                                                   N                                 '-0-
=
       I
                       ~                                  ~                                    -0
                                                                                               ~
                                                                                                                  -
                                                                                                                  ~                      ~              0.                         0
                                                                                                                                                                                   0
                                                                                                                                                        ~
~
                  ~~                                                                                                                                                               N                                 "
11'1              'E          f                                                                                                                                                                                      ~
t'-
                  f"i~                                                                                                                                                             ~                                 Q;;
M                                                                                                                                                                           c
0'\                           ...                                                                                                                                           O
                                                                                                                                                                                    Q)
                                                                                                                                                                                   ~
                                                                                                                                                                          ...::
~                           0'                                                                                                                                              tU
                                                                               0               o           o      o      o       o       o     0       0     °              <)      ~
                                      WI        0         0         0                  0
                                                                                               ~           ~      ~      ...     o       ~     ~       ~     U
                  'O..;~                        ~         "'        ~          ..,     ~                                                                                  .9;      ~
                   =      WI .-                                                                                                  o                           0.
                  M      .-U                                                                                                     O                           "'            ...      Q.'
~
                            ~         =                                                                                          "'                          "'                    .c
                                                                                                                                 ~                                         u
0                                                                                                                                                            ~                       C
                  ~           ...CU                                                                                                                                        ~         0
                                      Q.
                                                                                                                                                                           ='      .;:;
                  -I"'J~
                   WI,-,...                                                                                                                                                0        =            .
                  ~                   U                                                                                                                                    "'      -N
                                                                                                                                                                           u
                                      WI
                                                                                                                                                                           ...      00
                                                                                                                                                                                    U)o
                                      ~                                                                                                                                             eN
                                                                                                                                                                       ~             bD>-
                                                o         0         o          °       o       o           o      o      o       o      o      0       0     °
                                                                                                                                                                       ~           .E ~
                                                                                               ~           0      ~      o       o      ..,    ~       ~     °
                   ...~                         o         ~         o          °       0
                                                                                                           o             "'      o                                      c            =   ...                c
                  ~           VI                o                   o          0.      ...'0                                                                 0.                      c   Q)                 o
                                                                                                           O             N       O                           "'
                                                O                   O          0       M
                                                                                                                                 .,.,                        "'       .bi>         .;:; t                 ..::
                                                                                                           "'            "'
                  OQ                                                           ~
                                                                                       \D                  N             -       ..,                         N        .t:            c   ~                  "'
                  ~-
                   = ~
                                                .,.                 ~
                                                                                       ~                   ~             ~                                   lA
                                                                                                                                                                        0           0    =
                                                                                                                                                                        "'          U CT              .2
                  M  =
                     ~                                                                                                                                                .-=           ~'O               "'"(;
           M      ~  U                                                                                                                                                              ...N
           =                                                                                                                                                          .5                                u
           O      -<                                                                                                                                                              .g~                   u
                                                                                                                                                                          bO       c c                  1-
           M      -
                      rII
                                                                                                                                                                                   = ~                  :J
                                                                                                                                                                      .5                                O
           >c                                                                                                                                                         "0                                cn
           ~                                                                                                                                                             c
                                                                                                                                                                                   c;                   u
                                                                                                                                                                        ~
                                                                                                                                                                                   0-                   1-
            &..                                                                                                                                                       10;;                              1-
           .g                                                       °          °               o           o      o      o       o      o      O       0     0        -.           ~~                   U
                   1,. -0              c        °
                                                °
                                                          O
                                                          OA        °          °       8       ~
                                                                                                           o
                                                                                                           0      ~
                                                                                                                         "'
                                                                                                                         o       ~      ~      fA      ~     ~
                                                                                                                                                                      "'(;        ~ C                  t:
                                                                                                                                                                                                        "'
           .c     -~                   o
                                                0.                  0-         0.      "'.                                                                              C          U) 0                 :J
            U     0    -0             .=        0                   °          °       M                   "'
                                                                                                           0             'D                                             O
            ~                                                                  ...     '0                                                                                         ~OOQ)                 0-
            0
                  -c
                   WQ).c
                                       =        ~                   ~          CA
                                                                                       ~
                                                                                                           M
                                                                                                           ~
                                                                                                                         -
                                                                                                                         ~
                                                                                                                                                                      ...::
                                                                                                                                                                        <)                           .s
            &..    c    e             .-                                                                                                                                C          o~                 v
            Q.
                                                                                                                                                                      ..e
                                                                                                                                                                                           Q)         "0
            Q.    Me=                                                                                                                                                              C~                  c
                  ~   0               .~                                                                                                                              "0          :=>-
                                                                                                                                                                                   0                   "'
           <      -u~                                                                                                                                                     C
                   ~  Q)                                                                                                                                                  tU      ::.c               "2
            ~
             =    -~                                                                                                                                                               e~
           .-                                                                                                                                                         "'(;                             oD
           '0                                                                                                                    o      0      0       °     O
                                                                                                                                                                        C         -P.                  C
                                                                                       o          o        o      o      o
            =           =                       o         o
                                                                    8          9       o          o        o      o      o       ...o          ~       O     04         O         fAU) Q)             .L:
                                                o         o                                                                             o                             ...::
             =                                  o         o         0.         0-      on         oooon                                                0.                         ~        =           :J
                  O'.~                          O         O         0          0       N          .,,-     0.     O      N              O              0
                                                                                                                                                                          e        Q)      CT         "0
                                                                                                                                        o              O
           ~                                                        ~                  'D         N        "'     "'     'D
                                                                                                                                                                          U
                  =~                            ..,.      ..,       ~          ~       --0                 N             -              ..,
                                                                                                                                        ...
                                                                                                                                                       0.                          ~
                                                                                                                                                                                           Q)
                                                                                                                                                                                           ...        "0
                                                                                                                                                                          Q.                           U
             =     1.'0 =
                   ~
                                                                                       ~          ~~~~                                                 N
                                                                                                                                                       ~                  O
                                                                                                                                                                                   U
                                                                                                                                                                                    0     C
             0                                                                                                                                                                                         >
           .-      ~ ~                                                                                                                                                -           -~
            -                                                                                                                                                                     -~~                 O
             U    >c e                                                                                                                                               tt..           ...Q)              cn
           <      =     6                                                                                                                                            O
                                                                                                                                                                                   Q) ...              ~
           -       = 0                                                                                                                                                ...
                                                                                                                                                                                  lE 0                 U
              ~   ~     u                                                                                                                                            ..E                              .0
           .-                 ~                                                                                                                °       °     0
           '0
              ~               ~                  o         o         0          °
                                                                                °
                                                                                       o          000000
                                                                                                                                               °       °     ~
                                                                                                                                                                      U
                                                                                                                                                                          "'      O~
                                                 o
                                                 o
                                                           o
                                                           o         8.
                                                                                       o
                                                                                       "'
                                                                                                  ...'00000
                                                                                                            0     O      on      0      0      0-      0.             ='
                                                                                                                                                                                  -0                 ..~
                      oo~-
            E                                    O         O         o
                                                                                0.
                                                                                0      ...;                 O     O      M       0      O      0       °
                                                                                                                                                                      0"
                                                                                                                                                                                  .~
                                                                                                                                                                                   U 0~               cn
                                                                                       -c                   on    on     '0      on     0      0
            ~                                                        ~          ~                           N                    ,      ..,    0.      8.                                             U
           ~
                                                 ~         ~
                                                                                       ~                   ...,   ...,   ...,           ...,           N              ~
                                                                                                                                                                                   ~~
                      ~~                                                                                                                       S
                                                                                                                                               ~
                                                                                                                                                       ~             rn
                                                                                                                                                                     -              CN
                                                                                                                                                                                                     .U
                      ~~                                                                                                                                             ...J
                                                                                                                                                                                  .-fA
                                                                                                                                                                                  ~        ~           a
                                                                                                                                                                                                       0.
                      ~~
                      ~                                                                                                                                                           t.,. ~Q)             ~
                                                                                                                                                                                  .-U
                                                                                                                                                                                    ~
                      U                                                                                                                                                                                U
                                                                                                                                                                                                       cn
                                                                                                                                                                     ffi          ~      ~
                                                                                        ~      !ij                       8                        9                  U            U
                                                                                                                                                                                    Q) Q)
                                                                                                                                                                                         C           "-6
                                                                                                                                                                                                       1-
                                                                                                                                                                       ...
                                                                                                                                                                                  ~      U)            U
                                                                     8                  8      ~~~o                                               ~                  "0
                                                                                                                                                                       u
                                                                                                                                                                                         ~            t:
                                                    ""'                                                                                                              .;n          t.,. ~               "'
                                                    tII                                 ~ ~:8~                              ~(/)               ~~                                   0-                 :J
                                                                                8                                                                                      c
                                                                                                                                                                                                       0-
                                                                                        ~ § ~ ~o                         ~. ~ 9                < s                     o            Q)::
                                                                                                                                                                       <)                            'i
                      ~
                      ~
                                                    ~
                                                    rn         ~     ~          ~
                                                                                u                                                                                     o           IE~                N           c
                                                                                                                                                                                                                 c
                                                                     ~                  !ij~~                            ~~ol:~                                       c           o .g               "0          N
    ~                 ~                                                                 ~u<                              oo~~~                                       "0
                                                                                                                                                                                                      C
                                                                                                                                                                                                      ..,        N
                       e
                       ~
                                                                     ~          ~       (/)~ ~ ~ s                       ~ .5 ~                ~~ 0
                                                                                                                                                  ~                  :0           <.~
                                                                                                                                                                                  ~o. 0
                                                                                                                                                                                                                 c
                                                                                        j::i;I~             j::   ~      ..J     O      ~.~                                       ~
                      z                             ~~~                                                                                                                            ~ ...                          ~
                                                    u ~ ~
                                                    §   o.                      ~
                                                                                VI      ~~~                 ~     ~      ~       ~      0   ~     f::        o        ~                              -5
                       ~
                      .-                                                ~
                                                                        0      ~        ~~<                 ~     u      85             i   ,"",8UM~
                                                                                                                                                                      t1J
                                                                                                                                                                      O           ~~                 .~          -.
  ~                   ~                             <          al              ~                                                                                                                      "'
                                                                                                                                                                     0.           2.                             i
  u                                                                                                                                                                                                  .~            ;;
  <                                        '0                                                                                                                                                        :~            ~
                                           O          ~   .~              ti       ~                                                    G     G    G                                                  U            u
    ~                 ~                     c:..~..~...~..~                                       ~         ~     ~      ~      0,      :ac:ac:aco
                                                                                                                                         UoUOUO-
                                                                                                                                         e .~ e .~ e .-0                                             <           ~
    <                 (-4                  .g ~ .!! ~ .!! ~ .!! ~ .!!
                      u                    bQ)o)o)o»0»0)o                               9         ..1..1..1..1
                                                                                                                                 ""
                                                                                                                                 O
                                                                                                                                         UuUuUtj
                                                                                                                                        ~<~<~<I-
                                                                                                                                                             ID
                      <                    ~i.:~i.:~i.:~i.:~..J
                  ~.;
                                                  o                 -0
                   -VI
                                                  8.                ...
 ~                'ot"   .-
                                                  ...,
                                                                    ~
 <9           ~Q                                                    "'"
 -                                                ..,               ...
              ~.::                                ~
                                                                     "
 t/)           "' f
 r--                                                                 ~
 N            ~Q                                                    ~
 0\                       "'
                         -
 ~                       0
 ~            ~..J~
               = VI .-                           8
                                                 0-
 00                                              ~
 O            Mi5~                               °
              ~    "'            ~               M
                                                 ~
                         -Q,
               -,                GJ
                VI\J"'
              -U
                                {II
                                Q
                  1.     ~                       8
                  ~      fi)                     0.
                                                 o
              O'Q                                o
              ~-                                 0.
               c         ~
              M          =
                         ~
       M      ~          (.I
       O
       O      -<
       M      -
                  fi)
       >
       r..
        &..
       cS
                Lo ~            C                o
       .d      -OJ              O                o
                                                 o
        u
        =     O'~;                               "'
              -C                 =               0-
        0                                        '0
        &..     ..OJ,Q
                C e             .-               ~
        Q.
        Q.    Neb
              ~   0             .~
       <
              -u~
               rJ\ OJ
        bD
        =     ~~
       .-
       '0
        =                 =                      o
                                                 o
        =     0'         .~                      o
       r..                                       O
              =~                                ;;
         =     ~-o
               ~         =                      M
         0     41        41                     ~
       .-
        -
         U    ~          8
       <      =          8
       -       =         0
         =    ~          u
       .-                  41
       '0                                        o
         ~               ~
                         -                       9
        S
        ~     OO~
              -Q
       ~                                        ~-
              ~~                                ..,
              U~                                ..,
              ~~
              ~
              U
                                      -;;-
                                      -0
                                          ~
                                          (,I
              ~                           ~
              {/)                                              o
                                      Os
                                          ..
                                                               0
~                                                              N
              ~                       -0
               s                                               N
(-4                                   ~                        O
               ~                      \D
              z                       O
                                                               ri
                                                               ='
              -41
                                          II
                                      -C                       ~
~             00                       O
                                      °Oil
                                       ..
u                                     ~
                                                               ~
                                                              -0
<                                                              "'
                                                               ..
                                      ~
                                                               C
(::           §                        ~                      "3
~             ~                        E                      ~
                                                 s
              u                         E
                                        "        =
              <                       (I)       ('>
                                                         \11 ' ;.2-3
                                                             0
                                                             ~
                                                                           0           8
                                                                                                     0            O
                                                                                                                  lA
                                                                                                                                                            0
                                                                                                                                                            ~                8 ~                                                              °
                       ~...
                       -W)                                                            0.                                              8.                                                                         8                            °                 "0
    ~                  ~    .-                                                        0                                               ~                                      0.                                 0                             0.
                                                                                      '""                                             N                                      0                                  o                             ."
    =
       I          .Q                                                                  ~                                               ...
                                                                                                                                                                                                                '..0                          ~                 ~
                                                                                                                                                                             ~                                                                ~.                '"'
    ~                  ~~                                                                                                                                                                                       ~                             ~
    t{)                'E f                                                                                                                                                                                                                                      "
    t-oo                                                                                                                                                                                                                                                         ~
    M                  ff')Q                                                                                                                                                                                                                                    Q;;
    0'1                      .. -
    ~                           01
                                                            o             o           0           0               0               o                    o                     o                   o                                           0
                   ~...~
                    =     W) .-
                                                            ~             ~           ~           ~               ~               ~                    ~                     ~                   ~              ~                            ~
    ~                    .-u
                   MQ=
    0
                   ~      ..~
                         -c.
                    ';jOlt
                   -u
                                          Uj
                                     Q
                                                           o             o                                     o                  0                   °                  o                   o              °                             °
                        1,.
                       -VJ
                                -                          o             o          ~             8            o                  ~                   °                  ~                   o              O                             °
                                                           o             o                        0.           o
                                                                                                                                                      0.                                     o              0.                            0.
                                                           O             .,,-                                  0                                                                             O              0                             ""'
                   OIQ                                     M             M                        N            M                                      ..,                                    o              O                             ""'
                                                                                                  ~
                   'C-
                    =           ~
                                                           ~             ~                                     ~                                      ~
                                                                                                                                                                                             ~              0.                            N.
                   N            ~                                                                                                                                                                          ~                              ~
                                -
           M       ~             U
           =
           =       -<
           M         VJ
                   -
           >
           ~
            '-
           .~                                              o            o        O              °            o                o                   °                      o                   o             °                             o
            -=         l.."Oc
                                ~     Q                    o
                                                           o
                                                                        o
                                                                        0
                                                                                 04             °            0                I.A                 °                      ~                   o
                                                                                                                                                                                             0
                                                                                                                                                                                                           °
                                                                                                                                                                                                           °
             U     0          "0     °.c                                                        0.
                                                                                                .,.,
                                                                                                             0.                                   0.                                                                                     8.
             ~                                             0.           .,,-                                 0                                    V)                                         0.            O                             or,
                               c      =                    ,            ,                       N            M                                    ..,                                        0             °                             or,
             0
             '-    "O~~
                    =           e    o-
                                                           ~            ~                       ~            ~                                    ...
                                                                                                                                                                                         ~                 0.                            ~
             c.                                                                                                                                                                                           ~                           04
             c.    Ne.:
                   ~            Q    o~
           <
                       ~        u~
                                ~
            bD
            =      -~
           .-
           -0:
            =                                          o                o        o            o              o                o                   o                 o                    o                o                          o
                                                       o                o        o            o              o                o                   o                                                       o                          o
            =      og                                  o                o        o            o              o                o                   o
                                                                                                                                                                    o
                                                                                                                                                                    o

                                                                                                                                                                                         o
                                                                                                                                                                                         0                o                          o
           ~                                           6                .".      O            ...;           0-                                                     0.               0.                   O                          O
             =
                   =-.g
                    1..00=
                                                       M                M        ""
                                                                                 ~            ~ ~                             M
                                                                                                                              ~
                                                                                                                                                ..,
                                                                                                                                                ~
                                                                                                                                                                    0
                                                                                                                                                                    "'
                                                                                                                                                                                     0
                                                                                                                                                                                     -
                                                                                                                                                                                     0.4
                                                                                                                                                                                                          0
                                                                                                                                                                                                          N.
                                                                                                                                                                                                                                     o
                    ~                                                                                                                                                                                     V)
           .-
             0      ~ ~                                                                                                                                                                                   ~                          ~
            -      ~     e
             U
           <       =     e
           -        = Q
             ~     ~     u
           .-                  ~
           -0:
             OJ               ~                        o
                                                       o
                                                                    o
                                                                    o
                                                                                o
                                                                                o
                                                                                             o
                                                                                             0.
                                                                                                          o
                                                                                                          0
                                                                                                                          o
                                                                                                                          0
                                                                                                                                             0
                                                                                                                                             0
                                                                                                                                                                o
                                                                                                                                                                o
                                                                                                                                                                                     o
                                                                                                                                                                                     o
                                                                                                                                                                                                      o                             °
                                                                                                                                                                                                                                    °
                              -                        o            o           o            0            0               O                  0                  o                    o                 9
            S                                                                                                                                                                                                                       0.
                   oo~                                 O                        O            .,...        0               .,...              .,...              O                    O                0                             0
            OJ                                         lA
                                                       M            lA
                                                                    M           lA           N            M               N                  M                  o                    o                o                             °
           ~       ~~
                   ~~
                                                                                             ~            ~               ~                  ~                  --
                                                                                                                                                                N        .~                           '"'1.
                                                                                                                                                                                                      "'
                                                                                                                                                                                                                              .'D
                                                                                                                                                                                                                                    ,.:
                                                                                                                                                                ~                                     ~                             ~
                  ~~
                  ~-
                  u
                                                                                                                                                                                     >-
                                                                                0                         oId~                                                                       <,
                                                                                                                                                                                     ~
                                                       (/)       ...I
                                                                                ~                         ~~                                                                         ~                                  ~
                                                       ~od                                                O~                                                                                                            "E
                                                       <UII.                                                                                                                         ~
                                                                                                          ~£                                                                                                             8
                  -                                                             ~ ~                                                                                                  =
                                                                                                                                                                                                                         f!
                  00                                                                                                                                                             ~                                                                       o
                                                       'Ciii~                                            ~~~                                5                   (/)              ~11J(/)                               .s                                0
                                                       ~1&1>-                                            a~1-                               -                   I1J              °t:11J
                                                                                                                                                                                                                         u                               N
-                 ~                                                                                                                                                                                                    ."
                    S
                                                       ~ut:
                                                                                !            ~           ~~~                                ~
                                                                                                                                                                u                :z(/)u                                0
                                                                                                                                                                                                                       ~
                                                                                                                                                                                                                                                         N
                                                                                                                                                                                                                                                         O
                   ~                                                            >-          ~                                                                   ~                e~~
~                                                                               <           -            2(jo                               ><                  I1J              <IUIU
                                                                                                                                                                                                                       ...
                                                                                                                                                                                                                       o
                  Z                                                             V)        ~                                                                                                                                                              ti
                                                      ~~~                                                :J~~                               ~                                                                           N                                ='
                   ~                                  IXIXO                     9       .~               a             ,.U)
                  -
                  0-                                                            ~OO                      ~OIU                                                   B                ~~B                                   -c                                ~
                  00                                  ~2~                       ..J(,)-                  lUua                               (I)                 <                .,,(/)<                                0                               -.
                                                                                                                                                                                                                       .Oil
                                                                                                                                                                                                                        u                                ;.:.
                                                                                                                                                                                                                                                         tU
                                                                                                                                                                                                                       p:                               -0
                                               r--                                                                                                                                                                                                       "'
                                               o                                                                                                                                                                       ..9;                              V
                                                                                                                                                                                                                                                         C
                                                      .~            ~           ~            ~            ~               ~                 ~
                  ~                             c:                                                                                                                                                   "'i                                                "3
~                                               a      u~u~u~u~u~u~u~                                                                                                                                '0      c
                                                                                                                                                                                                                        ~
<                 E--                          °0iJ   >;-u>;-u>-u>;-u>;-u>;-u>;-u
                                                       u .-u      .-lo    ...u    .-u                             .-u-                      v          .- ~                      ~                    u      0          E                               ~
                                                      »            »»»»>                                                                                >                                                                       E
                  U                             v     .-2      .~   u .-2                   .-2          .-2                                ~               u
                                                                                                                                                                                                      E
                                                                                                                                                                                                      u
                                                                                                                                                                                                            0;;
                                                                                                                                                                                                             "
                                                                                                                                                                                                                        E
                                                                                                                                                                                                                        "       =
                  <                            cx:    ~~~,,~~~~~~~,,~~~                                                                                                          ~                   ~<                VI      tn
                                                                                                                                                                                                                                                   w-3>.'l't
                                          o o o                                 0
                                                                                ~          ~                                o               c                                         -0
             .c!   .;                                                                8.                 8.                  8               o                                         -
              -WI                                                                    0
~            ~    .-
                                                                                     °                  8                              .OD                                            ~
=                                                                                    0-                 0.
                                                                                                                           ~            v
                                                                                                                                                                                      ~
  I          ~Q                                                                      "'                 N
                                                                                                                           ...         ~                                             -
~                                                                                    ~
                                                                                                                           ~             v                                            "
tti          'E~                                                                                                                       .c                                             ~
r--                                                                                                                                     -
             MQ                                                                                                                                                                      ~
M                                                                                                                                        :>-
~                     '"                                                                                                               .&J
                     -
                                                                                                                                       ~
~                    0'                                                                                                                  v
             ~     ..;
                              WI
                              ~
                                          o
                                          o
                                                      o
                                                      ~
                                                               o
                                                               ...
                                                                            0       °
                                                                                    °
                                                                                          0
                                                                                          ~             s               O
                                                                                                                        o
                                                                                                                                        ~
~             -W            .-            o                                                                             o           .E
t~            -.-U                        c.-
                                                                                    0.
                                                                                                        8.                          .&J
                                          o
                                                                                    0
                                                                                    'D                  o               O
                                                                                                                                      ~
             NQ=                                                                                                        ~
O            ~      '"       ~            ;1,
                                                                                    rA
                                                                                                        8               "'.
                                                                                                                                      .n
             ~-c.                                                                                       ~.              V"\
              WI~,"
                             Gj                                                                         ~               ~            e
             -U
                             WI                                                                                                     .2
                            ~
                                          a           a        a           o              0         °                  °           ~
               ~      ...                 a           a        a           o        8     ~         °                  °            v
                                          a           a        a           o                                                                                           c
             ...~                                                                   0.              0.                 0.                                              o
                                          O           O        O           O        °               °                  0
                                                                                                                       -0
                                                                                                                                   -5
             O'Q                          a           a        o           o        -0              °                                                                ..=
             ~-
              =       cu
                                          '""
                                          M     .-~   -
                                                               ~
                                                                           "'
                                                                                    0.
                                                                                    on
                                                                                                    0.
                                                                                                    "'
                                                                                                                       M.          .5                                  "'
                                                                                                                                                                       u
             M        =
                                          ~           ~                    ~        ~               ""                 N
                                                                                                                       ~
                                                                                                                                   "U                               2
                     ...                                                                                                                v
       M     ~        U                                                                                                             ";;j                            ""(U
       =                                                                                                                             v                               4)
       =     ...<                                                                                                                    ~                                   u
       M     -
                 ~                                                                                                                   0'"                                 '-
                                                                                                                                                                         ~
                                                                                                                                    v
       >                                                                                                                             ..                                  0
       ~                                                                                                                           ~
                                                                                                                                                                         "'
        -                                                                                                                           v
                                                                                                                                     v                                   ~
                                                                                                                                                                         '-
       cS                                 o           o        o          °         °               °                 o
                                                                                                                                     c                                   4)
              ""Oc
             -QI             Q
                                          o           o        o          °         °     ~         °                 o
                                                                                                                      o                e
                                                                                                                                                                     t
                                          o           o        o                    0-              0.                                                                   "'
       -5    O"0-.c                       0           0        0
                                                                          0.
                                                                          °         °                                 O                ~                                 ~
        ~    -=              =            o           o        o          °         °               9                 o
                                                                                                                                       e                                 0'"
        Q                                 ~                    ~          N.        0.              0.                0-.
        -     --,,~
              c     E       .-            N           -                             ."                                "'                                        .-5
        Q.
                                          ~                               "'
                                                                          ~         ~               ~
                                                                                                    --.
                                                                                                                      N           .a
                                                                                                                                                                    o.;to
        Q.   ME":=                                                                                                                .E                                ~
             ~    o         .:J                                                                                                      v
                                                                                                                                                                     c
       <     -uQ                                                                                                                  ~
                                                                                                                                                                     "'
              111 QI                                                                                                               -                             "2
        00
                                                                                                                                  '-                              M
        =    ~~                                                                                                                      0
       .~                                                                                                                                                          bO
       "0                                                                                                                         ~                                C
                                          o           0         0         o         °     O         °                 o
        =              c                  0           0         0         o         °     lA        °                 o             ~
                                                                                                                                    v
                                                                                                                                                                 ..:
                                          0           0         0         o                                           o
        =    0'.9                                                                   0.              0-                             -                               ~
                                          O           O       .0-         6         0               °                 O             .n
       ~                                                                  o         °               °                 o                                          "0
             =~                           0
                                          ~
                                                      0         0
                                                                ~         M.        0.              0-                ~.          .5                             ~
         =       '--= c.
                 ~                        N
                                                --~
                                                      -                   .,.,
                                                                                    ~
                                                                                                    ~                 M                                           4)
         Q    ~        ~                                                  ~                         N                 ...         rn
                                                                                                                                                                  >
       .-                                                                           ~               ~                 ...         -
         U   ~         e                                                                                                          ..J                            0
                                                                                                                                                                  "'
       <     =         e                                                                                                                                          4)
              =        0                                                                                                         ~                                '-
       -                                                                                                                         £1:j                              4)
         ~   ~~
       .-                                                                                                                        U                               .D
                                                                                                                                                                 -
       "0
         ~           ~                    o
                                          o
                                                      o
                                                      o
                                                               o
                                                               o
                                                                          °
                                                                          °
                                                                                    o
                                                                                    o
                                                                                          o
                                                                                          o
                                                                                                    °
                                                                                                    °
                                                                                                                      o
                                                                                                                      o
                                                                                                                      o
                                                                                                                                 .5
                                                                                                                                                                 -
                                                                                    o     o
        a    .-                           o           o        0          0-                        0.                           ~                               .~
        ~    (/)~                         0-
                                          0
                                                      0
                                                      0
                                                               O
                                                               0
                                                                          °
                                                                          °
                                                                                    O
                                                                                    ~
                                                                                          O
                                                                                          0         8
                                                                                                                      O
                                                                                                                      ~
                                                                                                                                  -
                                                                                                                                   v                                "'
                                          N           -~                                                              -0                                            4)
                                                                          0-                        0-                             .n
       ~
             ~~                                                                     ...,. M         0-
                                          ~ ~                                                                        N-
                                                ..~
                                          ,.,                                                                                      v                            .U
                                                                          ~                         ..,              ~
                                                                          ~         ~     ~         ~                ~             ~
                                                                                                                                   0'"
                                                                                                                                                                  C
                                                                                                                                                                 "'
             ~~                                                                                                                                                  0.
             ~-                                                                                                                   -
                                                                                                                                   ~
                                                                                                                                                                 4)
             U                                                                                                                     c
                                                                                                                                                                 '-
                                                                                                                                                                 U
                                                                                                                                   ~                             "'
                                                      ~
                                                      !JJ                                                                          o                            :0
                                                                                                                                   e             ..:     ...:     '-
                                                      ~                                                                            ~                              4)
                                                      u                                           ...        ~                                   9       9       t
                                                                                                                                   v
                                         -~                           .                                                          .c              Q)      Q)       "'
                                         -!JJ         !JJ      O                    ~             -~         -E                   -                               :3
                                                                                                              o                                                   0'"
                                                                                    ;n             ~          u                  ~
                                                                                                                                                 £       £
             -                            ~           U
                                                      ..JUN    (/)-
                                                                                          LU       .n         t!                   v
                                                                                                                                                 c       c      -g
             00                                                !JJ        !JJ
                                                                                    ~
                                                                                    :J
                                                                                                                                  -
                                                                                                                                   ~             Q)      Q)     N              o
                                                                                                                                                                               0
                                          !JJ         r:       :;i!       ~               ~        ~
                                                                                                   .n
                                                                                                             0;
                                                                                                              u
                                                                                                                                   u
                                                                                                                                                 ~       tIS    ~              N
-            ~                            ..J
                                          ..J
                                                      -(/)
                                                      U        :;i!
                                                                          ~
                                                                          !JJ
                                                                                          ~        UJ        "C                  .E.
                                                                                                                                                 ~       ~       C
              e                                                                     ~     LU       cc        !::;.               --;;.          -0      -0       "'            N
                                                                                                                                                                               O
                                                                                                   .n
~             ~.                                                                    c.:            <         ~
                                                                                                             o
             z                            ~           ~        ~          ~               §        >-                            ~                              .c              -ri
~                                                                                                                                                                               ='
              ~                                                                           ~
                                                                                                   cc
                                                                                                   cc
                                                                                                              n
                                                                                                             -c
                                                                                                                                 £1:j           ffi     ffi
                                                                                                                                                                                a
                                          ~ffi~                           ~         ~                          o                 0              o       o       .~             ...,
             ~                            (/)uu                           (j        Q     6        ~
                                                                                                             .00                                       ...       "'
~                                                                                                             u                                 ~                4)
                                                                                                                                                                                >-
                                                                                                                                                                                ..
C.)          >                                                                                               ~
                                                                                                                                                                :E
                                                                                                                                                                               -0
                                                                                                                                                                                "'
-<                                 00                                                                        .2                                                   >
                                                                                                                                                                                u
                                                                                                                                                                                c:
foo4                               0                                                                                                                            ..=            -0
foo4         ~                      C                                     ~
                                                                          '0
                                                                                    ~
                                                                                c'Oc'Oc
                                                                                          ~        ~
                                                                                                    >         ~                                                   u             u
                                    O                                      u    oUoUo               0         E                                                 <              ~
-<                                                                                                                    E
             b                                                             E '.:: E '.:: E ..::     E         E
                                   .bo
                                    ~     9 9 9
                                          -J-J-J
                                                                           u .v      u v u v        u         "
                                                                                                             "'
                                                                                                                      =
                                                                                                                     rn
             <                     ~
                                                                          c.:-<c.:-<c.:-<          c.:
                                                                                                                                                                                        I"'
                                                                                                                                                                      w        ~ ~. )..')
                                          °        0         0            o      o       °            0              o              0          0                0
                                                                                                                                                                                         °
                                          °        ~         ~
                                                                          8      8
                                                                                         °                           0              ...        ~                ~
                                                                                                                                                                                         °                          -0
             ~.o:                         0.                                             0.                          0.
                                                                                                                                                                                         0.
~            '0!' .-W1                    "'
                                                                          g      ~
                                                                                         0                           0
                                                                                                                                                                                         "'
                                          ..,
                                                                                         "'
                                                                                                                     0
                                                                                                                     -0                                                                                             ~
=                 ~                       ...
                                                                                         ~                                                                                               8:.                        ""
  ,                                                                                                                                                                                                                 -
~            ~~                                                                                                                                                                          ~                           "
./1          'E e                                                                                                                                                                                                    ~
r--                                                                                                                                                                                                                 ~
M            f'\~
0'\               &.
~                      01
             "0 .0: .~
                              ~          °
                                         °
                                                   0
                                                   ~
                                                             0            o
                                                                          ~
                                                                                 o
                                                                                 ~
                                                                                         0
                                                                                         ~
                                                                                                     0
                                                                                                     ~
                                                                                                                  0
                                                                                                                  ~
                                                                                                                                 O
                                                                                                                                 ...
                                                                                                                                               0
                                                                                                                                               ~
                                                                                                                                                               0
                                                                                                                                                               ~
                                                                                                                                                                                        o
                                                                                                                                                                                        o
                                         0.                                                                                                                                             u.
~             =~u                        "'                                                                                                                                             "'
0            M~=
             ~    &. ~
                                         M
                                         ...                                                                                                                                            ~
             ~       Q.
              -=01~
             -u
                              ~
                             ~
                                          °        °         o            o      o      0            °           °              °              °               °                    o
                 "' WJ                    °        °         0            ~      ~      ~            °
                                                                                                     0.
                                                                                                                 °
                                                                                                                 0.
                                                                                                                                °
                                                                                                                                0.
                                                                                                                                               °
                                                                                                                                               0.
                                                                                                                                                               °
                                                                                                                                                               0.
                                                                                                                                                                                    0
                                                                                                                                                                                    0-
                                          0.       0.        0-
                                          "'       "'        "'                                                  0              0              0               0                    'D
             O'S                          ...      ,.,
                                                   ...
                                                             ...,
                                                             ~
                                                                                                     ~           °
                                                                                                                 00.
                                                                                                                                "'
                                                                                                                                0-
                                                                                                                                               0
                                                                                                                                               M
                                                                                                                                                               °
                                                                                                                                                               "'.
                                                                                                                                                                                    "'
             'C- =                                                                                   0.
                                                                                                     N                          fA             ~
              =                                                                                      ~           ~                                             ~                    'D
                                                                                                                                                                                    ~
             M         =
      M      ~         (.I
      =                <
      =
      M      -
                 WJ
      ~
      ~
       ...
      .s                                  O        °         °            o      o      0            °           o              °          o               o                        °
              ...'Cc                      ...      °         °            ~      ~      ~            °           o              °          o               0                        °
      .=     -41              Q                    0.        0.                                      0.          0.             0-         0.0                                      0-
       U
       «     O"C;
             -C               =                    ,.,
                                                             .,.,
                                                             ...,                                   ~
                                                                                                    °
                                                                                                                 o
                                                                                                                 o
                                                                                                                                °
                                                                                                                                "'
                                                                                                                                a.

                                                                                                                                           O
                                                                                                                                           0
                                                                                                                                           M

                                                                                                                                                           O
                                                                                                                                                           0
                                                                                                                                                           "' .
                                                                                                                                                                                    °0
       =
       ...    ~41~ e
              C              .-
                                                   ~
                                                                                                    M
                                                                                                    ~
                                                                                                                 00.
                                                                                                                 ~
                                                                                                                                ~
                                                                                                                                           ~
                                                                                                                                                           ~                        "'
                                                                                                                                                                                    ~
       Q.
       Q.    Me~
             ~   Q .~
      <      -U~
              ~  41
        ~
        =    ~~
      .-
      "0                                                                  o      o      o           °            o              o          o               °                       °
                                                    °        °
        =              ~                  8         °        °            o      o      o           °            o
                                                                                                                 o
                                                                                                                                o
                                                                                                                                o
                                                                                                                                           o
                                                                                                                                           o
                                                                                                                                                           °                       °
                                                                          o      o      o                                                                  0.                      0.
        =    O'.s                         0.        0.       0.                                     0.
                                                                                                                 O              O          O               0                       -0
                                          V)        VI       "'           6      O      6
      ~                                   ..,       ~        M            o      ...,               ~            o              In         o               °                       0-
             =...                                                                                                ..,.           0-         M
        =     .."0
                                          ~         ~                     -r-
                                                                          ~      ~
                                                                                        ...,
                                                                                        ~
                                                                                                    0.                  -~                 ~
                                                                                                                                                           "'.                     "'.
                                                                                                                                                                                   ~
        =     ~
              ~
                       ~
                       ~
                                                                                                    "'
                                                                                                    ~
                                                                                                                 N
                                                                                                                 ~                                         ~                       ...
      .-
       -
        U    ~         e
      <      =         e
      -       =        Q
        «    ~         u
      .-          ~
      "0
        ~        ~                        °         °
                                                    °
                                                             °
                                                             °
                                                                          o
                                                                          o
                                                                                 o
                                                                                 o
                                                                                        o
                                                                                        o
                                                                                                    °
                                                                                                    °
                                                                                                                 o
                                                                                                                 o
                                                                                                                                o
                                                                                                                                o
                                                                                                                                           8               o
                                                                                                                                                           o
                                                                                                                                                                                   o
                                                                                                                                                                                   o
                                          O                                                                                                                                        o
                                                                          o      0      O                        o              o          o               o
                                                             0.                                     0.
       e         -                        0.        0.
                                                    "'       .,..         6      -6     6                        O              0          0               O                       M
             cn~                          ""'
                                          M                  ..,          0      0      -           00           0
                                                                                                                 ...0-
                                                                                                                                on         O
                                                                                                                                           M
                                                                                                                                                           O
                                                                                                                                                           on
                                                                                                                                                                                   orI
                                                                                                                                                                                   00
                                          ~         ~                     -0,.          V\          0.                .~                   ~                    .
      ~      ~e.                                                          ~      ~      ~
                                                                                                    ~
                                                                                                                 N
                                                                                                                 ~
                                                                                                                                                           -
                                                                                                                                                           ~
                                                                                                                                                                                   00'
                                                                                                                                                                                   ...
                                                                                                                                                                                                    >,
             u~
             ~~
             ~                                                                                                                                                                                     1a
                                                                                                                                                                                                     u
             u                           :!:                                                                                                                               -;n-
                                                                                                                                                                                                   ~
                                                                                                                                                                           "E                        u
                                                             u
                                                             z;                  c.:    c.:         c.:          <
                                                                                                                 ~                     .~ 8                                 8
                                                                                                                                                                                                    ...
                                           s                                                                                                                                                         :3
                                           1-                                                                                                                               ~                      .0
                                                             vi.     ~                  ~           ~            ~              c.:        2                                                       .t:
                                                                                                                                                                                                    ...
                                           ~
                                           VI            .   ~~~<~>-~o                                                                                     w               .s
                                                                                                                                                                            u                       III
                                                                                                                                                                           "0
                                                             1-
                                                             2Z;O~~                                 ~            ~f:;""
                                                                                                                 ..J            <          ~                                                       --0
                                           ~        8        o    <              O 0                0:>                         ~u         ~
                                                                                                                                           ..J             ~                                       ~
                 .-I                       ~        ~        ~            ~      ~o
                                                                                  Z~           Z
                                                                                               O          Z~
                                                                                                          O                     ~0                                         ,
                                                                                                                                                                           0-                      U
                 00                        -UJ                                                                                                                             0                       U
                                           u                                                                                                                                                       c:        M
                                                                                                                                                                            K
-                ~                         ~ .~              ~            ~      ?~~~~~~                                        ~~~                                        -C
                                                                                                                                                                                                   ...
                                                                                                                                                                                                   U
                  e                                                                                                                                        ~                O                                £
                  ~                        ~::j2                                                                                                           0               .00
                                                                                                                                                                                                   ~
                                                                                                                                                                                                   tIS        >-
~                                          o-~               ~~~                 ~~~~~~~                                        ~~~                        ~                u
                                                                                                                                                                                                   :3        =
                 z                         ;zt&o:l:                                                                                                                        ~                       0-
                  41                       VI~U                                                                                                                                                               §
                 -                                                                                                                                                         ..?:                '2
                                                                                                                                                           ~                                    M            ~
                 cn                        re~~              ~~~                 ~~~~1~~=~~~                                                                                                   .
~                                                                                                                                                                           ~                                >-,.
                                                                                                                                                                            e                                ~
u                                                                                                                                                                                                             "'
                                                                                                                                                                            e
                                                                                                                                                                            ~                                 ~
                                  0\                                                                                                                                       ~
                                  0                                                                                                                                                                          .;
                                           .a      a          ~                         ...aaa                                                                                                                "
                 ~                 c        u~u~u~                                      :a C"       ] -c:a                   c:a     c:a             c:a              c                                      ~
                 f-.               o       ~ .!! ~ .!!       ~      .!!                       o             0                oUoUoUo                                               e
~                                                                                        e "a              '"    e         '"    E '"      E        ""     E         ':;
                 u                .0iJ
                                   ~
                                            »»»                           9      9       uuuUuUuUuUUU                                                                              =
                                                                                                                                                                                  (/)
                 -<                        t.:~t.:~t.:~..J                       ..J    t.:<~<t.:<t.:<t.:<t.:<
                                  ~
                                                                                                                                                                                                          w...?')./P
ATTACHMENT                   2                                                               OSWER             9275.1-04




  FY2002         Planned Approved ObligationsforNew                      RA (and Removal) StartS' in the RA AOA
                                                    (CERCLIS 0912412001)

                  Activity          S;t~ Name/NSI Comment                            au        Regional FY
                                                                                               2002 Re-1/I!!sf

Region       01
              Remedial Action       A TlAS   TACK CORP .                             01              $13,100.000
              Remedial Action       New HAMPSHIRE        PlATING   CO.               01               $8,600.000
              Removal               ELIZABETH     MINE                           00                  $15,000.000
Summary    for 'Region' = 01 (3 detail records)

Sum                                                                                                  $36, 700.000

Region       02
             Remedial Action        ROEBLING      STEEL CO.                      03                  $12,000,000
             Remedial Action        MONTGOMERY TOWNSHIP HOUSING                  02                   $2,000,000
                                    DEVELOPMENT
             Remedial Action        BURNT FL Y BOG                               03                  $22,000.000

             Remedial Action        CHEMICAL      INSECTICIDE CORP.              02                  $28.500.000
             Remedial Action        WELSBACH & GENERAL GAS MANTLE                01                  $20,000,000
                                    (CAMDEN RADIATION)
             Remedial Action        ROCKY HILL MUNICIPAL WELL .                  02                   $2,000,000
             Remedial Action       GCL TIE AND TREATING INC.                    02                    $4,000,000
             Remedial Action       TUTU WELLFIELD                               01                    $8,000,000
             Remedial Action       FEDERAL CREOSOTE                             02                    $6,000,000
Summary for 'Region' = 02 (9 detail recotds)

Sum                                                                                              $104,500,000

Region      03
             Remedial Action       NORTH PENN -AREA 6                           03                   $1,000,000
             Remedial Action       RHINEHART TIRE FIRE DUMP                     03                       $16,000
Summary for 'Region' = 03 (2 detail records)

Sum                                                                                                  $1,016,000

Region      04
             Remedial Action       SOLITRON MICROWAVE                           01                   $4,000,000
             Rerrledial Action     SOUTHERN SOLVENTS. fNC.                      01                   $5,000,000
             Remedial Action       TOWER CHEMICAL CO.                           02                     $300,000
             Remedial Action       TRANS CIRCUITS. INC.                         01                     $200,000
             Remedial Action       AMERICAN CREOSOTE WORKS. INC.            J   01                   $8,000,000
                                   (PENSACOLA PLANT)
             Remedial Action       ROSS METALS INC.                             01                   $7,400,000
Summary for 'Region' = 04 (6 detail rocolds)

Sum                                                                                              $24,900,000




Wednesday, December 19, lOO/                                                                                   Page J of 3




                                                                                                                     w;.. ~ .1.-1
                  Acti\,ity          Site NamelNSI Comment                            ou   Regional FY
                                                                                           2002 Request

Region       05
              Remedial Action        CIRCLE SMEL TING CORP .                         01          S100.000
              Remedial Action        CONTINENTAL       STEEL CORP.                   01       $30,250.000
              Remedial Action        JENNISON-WRIGHT          CORPORATION            01       $12,500.000
              RemeJial Action        PARSONS CHEMICAL \~RKS,             INC.        01          S330.000
              ~emedial Action        SHIAWASSEE       RIVER                          01       $14,000.000
              Remedial Action        SPARTAN CHEMiCAl          CO.                   02        $3,000.000
              Remedial Action        AIRCRAFT COMPONENTS             (0 & L SALES)   01        $5,000.00'0
Summary for 'RegIon' = 05 (7 detBil records)

Sum                                                                                          $65,180.000

Region       07
              OF                     HAsTINGs      GROUND WATER CONTAMIN             20       $1,000,000

              Remedial Action        ACE SERVICES                                    02       $5,200,000

              Remedial Action        10TH STREET SITE                                02       $2,060,000

              Remedial Action        HAsnNGS       GROUND WATER CONTAMIN             20       $2,000,000

SurillTIary for 'Region' = 07 (4 detail records)

Sum                                                                                          $10,260,000

Region       08
              Remedial Action        BASIN MINING AREA                               01       $3,900,000
              Remedial Action        DAVENPORT       AND FLAGSTAFF SMELTERS          01       $5,000,000
              Remedial Action        VAsQUEZ       BOULEVARD AND 1-70                01       S:7,000,000
              Remedial Action        GiLT EDGE MINE                                  03      $13,400,000
              Remedial Action        UPPER TENMILE      CREEK MINING AREA            04       $6,000,000
              Remedial Action        CENTRAL CITY .CLEAR CREEK                       02         $500,000
              Remedial Action        EUREKA MILLS                                    01      $15.000,000
Summary for 'Region' = 08 (7 detail records)

Sum                                                                                          $50,800,000

Region       09
              Removal                LAVA CAP MINE                                   00       $5,000,000
Summaty for 'Region' = 09 (1 detail record)

Sum                                                                                           $5,000,000




Wednesday, Decemb~r 19, 2001                                                                               Page 2 of J




                                                                                                               w...~.~
                   Activity           Sit~ Name/NSI Comment                      au   Regional FY
                                                                                      2002 Request

Region        10
               Remedial Action        NORTHWEST   PiPE & CASING/HALL   PROCESS                       02
                  $1.600.000
                                    .COMPANY
                  Remedial Action      BUNKER HILL MINING & METALLURGICAL    01           $1,500,000
                                       COMPLEX
                  Remedial Action      FRONTIER HARD CHROME. INC.            01           $4,000,UOO
                  Remedial Action     BUNKER HILL MINING & METALLURGICAL     04          $11,000,000
                                      COMPLEX
                  Remedial Action     BUNKER HILL MINING & METALLURGICAL     03          $25,000,000
                                      COMPLEX
                  Remedial Action     MCCORMICK & BAXTER CREOSOTING CO.      03           $2,00b,000
                                      (PORTLAND PLANT)
                  Removal             HAMIL TON/lABREE ROADS GW              01           $1,200,000
                                     CONTAMINATION
Summary     for 'Region' = 10 (7 detail records)

Sum                                                                                      $46,300,000
Grand     Total                                                                       $344,656,000


Wednesday, December 19,1001                                                                          Page 3 of 3
              FY 2002 Proposed New Start Remedial Actions
                *(Indicate Sites Planned as Removal Action)
                                   2/12/02

Region
                 State      Site Name
         1        MA        Atlas Tack Phase I (Bldg & Soils)
                  MA        Atlas Tack Phase 2 (Wetlands)
                  VT        Elizabeth Mine Phase II*
         1        VT        Elizabeth Mine Phase I*
                  MA        Nuclear Metals*

         2        NJ        Burnt Fly Bog
         2        NJ        Chem Insecticide Corp.
         2        NJ        Montgomery Township MTHD
         2        NJ        Roebling Steel
         2        VI        Tutu Wellfield

         4        FL        American Creosote
         4        Fl        Solitron
         4        FL        Southern Solvents
         4        Fl        Tower Chemical

         5        MI        Aircraft ComponentsInc (Benton Harbor)
         5        IN        Continental Steel
         5        IL        Jennison Wright

         6        LA        Central Wood Preserving
         6        LA        Delatte Metals
         6        TX        Hart Creosoting.
         6        OK        Hudson Oil RefIning.
         6        TX        Jasper Creosoting.
         6        TX        RSR Corp
         6        TX        SpragueRoad

         7        NE        lOth   Street   S"ite



         8        UT        Davenport & Flagstaff Smelters
         8        UT        Eureka Mills
         8        MT        Town of Basin
         8        MT        Upper Ten Mile Creek
         8        CO        Vasquez Blvd/I- 70

         10        ill      Bunker Hill Coeur d'Alene Basin
                                                                                                 Enclosure 5
                         Final NPL Sites with Long Term Response Actions

                                                                                     FY02            FY02
RG   ST      EPA ID      Site Name                                      Lead (1)   Requested      Distributed     Notes

1    MA   MAD003809266   Charles-George Reclamation Trust Landfill
1    MA   MAD980732317   Groveland Wells
1    NH   NHD062002001   Kearsarge Metallurgical Corporation                           350,000         350,000
1    NH   NHD980671002   Savage Municipal Water Supply                  MIXED          450,000         450,000


                                                               TOTALS                  800,000         800,000




                  Notes (1) FUND = EPA Lead
                            PRP = Potentially Responsible Party Lead
                            MIXED = Shared Lead Responsibility
                            TBD = To Be Determined




                                                                                                         R1 final NPL not CC TS5.123
                                                                                                                      Enclosure 5
                         Final NPL Sites with Long Term Response Actions

                                                                                 FY02          FY02
RG   ST      EPA ID      Site Name                                  Lead (1)   Requested    Distributed    Notes

2    NJ   NJD063157150   Bog Creek Farm                               FUND      1,000,000       500,000
2    NJ   NJD980529085   Ellis Property                               FUND      3,000,000
2    NJ   NJD053280160   Garden State Cleaners                        FUND        500,000        500,000
2    NJ   NJD981490261   Higgins Farm                                 FUND      1,200,000      1,200,000
2    NJ   NJD908505382   Lang Property                                FUND      1,300,000      1,300,000
2    NJ   NJD980766828   South Jersey Clothing Co.                    FUND        500,000        500,000
2    NJ   NJD002385664   Vineland Chemical Co., Inc.                  FUND      4,000,000      4,000,000
2    NY   NYD002066330   American Thermostat Co.                      FUND      1,500,000      1,500,000
2    NY   NYD980652275   Brewster Wellfield                           FUND        850,000        850,000
2    NY   NYD002044584   Claremont Polychemical                       FUND      3,900,000      1,000,000
2    NY   NYD986950012   Mohonk Road Industrial Plant                 FUND        350,000        350,000
2    NY   NYD001533165   SMS Instruments, Inc.                        FUND        200,000        200,000
2    NY   NYD047650197   Stanton Cleaners Area Ground Water Cont.     FUND        480,000
2    NY   NYD980763767   Vestal Water Supply Well 1-1                 FUND      1,500,000


                                                         TOTALS                20,280,000    11,900,000



                 Notes (1) FUND = EPA Lead
                           PRP = Potentially Responsible Party Lead
                           MIXED = Shared Lead Responsibility
                           TBD = To Be Determined




                                                                                                                   R2 FINAL NPL NOT CC TS5.123
                                                                                                  Enclosure 5
                         Final NPL Sites with Long Term Response Actions

                                                                                      FY02            FY02
RG   ST      EPA ID      Site Name                                       Lead (1)   Requested      Distributed     Notes

3    PA   PAD981035009   Croyden TCE                                                    200,000         200,000
3    PA   PAD002360444   Cryochem, Inc.                                                 250,000         250,000
3    PA   PAD002338010   Havertown PCP                                     FUND         600,000         600,000
3    PA   PAD002390748   Hellertown Manufacturing Co.                                    60,000          60,000
3    VA   VAD003125374   Greenwood Chemical Co.                            FUND         350,000         350,000


                                                                TOTALS                1,460,000       1,460,000




                  Notes (1) FUND = EPA Lead
                            PRP = Potentially Responsible Party Lead
                            MIXED = Shared Lead Responsibility
                            TBD = To Be Determined




                                                                                                        R3 final NPL not CC TS5.123
                                                                                                              Enclosure 5
                         Final NPL Sites with Long Term Response Actions

                                                                                    FY02           FY02
RG   ST      EPA ID      Site Name                                     Lead (1)   Requested     Distributed     Notes

4    SC   SCD980839542   Elmore Waste Disposal                          FUND          150,000       150,000
4    SC   SCD003362217   Palmetto Wood Preserving                       FUND          150,000       150,000


                                                             TOTALS                   300,000       300,000




                  Notes (1) FUND = EPA Lead
                            PRP = Potentially Responsible Party Lead
                            MIXED = Shared Lead Responsibility
                            TBD = To Be Determined




                                                                                                       R4 final NPL not CC TS5.123
                                                                                                                 Enclosure 5
                          Final NPL Sites with Long Term Response Actions

                                                                                      FY02           FY02
RG   ST      EPA ID       Site Name                                      Lead (1)   Requested     Distributed      Notes

5    MI   MID980504716    Duell & Gardner                                 FUND           40,000         40,000
5    MI   MID985574227    Lower Ecorse Creek Dump                         FUND            5,000          5,000
5    MI   MID060174240    Ott/Story/Cordova Chemical Co.                  FUND        3,000,000      2,500,000
5    MI   MID006031348    Peerless Plating Co                             FUND          300,000        300,000
5    MI   MID006013049    Petoskey Municipal Well Field                   FUND          237,000        237,000
5    MI   MID980794556    US Aviex                                        FUND          750,000        120,000
5    MN   MND980904072    Long Prairie Groundwater Contamination          FUND          450,000        450,000
5    MN   MND006192694    MacGillis & Gibbs/Bell Lumber & Pole Co.        FUND        1,100,000        500,000
5    WI   WID980821656    Onalaska Municipal Landfill                     FUND          200,000        200,000
5    WI   WID0006176945   Penta Wood Products                             FUND        1,300,000      1,300,000


                                                               TOTALS                 7,342,000      5,612,000




             Notes:       (1) FUND = EPA Lead
                              PRP = Potentially Responsible Party Lead
                              MIXED = Shared Lead Responsibility
                              TBD = To Be Determined




                                                                                                         R5 final NPL not CC TS5.123
                                                                                                               Enclosure 5
                         Final NPL Sites with Long Term Response Actions

                                                                                    FY02           FY02
RG   ST      EPA ID      Site Name                                     Lead (1)   Requested     Distributed      Notes

6    LA   LAD000239814   American Creosote                              FUND          625,000       625,000
6    NM   NMD980749378   Cimarron Mining Corp.                          FUND          150,000       150,000
6    OK   OKD007188717   Double Eagle Refinery Co.                      FUND          162,500       162,500
6    OK   OKD980696470   Fourth Street Abandoned Refinery               FUND          162,500       162,500
6    TX   TXD980873343   North Cavalcade Street                         FUND          250,000       250,000


                                                             TOTALS                 1,350,000      1,350,000




                  Notes (1) FUND = EPA Lead
                            PRP = Potentially Responsible Party Lead
                            MIXED = Shared Lead Responsibility
                            TBD = To Be Determined




                                                                                                   R6 FINAL NPL NOT CC TS5.123
                                                                                                              Enclosure 5
                         Final NPL Sites with Long Term Response Actions

                                                                                    FY02           FY02
RG   ST      EPA ID      Site Name                                     Lead (1)   Requested     Distributed     Notes

7    KS   KSD046746731   Ace Services                                   FUND          200,000       200,000


                                                             TOTALS                   200,000       200,000




                  Notes (1) FUND = EPA Lead
                            PRP = Potentially Responsible Party Lead
                            MIXED = Shared Lead Responsibility
                            TBD = To Be Determined




                                                                                                       R7 final NPL not CC TS5.123
                                                                                                               Enclosure 5
                         Final NPL Sites with Long Term Response Actions

                                                                                    FY02           FY02
RG   ST      EPA ID      Site Name                                     Lead (1)   Requested     Distributed      Notes

8    CO   COD980717557   Central City/Clear Creek                      FUND         1,100,000      1,100,000
8    CO   COD007431620   Chemical Sales                                FUND           800,000        800,000
8    CO   COD983778432   Summitville Mine                              MIXED        3,200,000      3,200,000
8    SD   SDD987673985   Gilt Edge Mine                                FUND         7,600,000      5,200,000


                                                             TOTALS                12,700,000     10,300,000




                  Notes (1) FUND = EPA Lead
                            PRP = Potentially Responsible Party Lead
                            MIXED = Shared Lead Responsibility
                            TBD = To Be Determined




                                                                                                       R8 final NPL not CC TS5.123
                                                                                                              Enclosure 5
                         Final NPL Sites with Long Term Response Actions

                                                                                    FY02           FY02
RG   ST      EPA ID      Site Name                                     Lead (1)   Requested     Distributed     Notes

9    CA   CAD071530380   Frontier Fertilizer                            FUND          500,000             0
9    CA   CAD029295706   Lorentz Barrel & Drum Co.                                          0             0
9    CA   CAD981434517   Newmark Ground Water Contamination             TBD           750,000       750,000


                                                              TOTALS                1,250,000       750,000




                  Notes (1) FUND = EPA Lead
                            PRP = Potentially Responsible Party Lead
                            MIXED = Shared Lead Responsibility
                            TBD = To Be Determined




                                                                                                       R9 final NPL not CC TS5.123
                                                                                                               Enclosure 5
                         Final NPL Sites with Long Term Response Actions

                                                                                     FY02           FY02
RG   ST      EPA ID      Site Name                                      Lead (1)   Requested     Distributed     Notes

10   OR   ORD009020603 McCormick & Baxter Creos. Co. (Portland)          FUND          200,000
10   WA   WAD980726301 Commencement Bay, South Tacoma Chanl.             FUND          740,000       400,000
10   WA   WAD009248295 Wyckoff Co./Eagle Harbor                          FUND          150,000       150,000


                                                              TOTALS                 1,090,000       550,000




                   Notes (1) FUND = EPA Lead
                             PRP = Potentially Responsible Party Lead
                             MIXED = Shared Lead Responsibility
                             TBD = To Be Determined




                                                                                                    R10 FINAL NPL NOT CC TS5.123
                                         Attachment 3
                               National Risk-Based Priority Panel

            In response to funding shortfalls and an agreement between Superfund Senior
    Managers and Congress, a change from a regional prioritization system to a national
    prioritization system was implemented in Fiscal Year 1995 for all large dollar removals and
    new start remedial action projects where funding was requested during Fiscal Year 1996.
    This system involves employment of a ranking scheme that prioritizes projects based on the
    following principles:
            *       Protection of human health

            *       Protection from significant environmental threats

            *       Potential human health or environmental threats based
                    upon current site conditions.

          Five criteria and associated weighting factors (below) are used to classify threats that
contaminants may pose. These include risks to human population exposed, contaminant stability,
contaminant characteristics, threat to a significant environment and program management
considerations. Each criteria is ranked on a scale of one to five. The highest score for any criteria
is five representing a current risk—current exposure scenario posing risk to human health and the
environment. The lowest score for a factor is one representing a future risk—future exposure
scenario.

        A national prioritization panel comprised of national program experts from Regional
offices and Headquarters ranks projects. The panel met for the first time in August 1995 to
finalize the protocol f or ranking projects on a national level and to begin voting on projects that
were ready for funding during Fiscal Year 1996.

         The Superfund program in the 1990s has shifted from a program with the largest
percentage of projects in a study phase to a program in which the largest percentage of sites have
at least started remedial design. A national priority list is seen as a way for each Region to list its
priority projects in order of importance and rank these projects against priority projects from
other Regions ensuring that scarce resources are allocated to the projects posing the most risk to
human health and the environment.
                         Criteria Factors and Weights



     WEIGHT                                         FACTORS
 5                     A. Risks to Human Population Exposed: Population size,
                 proximity to contaminants, likelihood of exposure.
 5                       B. Stability: Mobility of Contaminant, Site Structure and
                 Effectiveness of Any Institutional or Physical Controls.
 3                    C. Contaminant Characteristics: Concentration, Toxicity and
                 Volume.
 3                      D. Threat to a Significant Environment: Endangered Species or
                 Their Critical Habitats, Sensitive Environmental Areas.
 4                       E. Program Management Considerations: Innovative
                 Technologies, Cost Delays, High Profile Projects, Environmental
                 Justice, State Involvement, Brownfields/Economic Redevelopment.

The raw score for each factor is multiplied as follows to obtain the maximum score.

                                            Raw             Weight            Total
                                            Score           Factor            Score

Factor A      Population Exposed            1- 5        x   5          =      25
Factor B      Stability                     1- 5        x   5          =      25
Factor C      Contaminant Characteristics   1- 5        x   3          =      15
Factor D      Threat to a Significant       1- 5        x   3          =      15
              Environment
Factor E      Program Management            1- 5        x   4          =      20

              TOTAL                                                    =      100
                               Superfund Response Action Priority Form


        Regional Site Priority: __________   Region: __________________
        Site Name:____________________________________________________

        CERCLIS ID: ___________________                    NPL Status: _________________

        Site Location: _________________________________________________
        City: __________________________                   State: _______________________
        Congressional District_________________________________________________


        Action
        ____ Remedial, or                                  OU#: _______________________
        ____ Time Critical Removal                         (NPL/Non-NPL): ______________
        ____ Non-Time Critical Removal                     (NPL/Non-NPL): ______________


        First, Subsequent, or Final Action for site: _________________
        If this is a final action, will this result in construction completion for site (Yes/No)?_____


        Site Description (size, volume of waste, current and future land use of the site and land
adjacent to the site, etc.):




        Response Action Summary

        1) Describe briefly, site activities conducted in the past or currently underway.




        2) Specifically identify the discrete activities to be considered by this panel evaluation along
with associated cost and projected schedule.




       3) What are the projected additional activities that will result in this site reaching construction
completion? What is the estimated cost of these additional activities?
        Cost of Proposed Response Action: $_____________

        (If the response action exceeds $10 million, consultation with the Regional Center Director to
discuss alternatives should proceed ranking by panel.)


        Deviation from project budget, resulting in the exceedance of the $10 million limit, requires HQ
consultation.)



        Planned FY 2002 and FY 2003 Needs: ________________________________________
        (If large dollar project please provide a quarterly forecast) (Note: State match 10%)

        Readiness Criteria:


        Date State Superfund Contract or State Cooperative Agreement will be signed (Month)?


        If non—time critical, is State cost sharing (Provide details)? State match = 10%



        If Remedial Action when will Remedial Design be 95% complete (Month)?

        When will Region be able to obligate money to the site?____________________________

        Estimate when on-site construction activities will begin ?___________________________


        I. Principle Contaminants
        (Please provide average and high concentrations)

                                                             Concentration

        Contaminant                     Media                (Average)                   (High)
        1) _______________              _________            _____________               ___________
        2) _______________              _________            _____________               ___________
        3) _______________              _________            _____________               ___________
        4) _______________              _________            _____________               ___________


        Media: (AR) Air, (SL) Soil, (ST)Sedimsnt, (GW)Ground Water, (SW) Surface Water
       II.    Site/Contaminant Stability Describe the means/likelihood that contamination
could impact other areas/media given current containment:




       III.    Summarize Human Exposures/Risks           Describe the Exposure Scenario(s)
driving the risk and remedy (Include: current/future, on-site/off-site, media, exposure route,
receptor)



Estimate the number of people reasonably anticipated to be exposed in the absence of any future
EPA action for each medium for the following time frames:


Medium                               < 2 yrs.          < 10 yrs.                > 10 yrs.

________________                     __________        ___________              ___________



Discuss the likelihood that the above exposures will occur?




Medium                               < 2 yrs.          < 10 yrs.                > 10 yrs.

________________                     __________        ___________              ___________



Discuss the likelihood that the above exposures will occur?




IV. Explain any Ecological Risks/Impacts Describe any observed or predicted adverse
impacts on ecological receptors including their ecological significance and likelihood of
occurring, size of the impacted area.
Would natural recovery occur if no action was taken? If so, estimate how long this would take.




V. Programmatic Considerations

Describe the degree to which the community accepts the response action:




Describe the degree to which the state accepts the response action:




Describe other programmatic considerations, e.g.; natural resource damage claim pending,
Brownfields site, uses an innovative technology, construction completion, economic
redevelopment, environmental justice, etc:
